<html>
<title> - THE KATRINA IMPACT ON CRIME AND THE CRIMINAL JUSTICE SYSTEM IN NEW ORLEANS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  THE KATRINA IMPACT ON CRIME AND THE CRIMINAL JUSTICE SYSTEM IN NEW 
                                ORLEANS 

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2007

                               __________

                           Serial No. 110-55

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE

34-527 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



























                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
ANTHONY D. WEINER, New York          LOUIE GOHMERT, Texas
ADAM B. SCHIFF, California           JIM JORDAN, Ohio
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota
[Vacant]

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                  ROBERT C. SCOTT, Virginia, Chairman

MAXINE WATERS, California            J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MARTIN T. MEEHAN, Massachusetts      DANIEL E. LUNGREN, California
ARTUR DAVIS, Alabama

                      Bobby Vassar, Chief Counsel

                    Michael Volkov, Minority Counsel























                            C O N T E N T S

                              ----------                              

                             APRIL 10, 2007

                                                                   Page

                           OPENING STATEMENTS

The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     2

                               WITNESSES

Mayor C. Ray Nagin, City of New Orleans, LA
  Oral Testimony.................................................     4
  Prepared Statement.............................................     5
The Honorable Oliver M. Thomas, Jr., President, City Council, 
  City of New Orleans, LA
  Oral Testimony.................................................     7
  Prepared Statement.............................................     9
Ms. Marvalene Hughes, President, Dillard University, New Orleans, 
  LA
  Oral Testimony.................................................    10
The Honorable William J. Jefferson, a Representative in Congress 
  from the State of Louisiana
  Oral Testimony.................................................    11
  Prepared Statement.............................................    14
The Honorable Eddie J. Jordan, Orleans Parish District Attorney, 
  New Orleans, LA
  Oral Testimony.................................................    25
  Prepared Statement.............................................    27
Mr. Warren J. Riley, Chief of Police, New Orleans Police 
  Department, New Orleans, LA
  Oral Testimony.................................................    29
  Prepared Statement.............................................    32
Mr. Marlin N. Gusman, Orleans Parish Criminal Sheriff, New 
  Orleans, LA
  Oral Testimony.................................................    34
  Prepared Statement.............................................    36
The Honorable Jim Letten, United States Attorney, Eastern 
  District of Louisiana
  Oral Testimony.................................................    47
  Prepared Statement.............................................    51
Mr. James Bernazzani, Special Agent in Charge, New Orleans--FBI 
  Division
  Oral Testimony.................................................    77
Mr. David Harper, Special Agent in Charge, New Orleans--ATF Field 
  Division
  Oral Testimony.................................................    78
  Prepared Statement.............................................    80
Mr. William James Renton, Jr., Special Agent in Charge, New 
  Orleans--DEA Field Division
  Oral Testimony.................................................    84
Mr. Jacques Thibodeaux, Acting Chief Deputy, U.S. Marshal, 
  Eastern District of Louisiana
  Oral Testimony.................................................    85
The Honorable Ernestine Gray, Judge, Orleans Parish Juvenile 
  Court, Louisiana
  Oral Testimony.................................................    95
  Prepared Statement.............................................    99
Mr. Howard J. Osofsky, Chair, Louisiana State University Health 
  Sciences Center, Department of Psychiatry, New Orleans, LA
  Oral Testimony.................................................   156
  Background Information.........................................   159
Mr. John Raphael, Pastor, New Hope Baptist Church, New Orleans, 
  LA
  Oral Testimony.................................................   179
  Background Information.........................................   182
Mr. Peter Scharf, Research Professor of Criminal Justice and 
  Executive Director, Center for Society, Law and Justice at 
  Texas State University
  Oral Testimony.................................................   186
  Prepared Statement.............................................   190

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Bobby Jindal, a 
  Representative in Congress from the State of Louisiana.........    19




















                                APPENDIX

Material Submitted for the Hearing Record........................   230


  THE KATRINA IMPACT ON CRIME AND THE CRIMINAL JUSTICE SYSTEM IN NEW 
                                ORLEANS

                              ----------                              


                        TUESDAY, APRIL 10, 2007

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m., at 
Dillard University, Lawless Memorial Chapel, 2601 Gentilly 
Boulevard, New Orleans, LA 70112, the Honorable Robert C. Scott 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Forbes, and Gohmert.
    Staff Present: Bobby Vassar, Subcommittee Chief Counsel; 
Gregory Barnes, Majority Counsel; Veronica Eligan, Professional 
Staff Member; Michael Volkov, Minority Chief Counsel; and 
Caroline Lynch, Minority Counsel.
    Mr. Scott. Subcommittee on Crime, Terrorism, and Homeland 
Security on the subject of ``The Katrina Impact on Crime and 
the Criminal Justice System in New Orleans.'' I'd like to 
express my gratitude for our host, President Hughes, and 
Dillard University employees and families for your generosity, 
hospitality and hard work, and for making your campus and 
wonderful facility available for us today. Last time I visited 
we were at the Hilton Hotel; so, I'm sure it's great to be 
back. I know Dillard never missed a beat; so, it's a pleasure 
to be here. And thank you for your hospitality.
    I'd also like to thank Mayor Nagin and the city of New 
Orleans, and officials and employees for the warm and receptive 
welcome that you've shown in the development of this hearing.
    Further, I want to acknowledge Councilman Jefferson for his 
invitation to come here today and the assistance he and his 
staff provided in making contacts and their arrangements 
necessary for the hearing to take place. Representative Jindal 
expressed his regret, but he could not rearrange his schedule 
to appear; but he indicated that he would be submitting a 
statement for the record.
    And being mindful that such--that much of the devastating 
impact of Katrina still affects the city today, I want all of 
New Orleans to know that your direct experience and suffering 
as a result of the worst disaster in American history is a 
tragedy that all Americans feel. The devastation and suffering 
have all been seared into our consciousness, and we are all 
dedicated to the complete and rapid recovery of the city to its 
former stature as a great and unique international, as well as 
American, treasure.
    We're here today to look through--looking upon the effects 
of crime in the criminal justice system and what more the 
Federal Government can do to help in the subject; but we're 
aware that help is needed in other aspects of rebuilding the 
city as well. For months we've been reading and hearing reports 
indicating that New Orleans is experiencing an extraordinary 
wave of crime, particularly violent crime. With all major 
cities, preventing and responding to crime is a challenge. 
However, it is clear that New Orleans had some unique 
challenges owing to the impact of Katrina on infrastructure, 
records, manpower, and other operational necessities. We know 
that a gallant effort is being waged by the men and women who 
have been able to stay under these most challenging 
circumstances, and we applaud those efforts. We also know that 
some things are being done by the Federal Government through 
its criminal justice agencies and other Federal operations to 
address some of these serious deficits.
    We want to hear from you, some of your Federal partners, 
and others engaged in assessing and rebuilding the effort to 
determine what are the continuing challenges and what is being 
done about them and what more needs to be done that the Federal 
Government might assist.
    We have an impressive group of witnesses with the 
knowledge--with the knowledge and expertise, that we need to 
hear from. We look forward to their testimony, and are looking 
forward to working with each and every one of you as we restore 
this great city. It is now my privilege to recognize the senior 
Ranking Member of the Subcommittee, my colleague from Virginia, 
Congressman Randy Forbes, for his opening statement.
    Mr. Forbes. Thank you, Chairman Scott, for convening this 
important hearing on the criminal justice system in New 
Orleans. I'd also like to thank Dillard University President 
Hughes for hosting us this morning, and welcome our 
distinguished guests, Mayor Nagin, City Council President 
Thomas, and Representative Jefferson.
    Restoring New Orleans for its residents and for its booming 
tourism industry is a priority. In the weeks and months 
following hurricane Katrina much of the rebuilding efforts 
focused on the city's homes, businesses, schools, and 
hospitals.
    A critical but often overlooked component to restoring the 
city is its criminal justice system. It's all too easy to 
forget that the city's police force, jails, crime labs, and 
courts were also damaged or destroyed by Katrina. As cleanup 
efforts continue, New Orleans is suffering from the worst surge 
in violent crime in recent years. New Orleans struggled for 
years with the high rate of violent crime, drugs, and gang 
activity.
    Hurricane Katrina exacerbated these problems. Just last 
week, there were eight homicides in only a handful of days, 
bringing the total number of homicides this year to 53; this 
compared to 17 homicides for the same period last year. 
Numerous factors contribute to this rise in crime. The return 
of gangs to New Orleans brings the return of drug trafficking 
and warring between rival gangs. Through witness intimidation 
and threats, many violent gang members are able to carry out 
their crimes with little concern of prosecution.
    At a time when increased police presence is critical to 
stemming the rise in violent crime, the New Orleans police 
force is down from roughly 1600 to 1200 officers who make on 
average about 1500 arrests every week. Even with its diminished 
police force, NOPD has created a criminal intelligence bureau 
to address the reoccupation of New Orleans by the criminal 
element and assigned additional patrols for this year's Mardi 
Gras. Criminal investigations are delayed or stalled because of 
long delays in forensic testing. After Katrina essentially 
destroyed its crime lab, the NOPD was forced to rely on 
neighboring parishes and Federal assistance to process 
evidence. In addition, limited jail capacity and fewer 
prosecutors and public defenders have resulted in mounting 
caseloads in courts, setting little to no bail, or simply 
releasing defendants before they are prosecuted. Recently, the 
public defender's office moved for the release of 42 defendants 
based on its own admission that it could no longer provide 
adequate counsel.
    I believe New Orleans is committed to ridding the city of 
violent crime and reforming its criminal justice system. To 
assist in these efforts, the Department of Justice announced in 
January that it provided six assistant U.S. Attorneys, six 
additional ATF special agents to work with the New Orleans 
Violent Crime Impact Team, nine additional FBI agents to 
supplement the New Orleans Violent Gangs Safe Streets Task 
Force, and three additional Deputy U.S. Marshals and 
investigative analysts to support the Crescent Star Fugitive 
Task Force. I'm hopeful that these additional resources and 
cooperation between Federal, State, and local law enforcement 
are successful. I look forward to hearing from today's 
witnesses about the progress New Orleans is making to rebuild 
its criminal justice system and stop the violence and see how 
we move forward from here. I yield back my time.
    Mr. Scott. Mr. Gohmert, do you want to make a statement?
    Mr. Gohmert. No.
    Mr. Scott. Thank you very much. We'll now proceed with the 
introduction of our witnesses. We have a long list of witnesses 
today, and we're going to try to follow the Subcommittee's 
rules on timeliness so that we can hopefully complete our 
agenda so that people can catch their planes back home. Each 
witness's statement will be made part of the record in its 
entirety; so, I would ask each witness to summarize his or her 
testimony in 5 minutes or less. To help stay within that time, 
we have a little timing light at the table, which will start 
off green and go to yellow when your time is almost up, and 
then go to red when the 5 minutes are up.
    We'll then have four--we'll have four separate panels of 
witnesses. I will introduce each panel just before that panel's 
presentation. In the interest of time, these introductions will 
be a little briefer than normal; but we do have additional 
biographical information on the Committee's web site.
    Our first witness today is Ray Nagin, Mayor of the city of 
New Orleans. He was first elected as mayor in 2002, and 
reelected in 2006 to a second term. He holds an MBA from Tulane 
University.
    Our next witness will be the Honorable Oliver Thomas, 
President of the New Orleans Council. He was first elected to 
Council in 1994, and he is in his fourth term. He received a 
Bachelor's Degree of Science from the College of Santa Fe.
    Our host, Marvalene Hughes, President of Dillard 
University, has been president since 2005. She is the ninth 
president of Dillard and the first female to be appointed 
president. She earned a Ph.D. in Administration and Counseling 
from Florida State University and a Master's Degree from 
Tuskegee University.
    Final witness on this panel will be the Honorable William 
Jefferson, Member of Congress. He is in his eighth term, 
representing Louisiana's Second District. He's a graduate of 
Southern University A&M College, has a Master's in Taxation 
from Georgetown and a Law Degree from Harvard University.
    Mr. Scott. Mayor Nagin. Thank you for your hospitality.

               TESTIMONY OF MAYOR C. RAY NAGIN, 
                    CITY OF NEW ORLEANS, LA

    Mr. Nagin. Thank you, Mr. Chairman. In the interest of 
time, I will be as brief as I can. I am Mayor C. Ray Nagin, 
mayor of one of America's most beloved and distinctively 
culturally unique cities in America. To the Chairman, Chairman 
Scott, thank you for being here. Members of the Subcommittee on 
Crime, Terrorism, and Homeland Security of the House Committee 
on the Judiciary: Thank you again for being in New Orleans.
    This is a very critical topic for us. We've been working 
for the past 19-20 months to get our city back in order. We 
have miraculously avoided bankruptcy. And with the help of some 
loans from the Federal Government, we have been able to stand 
this city up as best we can.
    You will hear testimony today regarding the struggles that 
we have faced, particularly in the criminal justice system. 
You've read off some statistics that kind of encapsules what's 
been going on. We have been working very hard. We've enlisted 
support from lots of different sources, key members of the 
criminal justice system and the New Orleans City Council. We 
all stood together and reengaged our focus area--efforts as it 
relates to trying to abate the violent crime that has been 
plaguing our city. We worked with former Louisiana Attorney 
General Richard Eyoub. We called in National Guard support, 
State Police support. We're done just about everything that we 
could to make sure that we had the resources necessary.
    The hard-working men and women of our criminal justice 
system, and particularly our law enforcement agencies, have 
been working tirelessly in spite of some of their unique 
struggles, still trying to rebuild their lives after Katrina. 
But like many communities, we are struggling with violent crime 
in our community, and we face many challenges that could use 
Congress's support.
    We face the substance abuse crisis in our community, where 
we really do not have the resources to make a dent in that, nor 
to deal with it adequately. Our education system continues to 
struggle going forward. Domestic violence is on the rise in our 
community as it relates to posttraumatic stress disorder that 
is affecting many of our citizens. And our mental health 
system, health care system, is very broken in this community 
and really needs some serious attention.
    I am asking for a couple of very specific things that 
Congress can help us with. First, on crime-fighting tools: We 
need about $17 million for vehicles, equipment, and recruiting 
strategies to support our crime-fighting efforts for the New 
Orleans Police Department. Secondly, our youth, we need your 
immediate help for this summer's activity. We are looking for 
$4 million to employ 2,000 young people in our community, to 
make sure that they have something meaningful to do--kids who 
are in the at-risk-age categories, for summer youth employment. 
Fourthly, we need to--we are asking for support to reestablish 
an ex-offender's work force development program, $3 million to 
fund comprehensive work force development services for 500 
former offenders so that they can reestablish themselves 
productively back in our community. And then, finally, to 
provide some critical drug rehabilitation services; another 
critical issue in our city that we just don't have the 
resources at this time, nor have they come from the Federal 
Government nor the State government to help us with this. We 
need $10 million over 3 years to implement a program that would 
provide culturally sensitive and appropriate drug 
rehabilitation and prevention.
    Ladies and gentlemen, that concludes the--the bulk of my 
comments, and I'll be happy to answer any questions. And I want 
to thank you again for being in New Orleans today.
    [The prepared statement of Mr. Nagin follows:]
                   Prepared Statement of C. Ray Nagin
    NEW ORLEANS, LA (April 10, 2007)--Mayor C. Ray Nagin gave opening 
remarks today before the start of the House Judiciary Committee 
Subcommittee on Crime, Terrorism and Homeland Security regarding the 
``Katrina Impact on Crime and the Criminal Justice System in New 
Orleans.''
    The text of his comments follows: I am C. Ray Nagin, Mayor of New 
Orleans, one of America's most beloved and culturally distinctive 
cities, and a city which is facing the challenge of recovering and 
rebuilding after the worst natural and man-made disaster to occur in 
the United States of America. To Chairman Robert C. ``Bobby'' Scott and 
members of this Subcommittee on Crime, Terrorism and Homeland Security 
of the House Committee on the Judiciary: Thank you for coming to New 
Orleans to continue the generous support Congress has given for the 
rebuilding of our city.
    I would also like to publicly express appreciation for the 
dedicated and tireless support that we have received from the United 
States Department of Justice. By supplying federal assets and resources 
to assist our police department, speed the repair of our criminal 
justice system and initiate innovative programs, they have been an 
invaluable partner.
    You will hear testimony today regarding the struggles that we face 
in rebuilding a criminal justice system whose infrastructure was 
completely destroyed by Hurricane Katrina and the subsequent flooding. 
Our work has been unflagging, and I would like to outline for you the 
steps that we have taken to accelerate its recovery:
    Last summer, I convened a 100-day implementation team to provide 
recommendations for accelerating several areas of our recovery, 
including city services, repopulation, and the criminal justice system. 
The 100-day team was led by Former Louisiana Attorney General Richard 
Ieyoub and included many individuals who will testify today. Some of 
the accomplishments of this team were:

        <bullet>  Established automated intranet access to give the 
        District Attorney and Clerk of Criminal District Courts 
        immediate access to accurate records of police personnel.

        <bullet>  Improved subpoena delivery to police officers on the 
        orders of Police Superintendent Warren Riley to have the NOPD 
        Office of Compliance be responsible for the acceptance of all 
        Criminal District Court subpoenas and for delivery to members 
        of the department.

        <bullet>  Collaborated with District Attorney's Office to 
        secure additional Assistant DAs from other jurisdictions to 
        eliminate the excessive case backlog.

        <bullet>  Reorganized physical evidence damaged during 
        Hurricane Katrina and made it available for trial in June 2006.

    Earlier this year, key members of the criminal justice system and 
the New Orleans City Council stood with me to announce a focused effort 
on violent crime in our city. Since January, with the cooperation of 
Orleans Parish Criminal Sheriff Marlin Gusman and the support of his 
deputies, our police department has been able to assign more police 
officers to police patrols. In addition, the department, under the 
leadership of Chief Riley, has increased the number of drug and alcohol 
checkpoint areas in the city, leading to hundreds of arrests, drug 
seizures and the confiscation of hundreds of guns. The department also 
has implemented the Quality of Life task force that is addressing 
concerns less immediate than life and death situations, but that 
contribute to the way that people feel about our neighborhoods.
    We are grateful for the hardworking men and women in law 
enforcement who, in the midst of their own personal losses, continue to 
serve on the front line to protect our citizens and our city. Last 
fall, I proposed and the City Council approved pay increases for police 
officers. We are currently working with Civil Service to develop a 
program that would provide incentives to attract former military 
personnel to become police officers in our department.
    Despite this positive movement, we continue to face many 
challenges. Our police department remains understaffed and lacks some 
critical equipment and supplies. Our officers are encountering more 
crime suspects and victims who suffer from substance abuse. And too 
many of our young people are on the road to prison or an early death.
    In crafting our federal legislative agenda this year, we focused on 
these realities and the fact that the criminal justice system does not 
exist in isolation. It is struggling to provide safety and security in 
a city with many problems that can lead to crime and violence, some of 
which existed before Hurricane Katrina's widespread destruction 
exacerbated their affect:

        <bullet>  Like many communities in this country, we face a 
        substance abuse crisis

        <bullet>  The education system, which was deeply troubled 
        before Katrina, is rebuilding from scratch

        <bullet>  Domestic violence is a significant problem that 
        triggers cycles of violence in homes

        <bullet>  Our mental health services delivery system is broken 
        and putting even more strain on the police department

    We are seeking the following appropriations to address some of 
these issues:

  Crime Fighting Tools

        <bullet>  $17.1 million for vehicles, equipment and a 
        recruiting strategy to support the crime fighting efforts of 
        the New Orleans Police Department (NOPD) by giving them 
        critical tools to increase their capacity and effectiveness.

  Summer Jobs Initiative to Prevent Juvenile Crime

        <bullet>  $4 million to employ 2,000 young people from our most 
        at-risk age categories in a summer jobs program that would 
        provide healthy and constructive alternatives in their lives.

   Re-establish an Ex-Offender Workforce Development Program to Prevent 
Recidivism

        <bullet>  $3 million to fund comprehensive workforce 
        development services for 500 former offenders so they can re-
        establish themselves productively in our community

  Provide Critical Drug Rehabilitation Services

        <bullet>  $10 million over 3 years to implement a program that 
        would provide culturally sensitive and appropriate drug 
        rehabilitation and prevention, and would increase facility 
        capacity. We have to combat the scourge of drugs shattering 
        lives and destroying the fabric of our community.

    Public safety has been a critical concern of our administration. We 
have made aggressive efforts to focus on violent crime and have 
specifically targeted murders. In increasing the presence of police 
officers on the street and through cooperation with the U.S. Attorney's 
Office, U.S. Drug Enforcement Agency, Bureau of Alcohol, Tobacco and 
Firearms, Federal Bureau of Investigation, Orleans Parish Criminal 
Sheriff's Office, the District Attorney, judges and the community, we 
are confident that we have all aspects of criminal justice system 
working in concert. We will not give up until we make our community 
safe.
    Thank you again for visiting New Orleans. We look forward to your 
continued support as rebuild from an experience no other American city 
has ever faced.

    Mr. Scott. Thank you very much.
    Mr. Thomas.

 TESTIMONY OF THE HONORABLE OLIVER M. THOMAS, JR., PRESIDENT, 
             CITY COUNCIL, CITY OF NEW ORLEANS, LA

    Mr. Thomas. First of all, let me thank our host Dr. Hughes 
and the Dillard family, our Congressman, the mayor; you, 
Chairman Scott, Mr. Forbes, and other Members of the Committee. 
Thank you for having me here today. It's always special when 
Congress comes to town. It means we matter. It means New 
Orleans still matters. But it also means that there are 
problems here we haven't solved yet.
    No one will dispute the fact that we face many issues in 
the city. We wouldn't be here today if we didn't. But within 
the plethora of issues, there are some that are more important 
than most; and we think that is crime and crime prevention. We 
know that is of the utmost importance.
    Now, we've seen some disputes over the impact of crime 
statistics. We've heard that modeled one way or another, with 
generous population assumptions, our crime is relatively 
stable. We've heard that modeled other ways, assuming a smaller 
population, that crime has risen drastically. But none of that 
matters to people who live here. We are tired of hearing 
interpretations and assumptions. Whatever crime we have is too 
much, and whatever solutions we are putting in place can't be 
done fast enough. Those disputes--those facts are indisputable.
    It is also a fact that government, all governments--local, 
State, and Federal--have begun to act. At the local level, the 
City Council, led by Councilman James Carter, has established 
the Crime Summit and a Crime Subcommittee, where community 
activists, leaders, and national experts came together to 
address issues and formulate solutions to our crime problem.
    We've increased our funding for police pay for officers, 
that we used--and it also increased the area to entice new 
recruits. We suspended residency requirements post-Katrina that 
would have made it impossible to recruit outside of our area. 
We've raised salaries for Assistant District Attorneys in an 
attempt to both recruit and retain legal talent.
    For the first time in recent memory, all of our leaders are 
on the same page. Police Superintendent Warren Riley and 
District Attorney Eddie Jordan have come together on agreements 
that will help with processing, evidence gathering, and 
prosecution of cases. Today there are dedicated task forces of 
prosecutors charged with interfacing with police officers to 
make sure that particular cases have particular contacts within 
both offices and to facilitate their movement through the 
system. Police officers are learning how to write better, more-
efficient reports, and ADA's are learning how to prepare 
officers to testify in cases. Both departments are learning 
from each other, and that's a positive step. We are looking at 
models based on best practices of everything that has worked. 
Community cases, Broken Windows, neighborhood watch, you name 
it; we are desperately trying to find the solution.
    There are partnerships at the State level that have allowed 
the National Guard and State Police to help augment our law 
enforcement capacity in certain areas. We're sharing a crime 
lab in Jefferson Parish, as we struggle to find the resources 
to rebuild our own. There are partnerships with the DEA, 
dedicated narcotic units, with the Department of Justice for 
extra prosecutorial ability, and in cases with the U.S. 
Attorney to move cases into Federal court whenever it's 
possible. Everything is and should be done with both eyes 
toward making the systems that are involved work better.
    That's some of what we're doing, but it's far from 
everything that needs to be done. And that's where we--that's 
where we need your help. We're in desperate need of additional 
Federal dollars to rebuild our criminal justice system. We need 
our courts back, fully operating. We need our crime lab funded 
and running. We need to increase the number of officers on the 
street, and we need to help our community help itself.
    We need our parks reopened. We need better schools for our 
kids. We need recreational activities at night and in the 
summer. All of that, I hope you can help us with. And there 
might be people who say, ``Why spend money on playgrounds when 
we should be building prisons?'' Why--we've already done that.
    We already have one of the highest incarceration rates in 
the country, particularly among African American young men. If 
we could have arrested our way out of this problem, we would 
have done so a long time ago.
    The simple truth is--if there's ever a simple truth to be 
told--that every part of our system must work better in order 
for our system to work. Our schools must teach children who'll 
use that knowledge to build careers and economic wealth; which 
then, in turn, they'll invest in their children, and 
communities--which will build stronger communities, which will 
strengthen individual responsibility, which will create a 
stronger city and a better quality of life.
    But better schools without recreational activities isn't 
enough. Because we all have kids or know kids, who were kids, 
and know that if you don't give kids something else to do, 
they'll find, in many cases, the wrong thing to do with the 
amount of time that they have on their hands.
    But schools and recreation without police and prosecutorial 
protection isn't enough, because if we can help people feel 
safe, then they won't--because if we can't help people feel 
safe, then they won't wait around for their children to help 
not only change the world, but change this community. This, 
too, is an indisputable--this is an indisputable fact.
    Finally, everything I've mentioned here can be done and 
should be done. And the fact that we're here, as I've said 
before, means that we all want it to be done because here 
matters and New Orleans matters. It's a special place with an 
indomitable spirit. It deserves to be saved. We can save it, 
and we appreciate you guys being here to help save our 
community. Thank you.
    Mr. Scott. Thank you, Mr. Thomas.
    [The prepared statement of Mr. Thomas foll follows:]
       Prepared Statement of the Honorable Oliver M. Thomas, Jr.
    Thank you for having me here today. It's always special when 
Congress comes to town. It means we matter here. It means New Orleans 
still matters. But it also means that there are problems we haven't yet 
solved.
    No one will dispute that we face many issues in this City. We 
wouldn't be here today if we didn't. But within that plethora of 
issues, there are some that are more important than most. Crime, and 
crime prevention, is that important.
    Now, we've seen some disputes over the impact of crime statistics. 
We've heard that, modeled one way, with generous population 
assumptions, our crime rate is relatively stable. We've heard that, 
modeled other ways, assuming a smaller population, crime has risen 
drastically. We're tired of hearing interpretations and assumptions. 
Whatever crime we have is too much, and whatever solutions we're 
putting in place can't come fast enough. Those are indisputable facts.
    It is also a fact that this government, all governments, local, 
state, and federal, have begun to act. At the local level, the City 
Council, led by Councilman James Carter, established a Crime Summit, 
where community activists, leaders, and national experts came together 
to address issues and formulate solutions to our crime problem. We've 
increased our police budget, raising pay for officers and used that pay 
increase to entice new recruits. We suspended residency requirements 
that, post-Katrina, would have made it impossible to expand our police 
force. We've raised salaries for Assistant District Attorneys, in an 
attempt to both recruit and retain legal talent.
    For the first time in recent memory, all of our leaders are on the 
same page. Police Superintendent Warren Riley and District Attorney 
Eddie Jordan have come together on agreements to help with processing, 
evidence gathering, and prosecution of cases. Today, there are 
dedicated task forces of prosecutors charged with interfacing with 
police officers, to make sure that particular cases have particular 
contacts within both offices, to facilitate their movement through the 
system. Police officers are learning how to write better, more 
efficient reports, and ADA's are learning how to better prepare 
officers to testify in cases. Both departments are learning from each 
other, and that is a positive step. We're looking at models, based on 
best practices, of everything that's worked. Community policing, Broken 
Windows, neighborhood watch. You name it, we're looking at it.
    There are partnerships at the state level, that have allowed the 
National Guard and State Police to augment our law enforcement 
capacity. We've been sharing a crime lab with Jefferson Parish, as we 
struggle to find the funding necessary to rebuild ours. There are 
partnerships with the DEA, for dedicated narcotics units, with the DOJ 
for extra prosecuting capacity, with the US Attorney, to move cases 
into Federal Court when possible. Everything is, and should, be done 
with both eyes toward making the systems involved work better.
    That's some of what we're doing, but it's far from everything that 
needs to be done, and that's where we need your help. We are in 
desperate need of additional federal dollars to rebuild our Criminal 
Justice system. We need our courts back, fully operational. We need our 
crime lab funded, built, and running. We need to increase the number of 
officers on our streets, and we need to help our community help itself.
    We need our parks reopened. We need better schools for our kids. We 
need recreational activities at night and in the summer. All of that, I 
hope, you can help us with. And there might be people who say, ``why 
spend money on playgrounds when we should be building prisons?'' We 
already have one of the highest incarceration rates in the country, 
particularly among African-American men. If we could arrest our way out 
of this problem, we would have done it a long time ago.
    The simple truth is, if there is ever a simple truth to be told, 
that every part of our system must work better in order for our system 
to work. Our schools must teach our children, who'll use that knowledge 
to build careers and economic wealth, with which they'll invest in 
their children and communities, which will build stronger communities, 
which strengthens individual responsibility, which creates a stronger 
city, and a better quality of life.
    But better schools without recreational activities isn't enough. 
Because we all have kids, or know kids or were kids, and know that if 
you don't give kids something to do with the time they have, they'll do 
things you don't want them to be doing, with the time they shouldn't 
have.
    But schools and recreation without police and prosecutorial 
protection isn't enough. Because if we can't help people feel safe now, 
they won't wait around for their children to change the world. So this 
too, is indisputable fact.
    Finally, everything I've mentioned here can be done, and should be 
done. And the fact that we're here, as I said before, means we all want 
it to be done. Because here matters. New Orleans matters. It's a 
special place with an indomitable spirit. It deserves to be saved. We 
can save it. And that, as well, is an indisputable fact.

    Mr. Scott. Dr. Hughes.

           TESTIMONY OF MARVALENE HUGHES, PRESIDENT, 
              DILLARD UNIVERSITY, NEW ORLEANS, LA

    Ms. Hughes. Good morning, Mr. Scott and Members of the 
Committee on Crime, Terrorism, and Homeland Security of the 
Committee on the Judiciary. It is truly my pleasure to welcome 
you to New Orleans and, more specifically, to Dillard 
University. You're right. When you were here the last time, we 
were living at the Hilton Hotel. But we determined that Dillard 
University had to be the anchor here because there was no life 
in this area. And indeed, as we have returned, we have noticed 
that others are returning as well. So Dillard is pleased to 
host this important Congressional forum for, like virtually all 
of our fellow New Orleanians, we firmly believe that the 
security of our citizens is critically, critically important to 
the rebuilding of this great American and international city. 
Our students, faculty, and administration are dedicated to 
rebuilding New Orleans as well. And we are eager to provide our 
expertise, vision, facilitation, and problem-solving skills and 
abilities to the challenges at hand. We offer you a world of 
expertise, a world treasure, intellectual expertise, and 
research. We demand that all of our students engage in research 
projects. And last year that meant that every student was 
engaged in research projects on all of the issues pertaining to 
Hurricane Katrina.
    The sustained rebuilding of New Orleans will require action 
and viable solutions from credible entities like you. I commit 
to you that Dillard University is on record and will stay on 
record to utilize its intellectual expertise, its research, 
human and social capital, to help find creative ways to 
approach the challenges of increased crime in the New Orleans 
community post-Katrina.
    As we continue our rebuilding efforts, our students, 
faculty and staff need to feel safer. They want to go about 
their business living a normal life here. Safety and security 
are--are a must if we are to attract others to take part in the 
rebuilding of the community and this great city. They provide 
the basic foundation that will provide the critical impetus 
needed to move forward. We extend our best wishes and hope that 
this hearing is successful. I know that I speak for every 
university president in this city when I ask you to help us. 
Help us to reduce crime. Help us to assure safety and security. 
Help us to attract and re-attract our students. Our enrollment 
is far too low to sustain our universities. And, finally, help 
us to present to the public an image that identifies this city 
in the United States and the world as a positive place to be, a 
place where our students can learn and grow, and a place where 
we can continue to attract students from all around the world. 
We need that desperately. Thank you so much for coming again.
    Mr. Scott. Thank you, Dr. Marvalene Hughes.
    Our colleague, Representative Jefferson. Bill.

      TESTIMONY OF THE HONORABLE WILLIAM J. JEFFERSON, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Jefferson. Thank you, Mr. Chairman.
    It's a pleasure to welcome you here to New Orleans again 
and to welcome those of your Subcommittee. I want to thank Dr. 
Hughes and the Mayor and Councilman Thomas for their fine 
remarks, and for letting me be a part of this panel with them.
    There's a tendency for those concerned about criminal 
justice and crime prevention to seek to assess blame for the 
state of our criminal justice system. And while we acknowledge 
a responsibility on the part of our criminal justice officials 
for the return of the system to its functioning capacity, it's 
important to remember the effect the flooding of our city had 
on our criminal justice system and the attendant difficulty of 
its recovery. As examples, the flooding of the basement of our 
criminal justice court building and of the evidence laboratory 
of the New Orleans Police Department, destroyed and damaged 
valuable records, including historical information on those 
engaged in violent criminal behavior, and evidence they 
currently needed to prosecute crimes. And our entire city was 
evacuated, and some of our most seasoned prosecutors and 
indigent defenders, along with hundreds of former police 
officers relocated to other cities and took other jobs.
    The stream of revenues that funds--which funds our criminal 
justice system was interrupted due to the post-storm downturn 
in business activity and the inability of home owners to pay 
sales and property taxes. Many areas are sparsely populated and 
harder to police.
    But it's plain that the rebuilding of our city depends in 
large part on rebuilding confidence in a fair and effective 
criminal justice system that respects and enforces the law.
    It's important that the Federal Government assist the city 
of New Orleans in overcoming problems with its criminal justice 
system. After all, it was Federal-government-designed-and-built 
levees, under the jurisdiction of the United States Army Corps 
of Engineers that broke, flooding the city and severely 
damaging the physical infrastructure and workings of the 
criminal justice system. It's time to talk about solutions.
    Long-term solutions have been mentioned here: Schools, 
better jobs, less desperation. But we talked today about some 
shorter term ones that affect the problems. The Mayor has 
mentioned mental health concerns. There's a Social Services 
Block Grant of 500 to a million that hasn't gotten here yet, 
that's still in Washington. We need to work on that. The 
families and children have great stress in families now that we 
also need to address, that the Mayor has mentioned. I won't go 
over that.
    But I'll mention that during the 1990's President Bill 
Clinton and Congress appropriated funding to support the 
Community Oriented Policing Squad Program, or COPS program. The 
Federal Government supported then the addition of 100,000 
policemen to the ranks of our municipalities and States and to 
the use of technology to prevent crime and create networks 
among the law enforcement communities. Here in New Orleans, the 
COPS program at its height provided $20 million annually that 
allowed our police department to train and put to work in high 
crime areas many policemen who used neighborhood beats, foot 
patrols, and special crime prevention methods to combat crime 
in certain neighborhoods. The program worked, resulting here in 
New Orleans in a significant reduction in our crime rate, and 
especially with regard to the murder rate.
    I encourage the Crime Subcommittee to seek funding to renew 
the program here in New Orleans on a temporary basis to tide us 
over this--this current crisis. We want to thank the State 
National Guard for what they've done. But the National Guard 
are not policemen. They have certain restrictions they must 
work under, and we need more policemen on this street.
    There's sufficient evidence that the problem with violent 
crime in New Orleans is also a problem of drug use, resulting 
in criminal activity. Some statistics show that over 60 percent 
of those arrested for criminal activity in New Orleans test 
positive for illegal drug use. The police report that the vast 
majority of murders in our city are connected to drug use and 
to drug-related turf wars. It is clear, then, that problem of 
drug use and abuse in our city must be addressed if we are to 
curb violent crime in New Orleans.
    There is much the Federal Government can do. The Drug 
Enforcement Administration has resources and programs designed 
to promote drug prevention. These programs must be employed to 
a greater extent here in New Orleans. I encourage the Crime 
Subcommittee to ask the DEA, ``What is being done here in New 
Orleans, with one of the highest violent crime rates in our 
city, to stop the flow and use of illegal drugs?'' ``To what 
extent is the DEA investing additional resources in drug-use-
prevention programs in the city that has been so devastated by 
the flood?'' I encourage the Committee to insist on more 
creative drug prevention intervention by the DEA.
    And what of the effectiveness of drug importation laws? 
None of the drugs on our street are grown in the backyards or 
farms of Americans. Almost all of it comes from sources outside 
of America. Should we employ new strategies to deal with this 
problem, since the old ones aren't working? And what of drug 
consumption? Are there ways that the Committee can support more 
drug education to stem consumption? And the few drug-treatment 
facilities that existed before the storm are for the most part 
still out of business, including the one called BASIC that was 
doing exciting and wonderful things with a community-based drug 
program.
    Victims and witnesses to violent crime in New Orleans are 
often afraid to participate in our system of criminal justice. 
There's a need here to help make it easy for our police to 
protect people in having a safe place before they are able to--
so they can testify and be part of the solution to the problem. 
The percentage of incidents involved with unsolved and even 
uncontested crimes, especially murder in New Orleans, is 
directly related to the fear that people feel about testifying 
in court.
    We are pleased to see, as Councilman Thomas has said, the 
reestablishment of the crime lab at the University of New 
Orleans and with recent programs and cooperation between the 
DA's office and the NOPD. We want--we need--to strengthen and 
support their efforts on the Federal level. It's never been 
more important to rebuild the criminal justice system in New 
Orleans than now. President George Bush pledged to the citizens 
of our Nation, ``We will build a New Orleans that is better 
than before.'' This cannot take place because there are 
thousands of citizens of our city who delay their return 
because of a perception and the reality of violent crime and 
its effects on everyday life.
    We have problems, Mr. Scott, that go well beyond the 
jurisdiction and rebuilding of FEMA--and the restoration--of 
our criminal justice system infrastructure: Rebuilding of fire 
and police stations; rebuilding the DA's office; rebuilding our 
court system--all of our important questions here that we must 
deal with, that we think the Federal Government can assist us 
with in finding a solution. So, in any event, I think the Mayor 
wrapped this up and said: ``The eyes of the Nation are on the 
Federal Government and its response to the needs of the people 
of New Orleans following the flood of our city.'' Enhanced 
support for drug-prevention efforts, support for witness 
participation in our criminal justice system, and support for 
the enhanced training and deployment of police to our city's 
violent crime hot spots, and rapid restoration of these 
physical infrastructures of the criminal justice system is 
something the Federal Government can do more to help to make 
our city safer.
    Thank you, again, for coming to our city Chairman Scott. 
And I thank the Members of the Committee for their attention to 
this matter. I appreciate the chance to testify before it.
    Mr. Scott. Thank you, Representative Jefferson.
    [The prepared statement of Mr. Jefferson follows:]
      Prepared Statement of the Honorable William J. Jefferson, a 
         Representative in Congress from the State of Louisiana

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. And we'll have questions now, recognizing myself 
for 5 minutes. I guess not just to ask too many questions, but 
Representative Jefferson I want to thank you for inviting us 
here. You invited the Education Committee here several months 
ago, and I was part of that delegation. I was also part of the 
delegation that came on the anniversary of the hurricane last 
August. You got the Housing Subcommittee here recently; so, 
you've been hard at work making sure we don't forget. You and 
Representative Jindal have been very meticulous in making sure 
that we keep this on our front burner. You mentioned many 
important issues, as did Mayor Nagin. Some of the lists are not 
specifically Criminal Justice Crime Subcommittee issues, but 
all affect criminal justice issues. For example, if you don't 
do the summer jobs, you're going to have criminal justice 
implications. We need to have ex-offenders and drug 
rehabilitation, specific crime initiatives--there are a lot of 
things that we need to do--to make sure that we prevent crime 
before it starts. And when Mr. Thomas said some complained 
about building playgrounds, we ought to be building prisons; 
I'm sure you told them, ``If we had more playgrounds, we 
wouldn't need as many prisons as we're trying to build.'' So I 
appreciate all of the testimony.
    And Dr. Hughes, I did have one question specifically for 
you. We have many of the people on the front line of the 
criminal justice system that have questions. But, Dr. Hughes, 
since I have you: The last time I was here, there was a good 
consortium amongst the colleges, all trying to rebuild. Can you 
tell us what's going on with that consortium?
    Ms. Hughes. That consortium continues.
    We currently, as administrators, for example, at Dillard 
University are living in Tulane space downtown. We are using 
the library of the University of New Orleans and using other 
facilities as needed. We are in the process now of further 
defining the particulars of the consortium so that in the 
future post-Katrina, ad infinitum, we begin to become more 
definitive about how we can assist each other to be stronger. I 
think we now know that together we are much stronger, we can 
expand our offerings, and we are a permanent consortium.
    Mr. Thomas. Mr. Chairman, at one of the Committee meetings 
we had not too long ago with the consortium of the 
universities, we talked about a commitment to better lighting. 
We're working with the utility company to make sure that the 
campuses are lit. Coordination with the New Orleans Police 
Department, with campus security, and the other agencies; so, 
these are the kinds of systems that are kind of coming out of 
that consortium; and we are working with, especially--
specifically, under--public officials and with university 
leaders in those two areas to make sure that at least those two 
things happen immediately for students and administrators who 
are working on our university campus.
    Mr. Scott. And what portion of the students--you know, less 
than 100,000 staff and students were in New Orleans before the 
hurricane?
    Ms. Hughes. That's correct.
    Mr. Scott. And how many staff and students are in New 
Orleans now?
    Ms. Hughes. I'm going to give you an estimate. First let me 
address that for little Dillard University. As you know, we 
could not come back to campus until September of 2006; and, so, 
our students were not on campus. But when we did return, we 
have about 55 percent of our students who returned. Many of the 
universities are not comparably as low because they were back 
much sooner. But I know that enrollment is consistently down 
for all of the universities; and, so, I'm going to guess that, 
on an average, we probably have about 70 or 75 percent of our 
students down. And, as you know, the enrollment determines what 
our budget is; so, it's very important to us that we project 
the kind of image that will attract students back.
    Mr. Scott. And how does public safety affect the return of 
students?
    Ms. Hughes. It is absolutely critical for the return of 
students. And, as a matter of fact, in addition to the public 
safety that's offered by the city, Dillard determined that it 
needed to also increase its security. And, so, we are a gated 
community, and we've taken advantage of that. But we know that 
we need someone on duty 24/7, and that's what we do.
    Mr. Scott. And, Mayor Nagin, let me just ask one more 
question really quickly. Summer--do you have a summer jobs 
program planned for this summer.
    Mr. Nagin. Yes, we do. We are presently funding that 
through our general fund. We are trying to get at least a 
thousand young people employed this summer, but the need is 
much greater.
    Mr. Scott. Thank you.
    Representative Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. Once again, I want to 
thank you, all of our witnesses, for being here, and for your 
expertise. Mr. Chairman, I'd like to move at this time to allow 
Congressman Jindal's statement to be included as part of the 
record without objection.
    Mr. Scott. Without objection.
    [The prepared statement of Mr. Jindal follows:]
 Prepared Statement of the Honorable Bobby Jindal, a Representative in 
                  Congress from the State of Louisiana
    Thank you Chairman Scott and Ranking Member Forbes for the 
opportunity to participate in this hearing. Since Hurricane Katrina, 
the violent crime rate in New Orleans has not subsided, but continues 
to increase. On Monday April 2, 2007, four men were killed in New 
Orleans bringing the number of murders this year to 53, compared to 17 
for the same period last year. One shooting even occurred as the victim 
was holding his two-year-old son and watched as his wife was gunned 
down.
    New Orleans' murder rate in 2003 was nearly eight times the 
national average--and since then, the murder rate has continued to 
increase. In 2002 and 2003, New Orleans had the highest per capita city 
homicide rate in the United States, with 59 people killed per year per 
100,000 citizens--compared to New York City's seven. In 2006, despite a 
population decrease stemming from Hurricanes Katrina and Rita, 161 
killings still occurred in the Crescent City.
    The problem of crime is not a new one, nor is it a problem that is 
limited to major urban areas like New Orleans. The first five minutes 
of local newscasts--whether in Shreveport, Monroe, Lake Charles or 
anywhere in between--recap the violent crimes, robberies and drug 
arrests that have occurred in the last 24 hours that are placing a 
stranglehold on our communities.
    Criminals are getting more daring and are willing to strike during 
any time of the day. In February of this year, a successful 
professional in Baton Rouge was walking to her car on a rainy afternoon 
at a local grocery store when she was confronted by a man and woman 
brandishing a gun. Luckily, she was not injured, but her story is a 
good reminder that while we cannot be captive to these types of events, 
we should remain vigilant of our surroundings and work together to 
combat this growing trend.
    Once thought to be only a problem in our Nation's largest cities, 
violent crime and gangs have invaded smaller communities, as witnessed 
by the recent shooting in the town of Maringouin located in Iberville 
Parish, where three reported criminal gangs exist. Across the state in 
2005, Louisiana endured 26,889 violent crimes, 450 murders, and 19,681 
aggravated assaults. This places Louisiana's crime rate about 24 
percent higher than the national average rate.
    Although not all criminal activity can be linked to the rise in 
gang violence, the U.S. Department of Justice reports that there are 
currently over 25,000 active gangs in more than 3,000 jurisdictions in 
the United States. In New Orleans, gang related crime is most often a 
result of turf wars between groups. These gangs often operate through 
sales of illegal narcotics.
    More and more communities are suffering from gang type violence 
where all too often innocent bystanders are tragically shot, and law-
abiding members of communities are prisoners in their own homes in fear 
of being caught in the cross-fire of gang violence. These gangs are 
also introducing our youth to dangerous illegal drugs in many of these 
communities.
    To help fight this problem I have introduced legislation that will 
establish joint task forces of Federal, State and local law enforcement 
and prosecutors so they can share resources and intelligence to help 
target the most serious gangs in a community. For Louisiana, this means 
encouraging full interaction and communication beyond parish lines 
between law enforcement, prosecution, Clerks of Court, judges, 
corrections, and homeland security.
    The Violent Crime Reduction Act of 2007 would create guidelines to 
designate High Intensity Gang Areas in these communities and authorize 
Federal funding to help combat gang activity, as well as help states 
hire prosecutors and purchase technology, equipment and training for 
gang enforcement.
    But, many times once these criminals are caught and released, they 
will move to another part of the state and begin all over again. For 36 
years, Louisiana has been trying to put together a database to track 
criminals, arrests, prosecutions, and convictions. As hard as it is to 
believe, there currently is no comprehensive system to track offenders 
from the time of arrest through to disposition. This type of system 
would have been very valuable in the wake of Hurricanes Katrina and 
Rita when FEMA refused to share information with local authorities on 
whether any evacuees staying at shelters or FEMA-run trailer parks had 
a past history of sexually violating innocent children.
    Louisiana can become a model for the nation by having the first 
fully-integrated automated criminal justice information system. The key 
to implementing this thirty-year-old effort is to provide funding to 
the key reporting agencies, particularly the District Attorneys, to 
help establish this type of system. The project should also facilitate 
the completion of systems for law enforcement and courts, and assure 
interoperability between the various systems.
    In light of this goal, my legislation authorizes the U.S. 
Department of Justice to award grants to state and local programs for 
the specific purpose of designing and establishing a statewide database 
to track criminals, arrests, prosecutions, and convictions. With 
Louisiana receiving such a grant, a database that law enforcement 
agencies have sought for more than three decades would finally be 
established and would play an important role in protecting our children 
and communities from established criminals.
    No single group can solve the crime problem alone. Our country was 
able to begin breaking up organized crime years ago only when Federal, 
state and local governments worked together to utilize each other's 
resources. My legislation helps establish that working relationship 
again. Only through that coordinated effort, as well as the efforts of 
ordinary citizens watching and taking action in their neighborhoods, 
will we take back our communities and tackle the current crime problem 
in Louisiana.

    Mr. Forbes. And I'm on the same time frame that you are, so 
I'm going to try to be as brief as possible and ask you to keep 
your questions brief. First of all, Congressman Jefferson, you 
mentioned the fact that this was not an assessment of blame; 
and, truly, it's not an assessment of blame. At the same time, 
what it is is an exploration of opportunities to effectively 
reach our goals, and not just toss money on the problems. One 
of the things this Committee had actually heard in testimony 
earlier in Washington, was that as few as 20 percent of the 
programs that we actually fund have been proven to have 
effectiveness. And, so, what we're trying to do is make sure 
we're getting the most bang for our bucks. I could spend my 
whole time praising the great efforts that you've done, which 
have been great, particularly the great degree of support that 
the NOPD has from the Federal law enforcement. That's a model 
of what you guys are doing, and I think that's wonderful.
    But, Mr. Thomas, I want to ask you, first of all: In most 
localities around the country, when you're talking about 
building playgrounds and educational programs, one of the 
things we look to is our corporate neighbors to come in and 
help fund that, not necessarily the Federal Government. Is it 
your understanding that there is at least a perception among a 
lot of your corporate entities, some of whom are listed, but 
there's at least a perception that there's some corruption in 
New Orleans that maybe makes it difficult for them to have the 
kind of work environment that they want?
    Mr. Thomas. Well, we've had committees like Friends of 
NORD--and we still have Friends of NORD--that help to raise 
money for play spots and playgrounds that currently exist. One 
of the problems we have, especially post-Katrina, is the level 
of philanthropy, and we----
    Mr. Forbes. Now, if you can, keep it on my question.
    Mr. Thomas. Well, yeah. Oh, yeah.
    Mr. Forbes. You understand that there is that----
    Mr. Thomas. Absolutely.
    Mr. Forbes [continuing]. Perception among a lot of your 
corporations----
    Mr. Thomas. There has been that perception for quite some 
time. I have been questioned all the time about, well, whether 
there's corruption or inefficiency or inadequate 
administration, or, ``I would much rather donate to a 
particular school or a booster club, instead of NORD.'' We're 
trying to address that question right now. I think the Mayor, 
through his administration, is working with the entities that 
want to help or trying to at least make people feel and 
understand that the money is actually going to get to the play 
spot or playground.
    Mr. Forbes. The thing that I would ask you to do, just, 
again, because I've only got five----
    Mr. Thomas. Right.
    Mr. Forbes [continuing]. And I'd love to talk with you on 
that----
    Mr. Thomas. Right.
    Mr. Forbes [continuing]. But if you could maybe submit for 
the record for us what program you're doing to try to change 
that perception for the corporations. The other question I had 
for you: You mentioned that New Orleans had the highest 
incarceration rate, one of the highest in the country.
    Mr. Thomas. Our State has for 20 years.
    Mr. Forbes. Your State has?
    Mr. Thomas. Yes.
    Mr. Forbes. But in New Orleans, you have one of the lowest 
prosecution rates.
    Mr. Thomas. Yes.
    Mr. Forbes. And help me, because, you know, one of the 
things that we scratch our heads is when we see murders taking 
place on--that are videotaped----
    Mr. Thomas. Yes.
    Mr. Forbes [continuing]. That are not prosecuted and people 
are released, and the Federal Government has to pick that up. 
How does that instill the kind of confidence that Mr. Jefferson 
talked about in the fair and effective criminal justice system?
    Mr. Thomas. That's one reason why one of the first things I 
did was institute a crime summit and started the subcommittee 
headed by Council Member James Carter, who is a former criminal 
defense attorney. He worked at the Federal Weed and Seed 
program to make sure that the systems that are in place don't 
allow the same kinds of things that happened in the past--since 
they had more accountability because it's the police 
department; the funding component, which is the--the city, the 
criminal court judges, or--or the district attorney. We think 
at the end of the day, with the components that are working 
together now, you are going to see progress; and we are seeing 
progress. Better relationships, better report writing, better 
relationships between ADAs and police officers that have to 
testify in cases, witnesses that feel more comfortable and feel 
safer in coming forward, are going to help in those areas.
    Mr. Forbes. If you could get us that because, again, we're 
going to face these same----
    Mr. Thomas. Yes.
    Mr. Forbes [continuing]. Questions whether we're going to 
ask them today or we ask them down the road, but that would be 
helpful. And, also, whether your judges get a percentage of the 
release bond? I mean, you know, there are questions that are 
raised to us, if we had--last question that----
    Mr. Thomas. We'll make sure that kind of information gets 
to this Committee.
    Mr. Forbes. Thank you so much. And, since I'm about out of 
my time: Mayor, we know that Katrina had devastating effects on 
New Orleans and everyone else.
    Mr. Nagin. Uh-huh.
    Mr. Forbes. We want to explore that. But one of the things 
we also--we get questions about back in Washington is that, 
prior to Katrina, New Orleans had, you know, one of the highest 
murder rates, lowest prosecution rates in the country. Have you 
guys done an analysis to see what were those problems before 
Katrina and after Katrina, and how you are creating a plan 
that's going to solve those problems too; so, as you move 
forward, you are--again, I'm just using Mr. Jefferson's words--
building that confidence in a fair and effective criminal 
justice system that respects and enforces the law?
    Mr. Nagin. Congressman, we have done many studies and 
analysis. We currently have Dr. Brown from Houston who is a 
former crime czar working with us to analyze our criminal 
justice system. We have former Attorney General Richard Eyoub. 
We have all the elements of the criminal justice system going 
through a critical analysis and making changes to improve our 
criminal justice system. But I must point out to you that one 
of the big inhibitors right now is the lack of Federal dollars 
that is flowing to repair our infrastructure that is required 
by the Stafford Act. That is the thing that is causing us right 
now not to rebuild this system to the best it can be.
    Mr. Forbes. And thank you. And thank all of you so much for 
your time. My time is up.
    Mr. Scott. Our colleague from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Scott. I appreciate all of you-
all being here. And President Hughes, I appreciate the 
opportunity to be here at your fine university. I was struck by 
the beauty of this campus and how well groomed it is. You had 
mentioned that students didn't return until a full year after 
Katrina. Was there hurricane damage here to the campus that 
caused your delay to come back?
    Ms. Hughes. I think probably the best description I could 
give you is to say that this campus was a lake for about 4 
weeks. Where you're sitting is probably the only building that 
did not have water on every--on at least the first floor and in 
some instances the second. So, we had to go through a 100 
percent process of remediation; and it was either a choice to 
allow our students to remain scattered all over the country or 
to bring them back to what I consider home and what they 
consider home. And we brought them home to New Orleans where 
they were a part of the economic redevelopment in that area 
living at the Hilton Hotel. And, in the meantime, we weren't 
building this campus.
    We had to remediate. That took about 6 months. We started 
our construction in late January or February.
    Mr. Gohmert. I'm pressed for time. My time is very limited. 
Just the fact that there was a lake here for 4 weeks----
    Ms. Hughes. Yes.
    Mr. Gohmert. --[Laughter.] But, Mayor Nagin----
    Mr. Nagin. Yes.
    Mr. Gohmert [continuing]. You know, without employment 
obviously, it tends to make people lean toward crime.
    Mr. Nagin. Yeah.
    Mr. Gohmert. I--you know, there were--there were stories of 
fast food restaurants, different places, offering big bonuses 
post-Katrina to get people to come in.
    Mr. Nagin. Yes.
    Mr. Gohmert. And, yet, we saw a high crime rate, that kind 
of puzzled the cow where you reconcile people paying big 
bonuses just to come work in fast food----
    Mr. Nagin. Yeah.
    Mr. Gohmert [continuing]. And crime also being high at the 
same time.
    Mr. Nagin. Well, there are many jobs that are available in 
our community; it's true. And many people are being employed at 
unprecedented levels. But I go back to the effects of Katrina. 
When the Federal levee system broke, many people were stranded 
and neglected and just totally displaced.
    Mr. Gohmert. Wait. It was the Federal levee system?
    Mr. Nagin. Yes, sir. Yes, sir.
    Mr. Gohmert. That is all Federal money that went into the 
levees?
    Mr. Nagin. Yes. For the most part, sir. Most of it, yes. 
So, there are people in our community that are struggling right 
now with the after effects of Katrina.
    And that coupled with the smaller footprint and the turf 
wars that are going on for drug territory is fueling the crime 
rate.
    Mr. Gohmert. Well, Representative Jefferson, you had 
mentioned that one of the big problems was criminal records 
that were destroyed, making prosecution difficult. And I know, 
having been a judge and Chief Justice in East Texas, one of the 
things we dealt with constantly was making sure that we had 
adequate backup for all of our records. Was there not adequate 
protection and backup for the records that existed here in New 
Orleans?
    Mr. Jefferson. I don't think I can answer that 
specifically. The other----
    Mr. Gohmert. Okay. Well, you had brought it up in your 
statement.
    Mr. Jefferson. Right. Right. You know what happened. It 
must be that there wasn't backed up evidence.
    Mr. Gohmert. Of course, there was much talk about it in the 
news about your coming back to New Orleans so quickly. What did 
you see first-hand in the way of law enforcement attempting to 
prevent crime, looting, that kind of thing happening, when you 
first returned?
    Mr. Jefferson. Well, as I said, early on, we had the Army 
here, and we had the National Guard and all of that, so nothing 
went on here to speak of, in respect to crime except a few 
reports about shooting at some of the people who were here, 
which weren't supported as time went on. And for a period of 
time, the city was really a safe place.
    And it seemed to be that things had calmed down. But then 
all of a sudden people started coming in and the drug wars 
started. I think, more than anything else, this happened when 
these people were establishing themselves--trying to establish 
themselves as the king of this drug area. And the shootings 
have been, in many case execution-style shootings; the person 
shot in the head and all of that. It's a tough situation. We 
think a great deal of it's related to the reestablishment of 
drug activity in the area.
    Mr. Gohmert. But, initially, immediately after the storm, 
there was not a lot of activity of----
    Mr. Jefferson. No.
    Mr. Gohmert [continuing]. Any kind.
    Mr. Jefferson. No.
    Mr. Gohmert. So, from experience----
    Mr. Jefferson. After----
    Mr. Gohmert [continuing]. What was done to prevent----
    Mr. Jefferson. After----
    Mr. Gohmert [continuing]. Those people----
    Mr. Jefferson [continuing]. You got so many people here, 
you have 40,000 or so troops in the city, who are regular Army 
people. You had some huge number--I don't remember anymore--of 
National Guard troops. And they were all over the place, and 
they stayed here for a while. And, of course, there weren't 
many people here at all. As people trickled back in, there 
seemed to be a time of opportunity for some people who wanted 
to come in and set up a drug operation. And that setup is what 
happened. When the military people left, and the National Guard 
was down, and police officers trying to get back into the 
establishment, it seemed for a minute that things were under 
control, but it really was a false calm.
    Mr. Gohmert. My time is expired. Thank you, Mr. Chairman.
    Mr. Scott. Thank you. We want to thank the witnesses for 
their testimony. This has been very helpful. And, as we said, 
Mr. Mayor and Mr. Thomas, we want to be as helpful as we 
possibly can. So, thank you very much.
    Mr. Nagin. Thank you. Thank you for being here. God bless.
    Mr. Scott. We ask that Eddie Jordan and Warren Riley, Chief 
of Police, and Sheriff Gusman come forward and take seats.
    Mr. Thomas. We also have some pamphlets from community 
organizations that are working with the crime consortium, that 
I gave to the officer to pass out. We have some pamphlets from 
the different community organizations that are involved in----
    Mr. Scott. We have some pamphlets available Mr. Thomas has 
mentioned. Mr. Thomas. Mr. Thomas, are these----
    Mr. Thomas. Yes.
    Mr. Scott. Our first witness of this panel will be the 
Honorable Eddie Jordan. He served as the New Orleans, the 
Orleans Parish District Attorney from 1994 to 2001. He served 
as a U.S. Attorney for the Eastern District of Louisiana and 
received a law degree from Rutgers University School of Law.
    The next witness will be Chief Warren Riley, who serves as 
the Chief of Police from the--from New Orleans Department. Has 
served as the Chief of Police in New Orleans Police Department 
since November of 2005. He's a 24-year veteran of the New 
Orleans Police Department, and he served as the department's 
Chief Operating Officer prior to becoming Chief. He holds a 
Master's Degree from Southern University of New Orleans.
    Next will be Sheriff Gusman, Criminal Sheriff of Orleans 
Parish. As criminal sheriff, he's responsible for the care, 
custody, and control of incarcerated defendants in Orleans 
Parish, which holds the Nation's eighth largest correctional 
facility. He received a law degree from Loyola University.
    Mr. Jordan.

          TESTIMONY OF THE HONORABLE EDDIE J. JORDAN, 
       ORLEANS PARISH DISTRICT ATTORNEY, NEW ORLEANS, LA

    Mr. Jordan. Thank you, Mr. Chairman, and thank you Members 
of this Committee for giving us an opportunity to talk about 
the impact of Hurricane Katrina on our criminal justice system 
and our ongoing efforts to fight crime in the city of New 
Orleans.
    Having served as U.S. Attorney for the Eastern District of 
Louisiana, I am very much conscious of the importance of law 
enforcement in fighting crime and working with all of our 
criminal justice agencies. My office suffered tremendous damage 
after the storm. And allow me to give a brief overview of the 
financial condition of the office post-Katrina.
    For 2005, the district attorney's allocated budget was a 
little in excess of $3 million. However, immediately after the 
storm, we were informed that we would not be receiving a 
substantial portion of our allocated budget. This loss of 
revenue resulted in the layoff of 57 non-attorney employees. 
That is roughly 84 percent of my non-attorney staff. For a 
period of time, my office operated with 11 staff members and 
approximately 57 or 55 attorneys.
    It was not until June of 2006 that the Department of 
Justice and the Louisiana Commission on Law Enforcement awarded 
my office a substantial sum of money in excess of 3 million in 
Recovery Grant funds. These funds are to be expended over a 24-
month period, and they have allowed my office to return to some 
degree of normalcy.
    For 2007, the New Orleans City Council appropriated almost 
$3 million in operating expenses for my office. This increase 
over 2006 allowed my office to increase the salaries of 
assistant district attorneys to roughly $45,000 and to add an 
additional three prosecutors to our Violent Offender 
Prosecution Unit. Now, this is important because of the history 
of high attrition that my office has suffered over the years. 
We have had a tremendous number of assistant district attorneys 
leave the office over the years because of the very low 
salaries. But with this increase, we have had more success in 
retaining our prosecutors. But as a result of the storm, we 
probably have in excess of 50 percent of our attorneys being 
new prosecutors, and most of them are inexperienced; that is, 
individuals right out of school.
    Today we are funded for 89 assistant district attorneys. 
Before the storm we were funded for approximately 92 assistant 
district attorneys. Our immediate needs in the district 
attorney's office are for an expanded Victim Witness Assistance 
program and also for community prosecutors and for funding for 
an office space. And let me start with the last item first.
    Currently, we're in about our third temporary location 
after the storm. The storm had a devastating impact on our 
office building. The first floor took on about three to four 
feet of water. We lost many of our records, and we have not 
been able to return to that building. There is no definitive 
date as to when we will be back in that building. Our attorneys 
are operating on card tables right now, and about 120 
individuals are on one floor of an office building. It's 
clearly inadequate. Many prosecutors share offices--there are 
three and four to a room.
    Let me talk about the Community Prosecutor concept very 
briefly. We desperately need additional prosecutors to screen 
violent crime cases in particular. We envision that these 
prosecutors would work very closely with police officers in 
making stronger violent crime cases that can be brought to 
court. They would also interact with community members in the 
neighborhoods throughout the city of New Orleans.
    And, finally, the most important item that we think that 
Congress can help us with is an expanded Victim Witness 
Assistance program. We need funding for this program because of 
the very real fear that many victims of violent crime have in 
the city of New Orleans; victims and of course, family members 
and witnesses of violent crime as well. The Victim Witness 
Assistance program would be designed to help victims of 
domestic violence, sexual assault, stalking, and witnesses who 
have a certain fear that, if they testify, they may be in harms 
way. Excuse me. We think that providing additional funding for 
transportation and for a safe house located in another State, 
and also partnering with some of our other criminal justice 
agencies such as the sheriff's office in providing some minimal 
level of security would be extremely helpful and would allow us 
to service more individuals who are the victims of violent 
crime and who are witnesses to violent crime. Already my office 
has provided services to a number of individuals in the 
successful prosecutions of homicide cases and other violent 
crime cases.
    And I'll answer any questions that you have following the 
presentations of the other panel members.
    Mr. Scott. Thank you. Thank you very much.
    [The prepared statement of Mr. Jordan follows:]
        Prepared Statement of the Honorable Eddie J. Jordan, Jr.
                              introduction
    I believe it would be beneficial to briefly highlight the financial 
condition of my office post-Katrina. Prior to Katrina, the City of New 
Orleans provided allocated operating funds (budget) to the district 
attorney's office on a quarterly basis. For 2005 the district 
attorney's allocated budget was $3,371,616.00. Disbursed quarterly, we 
were due to receive four checks each in the amount of $842,904.00. We 
did not receive a 2005 fourth quarter check. On September 29, 2005 we 
were informed that the city had no money to contribute to the operating 
expenses of the district attorney's office. Our other traditional 
revenue sources--grant reimbursements, traffic court fees, bail bond 
fees, court costs, and diversion and bad check program fees--were also 
halted. This loss of revenue resulted in the lay off of 57 non-attorney 
employees (84% of the staff).
    After Katrina my office operated with a skeleton crew of eleven 
staff members and approximately fifty-five attorneys. In November 2005 
the City Administration informed us that we had been allocated 
$2,360,131 for 2006 operating expenses. We received these funds via a 
monthly stipend of $196,677.58. By January 2006 we were able to restart 
several grants, which allowed us to return five data entry clerks, a 
screening bill typist, and one secretary to work. During March and 
April we began the process of applying for Department of Justice (DOJ) 
emergency funding through the Criminal Justice Infrastructure Recovery 
Grant program. In May and June we were able to restart our Domestic 
Violence Program grants. These grants allowed the return of two social 
worker counselors to assist domestic violence victims, and allowed us 
to dedicate a screener and investigator to focus exclusively on 
domestic violence cases. Also in June 2006 the DOJ and Louisiana 
Commission on Law Enforcement awarded my office $3,014,000 in Recovery 
Grant funds. These funds are to be expended over a twenty-four month 
period, and are intended for the two-fold purpose of returning 
operations of the district attorney's office to an essential level, 
and, where possible, to restore services to pre-Katrina levels. This 
grant provided operating funds as well as funds to fill thirty-three 
staff positions and seven attorney positions. The seven attorney 
positions were authorized for a four person Case Recovery Management 
Team (CRMT) dedicated to reviewing pre-Katrina cases to assess if the 
case remains viable and to insure all incarcerated defendants are 
brought to court for appropriate proceedings; and a three person 
Violent Offender Prosecution Unit (VOPU) dedicated to prosecuting 
violent crimes and certain repeat offenders. The Recovery Grant also 
allowed my office to reestablish our Diversion and Investigative Units, 
and to return other critical clerical and administrative personnel to 
duty. Grant funds provide operating expenses for our Victim Witness 
Assistance Unit, and for basic services such as telephones and file 
storage.
    For 2007 the New Orleans City Council appropriated $2,946,131 in 
operating expenses for my office. This is less than pre-Katrina 
operating expenses, but a $585,999 increase over 2006 funding. This 
increase was specifically allocated to provide salary increases to line 
prosecutors, and to allow the addition of three additional prosecutors 
to the Violent Offender Prosecution Unit. The salary increases made 
possible by the 2007 budget increase raised the minimum base salary for 
prosecutors to $45,000.
                            staffing issues
    Before Katrina the Orleans Parish District Attorney employed 
ninety-two prosecutors. Two prosecutors were part-time. Currently we 
are funded for eighty-nine full-time prosecutors. Thirteen of these 
positions are grant funded. Funds for eight of the grant positions will 
be expended by the end of 2007--seven Infrastructure Recovery Grant 
positions (CRMT and VOPU) and one grant funded rape screener's 
position.
    In the short term the immediate need of my office is for eight 
additional screeners to assist my Screening Division. These additional 
attorneys would be utilized to facilitate the screening of victim cases 
by insuring that every victim has significant and timely contact with 
an attorney during the screening process. The additional attorneys 
would also be used to establish a Community Prosecution Program.
    This program would also facilitate the screening process by placing 
prosecutors at district police stations where they could provide 
assistance to police officers and begin the screening process, 
including making contact with victims/witnesses, immediately after a 
crime is reported.
                           attorney caseload
    Katrina essentially shut down the criminal justice system until 
November 2005. The Orleans Parish Criminal Court Building, the District 
Attorney's Office Building, the New Orleans Police Headquarters 
Building, and the Orleans Parish prison system all sustained 
significant flood damage. Currently, the District Attorney and New 
Orleans Police Department are still operating from temporary 
facilities. The Orleans Parish prison system is operating at a fraction 
of its pre-Katrina capacity. The Criminal Court has re-occupied its 
building, however that building has likewise not been restored to pre-
Katrina condition. Damage to this infrastructure obviously impacted the 
ability to prosecute cases. My office is currently operating from its 
second temporary office. The Criminal Court returned to its regular 
offices in June 2005.
                              future needs
    The primary immediate needs of my office are funding for victim 
witness assistance, enforcement personnel, and additional office space. 
Eight additional attorneys are needed to assist with the screening of 
cases and to establish the core of a Community Prosecution Unit. As 
noted, the Community Prosecution Unit contemplates placing prosecutors 
at district police stations where they could have immediate contact 
with victims and witnesses and provide an additional resource for 
investigating police officers.
    Five law enforcement personnel are needed to supplement the work of 
the Screening and Homicide Divisions. Currently, my office has limited 
resources to commit to the pre-indictment investigation of cases--
including homicide cases, which are screened by my Homicide Division. 
Police reports and other cases presented to my office for review 
frequently require follow-up investigative attention--such as 
additional forensic work, location of additional witnesses, procurement 
of necessary documents, clarification of victim/witness statements. New 
Orleans police personnel shortages have made it difficult for police 
officers to provide timely follow-up assistance once they have 
submitted a report. Additional investigative support dedicated to my 
office will provide the investigators needed to facilitate the 
important goal of a faster screening decision and, ultimately, a 
better-prepared case for our trial attorneys to prosecute.
    Finally, my office is operating out of our second post-Katrina 
temporary office. The city of New Orleans has been unable to provide a 
definitive date as to when we can reoccupy our permanent office. 
Significant renovations have yet to begin. We have approximately 125 
employees crowded into less than 20,000 square feet of office space. As 
a practical matter, this results in multiple individuals sharing 
offices and data and clerical personnel working from workstations set 
up in corridors. Locating additional space is a priority for my office 
in the coming weeks.
    Thank you for the opportunity to bring these issues to your 
attention.

    Mr. Scott. Chief Riley.

  TESTIMONY OF WARREN J. RILEY, CHIEF OF POLICE, NEW ORLEANS 
               POLICE DEPARTMENT, NEW ORLEANS, LA

    Chief Riley. Good morning, Mr. Chairman and Members of the 
Committee. Thank you all for taking the time to listen to the 
issues that are impacting the New Orleans Police Department and 
our criminal justice system.
    In the 20 months since Hurricane Katrina, the New Orleans 
Police Department has overcome many hurdles, but many 
challenges remain. Most of our officers who lost homes to the 
storm have repaired or purchased new homes. Others are renting 
but some are still living in FEMA trailers. Many family members 
who were displaced have returned to the city. However, some 
families remain displaced. We were able to secure a 10 percent 
across-the-board pay raise for all officers, and reasonably 
promoted police officers from the grade of Police Officer 1 to 
the grade of Police Officers 2, 3, and 4, which were long 
overdue and will go a long way in helping our retention. 
Overcoming these few hurdles have motivated our officers to 
continue to faithfully serve the citizenry of New Orleans in 
spite of the many challenges that remain. And to do that, I 
applaud their commitment and dedication.
    The challenges that continue to face the New Orleans Police 
Department are multidimensional. While Katrina has enhanced our 
challenges, many existed pre-Katrina.
    The criminal environment of the city of New Orleans is a 
product of many long-term socioeconomic factors, but it's 
driven to extremes by the massive systematic drug culture and 
the violence that is engendered by that lifestyle.
    As law enforcement professionals, we recognize the 
challenges these factors have had on overall crime and the 
criminal justice system in our great city.
    In the aftermath immediately following Hurricane Katrina, a 
significant number of our law-abiding citizens, as well as the 
criminal element, were displaced in cities across America. As a 
result, the city of New Orleans experienced unprecedented 
reductions in crime. Now that many of our law-abiding citizens 
are returning to help rebuild our city, many of those involved 
in criminal activity are returning as well. The challenges the 
New Orleans Police Department faced pre-Katrina are now 
compounded with new challenges post-Katrina.
    New challenges for the NOPD include personnel issues such 
as recruiting and retention, a reduced learning period for 
recruits, and the potential impact that it has on retirees. The 
personnel issues: NOPD's personnel losses since the storm have 
been extreme. Locally we have no competitive advantage in 
recruiting qualified applicants. We suffered a net loss of 217 
officers in 2005 and 216 in 2006. As of April 5 of 2007, we 
have lost another 49 officers. One Police Academy class has 
graduated in 2007 with 38 new field trainees. A second group is 
currently in the academy with 31 potential officers. It is 
estimated that, at the current annual rate of loss, by the time 
the second class graduates, we will have a net loss for the 
year to date. In 2005 our maximum commissioned strength was 
1741 officers. Post-Katrina we have experienced a decrease of 
482 officers. Our current effective personnel strength, total 
commissioned members minus those on long-term illness, injury, 
and all recruits, is 1,227 officers.
    This is a decrease of 514 officers. This is a net loss of 
almost 30 percent of our 2005 maximum personnel strength.
    Issues with retention. Retaining our officers has become--
is becoming increasingly difficult. Retention has been impacted 
by both resignation and retirements.
    In the past, the rate has averaged about 6 or 7 percent a 
year. It is now over 15 percent and shows no sign of declining. 
Many of our officers have indicated the following reasons for 
considering and/or separating from the department: Working 
conditions, loss of buildings and infrastructure in the 
department, living conditions. Post-Katrina housing is still an 
issue for many. Schools and lack of affordable housing 
significantly impact--are a significant impact from increased 
rental rates and insurance rates and utilities that our 
officers just can't afford.
    Twenty months after the storm, our working conditions have 
not improved. The NOPD is still operating in FEMA trailers. My 
office is in a FEMA trailer. We have no headquarters buildings. 
Three of our eight district stations are still not repaired. We 
have no permanent crime lab facility. We did, in fact, move 
into rented space at the University of New Orleans just last 
week. No central evidence and property storage facility. No 
Special Operations Division/Traffic Division complex. No 
Juvenile Division holding facility. All of these districts or 
divisions and units are operating out of FEMA trailers. None of 
the facilities lost in the storm have been repaired or 
replaced.
    We are only a few months away from another hurricane 
season, which by all meteorological predictions will be active. 
Any storm that enters the Gulf of Mexico has a high probability 
to affect the city of New Orleans. The lack of critical police 
facilities and capabilities is not only having a deleterious 
effect on the presentation--on the presentation and prosecution 
of cases, it has eroded the morale of the officers who see 
their best efforts to combat crime stalled due to our inability 
to adequately test and evaluate the evidence; and watch as the 
same offenders are repeatedly arrested and released.
    Due to the massive flooding of the city, New Orleans 
witnessed a migration of nearly half of its resident population 
and a significant portion of its businesses, many to--many to 
our neighboring parishes that were less affected by flood 
waters. Those parishes have grown significantly both in 
population and businesses. As a result, tax revenues in New 
Orleans have declined and city services suffered, including the 
police department. Tax revenues in unaffected cities and 
parishes, such as St. Tammany, Baton Rouge, and Jefferson, have 
increased significantly and allowed those areas to increase 
both services and salaries. At present, we only have one 
qualified firearm examiner and one fingerprint examiner. Our 
current backlog of firearm examinations exceed 200, and 
confiscated narcotics to be tested exceed 2000. Many of our 
most experienced and technically trained personnel have left 
the New Orleans Police Department for other or nearby law 
enforcement agencies, for higher pay, better facilities, and a 
better quality of life.
    Issues with recruiting. For many of the same reasons 
affecting retention, recruitment is a problem locally. Even 
with extensive advertising campaigns by the New Orleans Police 
and Justice Foundation, recruiting bonuses and housing 
assistance, the NOPD is still ``fishing in the same pond'' as 
neighboring jurisdictions that have similar or higher salaries. 
They, too, have been forced to raise pay and benefits to retain 
and hire additional officers. They also have actual or 
perceived better living and working conditions, a main reason 
NOPD has lost a significant number of experienced officers and 
specialists to nearby departments this year. We do not have the 
pay and incentive packages necessary to recruit from outside of 
our immediate region. Recruiting already trained and qualified 
officers from other departments outside of our region is the 
only way the NOPD can strengthen its numbers in the short term 
and gain experienced, qualified officers able to work the 
streets immediately in any effective manner.
    We have outlined an ad campaign to recruit former military. 
As soon as issues can be resolved with POST, which is a Police 
Officer Standards and Training Council, on what military 
training can be counted toward POST, we will begin a pursuit of 
military personnel more vigorously.
    The criminal justice system and the impact: The criminal 
justice system in New Orleans was completely destroyed by 
Hurricane Katrina. Both the criminal courts and Orleans Parish 
district attorney's office are suffering from a backlog of 
cases and a lack of prosecutors and indigent defenders. The 
pre- and post-Katrina challenges of the criminal justice system 
has further exacerbated the crime problem by creating a mindset 
in the most violent offenders that they will not suffer for 
their crimes in New Orleans.
    Mr. Scott. I notice you've got quite a ways to go.
    Chief Riley. Uh-huh.
    Mr. Scott. But----
    Chief Riley. Okay. It's kind of hard to cover Katrina in 5 
minutes, so--but, anyway, to wrap it up, just to----
    Mr. Scott. I'll ask you some questions, and you can get 
your----
    Chief Riley. Okay.
    Mr. Scott [continuing]. Rest of your statement in the 
questions.
    Chief Riley. Okay. All right. Can I just wrap it up? A 
couple of things. Some of the things that we need. We need our 
16 facilities repaired. We have 16 buildings that were damaged 
that have not been repaired. We will need the latest in 
equipment and technology for those facilities in order to bring 
us up to modern-day policing--to a modern-day policing agency. 
We will need some assistance with funding if possible to bring 
our starting salaries up to the national level that will 
attract people to come to this city in the aftermath of 
Katrina. And we need to create an area for housing First 
Responders so those First Responders who have been living in 
10-by-30-foot trailers can move into a decent home or 
apartment. So those are four or five things that are really 
crucial to rebuilding this police department.
    Mr. Scott. Thank you, and I hate to cut you off, but if you 
look----
    Chief Riley. I understand.
    Mr. Scott [continuing]. Through and see what you didn't get 
in when we get to questions make sure you can get it in at that 
point.
    Chief Riley. Okay.
    Mr. Scott. Okay?
    [The prepared statement of Mr. Riley follows:]
                 Prepared Statement of Warren J. Riley
    The criminal environment of the City of New Orleans is the product 
of many long-term, socio-economic factors, but it is driven to extremes 
by the massive, systemic drug culture and the violence that is 
engendered by that lifestyle. Law enforcement professionals understand 
the huge impact that poverty and the drug culture have on overall crime 
and it needs not be explained in depth for purposes of this summary 
report. For those not ``in the business,'' just look to the significant 
spikes in crime suffered by the communities that ``hosted'' large 
numbers of displaced residents from New Orleans, and the criminal 
element that was with them, in the aftermath of Hurricane Katrina. Now, 
imagine the crime problem these same individuals create when they are 
all in one city and you begin to understand the current situation in 
New Orleans.
                        nopd personnel issues--
    NOPD's personnel losses since the storm have been extreme. Locally, 
we have no competitive advantage in recruiting qualified applicants. We 
suffered a net loss of 217 officers in 2005 and 216 in 2006. As of 
April 5, 2007, we have lost 49 officers. One Police Academy class has 
graduated in 2007 with 38 new field trainees. A second group is 
currently in the Academy with 31 potential officers. It is estimated 
that at the current annual rate of loss, by the time the second class 
graduates we will still have a net loss for the year to date. Our 2005 
high was 1741 officers. We are down 482 officers until the two current 
recruit classes complete field training and graduate. Our current 
effective personnel strength (total commissioned members minus those on 
long term illness/injury and all recruits) is 1227. This is a decrease 
of 514 officers. This is a net loss of almost 30% of our total 2005 
personnel high-point.
                        issues with retention--
    For reasons ranging from working conditions (loss of buildings and 
infrastructure of the Department), living conditions (post-Katrina 
housing is still an issue for many), schools, cost of living locally 
(significant impact from increased insurance rates and utilities), we 
have had a significant increase in personnel losses due to resignations 
and retirements. In the past, the rate has averaged about 6-7% per 
year. It is now over 15% and shows no sign of declining.
    New Orleans has lost over half of its resident population and a 
significant portion of its businesses. Neighboring parishes that were 
not devastated by flood waters have grown significantly, in both 
population and businesses. As a result, tax revenues in New Orleans 
have plunged and city services suffer, including the police department. 
Tax revenues in the unaffected cities and parishes (St. Tammany, Baton 
Rouge, and Jefferson) have increased significantly and allowed those 
areas to increase both services and salaries.
    Many of our most experienced and technically trained personnel have 
left the NOPD for other, nearby law enforcement agencies for higher 
pay, better facilities and a better quality of life. At present, we 
only have 1 qualified firearms examiner and 1 fingerprint examiner 
left.
    Over 200 firearms examinations alone are backlogged, as well as, 
over 2000 narcotics tests.
    Only a significant pay raise (more than just an offset to the local 
cost of living increases) will induce officers to remain and ``re-
evaluate'' their retirement or career options, as well as allowing the 
department to recruit qualified applicants and officers from outside 
our immediate region. Based on national and regional data, an across-
the-board base salary increase of 45 to 50% with some minimal, annual 
cost-of-living adjustment would be required.
                        issues with recruiting--
    For many of the same reasons affecting retention, recruitment has 
been a problem locally. Even with extensive advertising campaigns by 
the New Orleans Police and Justice Foundation (NOPJF), recruiting 
bonuses and housing assistance, the NOPD is still ``fishing in the same 
pond'' as neighboring jurisdictions that have similar or higher 
salaries. They too have been forced to raise pay and benefits to retain 
and hire additional officers. They also have actual or perceived better 
living and working conditions, a main reason the NOPD has lost a 
significant number of experienced officers and specialists to nearby 
departments this year. We do not have the pay and incentive package 
necessary to recruit from outside our immediate region. Recruiting 
already trained and qualified officers from other departments outside 
our region is the only way the NOPD can strengthen its numbers in the 
short term and gain experienced, qualified officers able to work the 
streets immediately in any effective manner.
    We have outlined an ad campaign to recruit former military. As soon 
as issues can be resolved with the POST Council on what military 
training can be counted toward POST training requirements thereby 
allowing former military to be treated as ``lateral'' entry, we will be 
able to actively recruit from this pool and possibly fill vacancies 
faster than a traditional ``new'' hire. Once again though, competitive 
pay will be the determining factor for where these quality applicants 
will apply and work.
                            learning curve--
    Absent a significant change in salaries and benefits, the NOPD will 
continue to lose between 100-150 officers per year for the foreseeable 
future. Without immediate help from trained, lateral hires, we must 
rely on our own training of new recruits to replenish our ranks. The 
learning curve for new trainees is estimated at 7-8 months from the 
beginning of the Academy to their first permanent assignment after 
their Field Training Officer period. An additional 2 years of street 
experience is required after the Academy before they can function 
outside of a ``calls-for-service'' only capacity. With the staggering 
loss of senior, experienced officers and the crime problems facing the 
city, we cannot wait for new, entry level officers to gain experience. 
We must aggressively recruit lateral, experienced officers from other 
departments outside of our immediate region to fill our ranks and ``hit 
the deck running''.
                      administrative assignments--
    Recognizing that our personnel shortage is past critical, the NOPD 
has reviewed all personnel assignments that are not DIRECTLY related to 
providing police services ``on the street''. An extensive analysis was 
done of all units in the Administrative and Support Bureau to determine 
the availability of commissioned personnel for reassignment to street 
duties. There are 90 commissioned members of all ranks in these Bureaus 
(including 10 captains, 6 lieutenants and 26 sergeants) supplemented by 
15 commissioned members on administrative reassignment or limited duty 
due to injury or illness, from the Administrative Duties Division 
(ADD). 21 of the 85 currently staffed positions would have to retire or 
go to ADD if transferred to field duties. All of these units are 
operating at severe personnel shortage levels and any loss of personnel 
would likely tip the balance to a total loss of unit functionality. 
Since many of these units directly serve street operations, this is a 
critical issue. All commissioned personnel who are in administrative 
assignments MUST work 3 days a week in an Administrative Task Force to 
supplement the District personnel in the areas most affected by violent 
crime.
                    criminal justice system impact--
    The criminal justice system in New Orleans was completely destroyed 
by Hurricane Katrina. Both the Criminal Courts and the Orleans Parish 
District Attorney's Office have suffered from the backlog of cases and 
a lack of prosecutors and indigent defenders. The District Attorney's 
Office was suffering from understaffed and inexperienced prosecutors 
prior to the storm. These issues became even more critical after the 
loss of staff and facilities. As with the NOPD, the DA's Office is 
unable to compete in the market place for qualified staff. The pre and 
post Katrina dysfunction of the criminal justice system has further 
exacerbated the crime problem by creating a mindset in the most violent 
offenders that they will not suffer for their crimes in New Orleans. 
They are further emboldened to commit more crimes.
    With the criminal justice system only slowly coming back on-line 
locally, and given the huge backlog of cases that must eventually be 
screened and prosecuted, the demand for officers to appear in court 
will jump significantly. This need will remove those officers from 
their assigned duties and further reduce the number of commissioned 
personnel available at any given time to perform their regular duties. 
With the already low number of available officers, any further impact 
is significant.
    If it were not for the unprecedented cooperation and assistance of 
the local U.S. Attorney, Jim Letten and the FBI, DEA, ATF, ICE and US 
Marshall's Office, criminals in New Orleans would operate without fear 
of any punishment from the criminal justice system.
                           potential impact--
    We have over 200 officers of all ranks eligible for immediate 
retirement with 25 or more years of service. Any additional significant 
negative impact on their working environment could cause a massive loss 
of these experienced members.
                     personnel assistance summary--
    It is very difficult for the NOPD to set internal ``benchmarks'' on 
the release of assistance currently being provided by the Louisiana 
National Guard (300 members) and Louisiana State Police (60 Troopers). 
The LANG has worked side-by-side with the NOPD in the areas of the City 
most heavily damaged and least populated, to provide the extra 
personnel required to protect property where there are no ``eyes and 
ears'' of citizens to report activity. The LSP has provided high 
visibility coverage in the French Quarter and Downtown area to 
supplement the NOPD where the density of visitors and citizens is 
greatest.
    The current class of police recruits will be completed with all 
training by the middle of June 2007 and available for per permanent 
field assignments. Another class should be available for permanent 
field assignments in November 2007. These classes, coupled with an 
active campaign to attract lateral entry personnel, our most reasonable 
estimate we for this year is 100-120 new officers by year's end. This 
may not offset the losses we expect of 195-210 (based on trends of last 
2 years) due to retirements and resignations.
    We cannot expect the LSP and LANG to continue to provide personnel 
support to the NOPD indefinitely. Each of these organizations has their 
own individual missions to meet and have graciously given of their 
limited resources for far longer than anyone expected. Given the 
demands on the US military today, the extra burden shouldered by the 
LANG in New Orleans could have a negative effect on our military's 
overseas missions.
    Twenty months after the storm, the NOPD is still operating in FEMA 
trailers. We have no HQ building. Three of eight District stations are 
still not repaired. We have no permanent Crime Lab facility (we moved 
to rented space at the University of New Orleans only last week), no 
Central Evidence and Property storage facility, no Special Operations 
Division/Traffic Division complex, no Juvenile Division holding 
facility. None of the facilities lost during the storm have been 
repaired/replaced. We are only a few months away from another hurricane 
season, which by all meteorological predictions will be active. We have 
an almost 50% likelihood of a storm affecting the city of New Orleans.
    The lack of critical police facilities and capabilities is not only 
having a deleterious effect on the presentation and prosecution of 
cases, it has eroded the morale of the officers who see their best 
efforts to combat crime stalled due to our inability to adequately test 
and evaluate the evidence and watch as the same offenders are 
repeatedly arrested and released.
    The NOPD is at a crossroads. We will never abandon our mission to 
``Serve and Protect'' the citizens of New Orleans, but we are faced 
with the daily reality of an imminent collapse of our criminal justice 
institutions.

    Mr. Scott. Mr. Gusman.

 TESTIMONY OF MARLIN GUSMAN, ORLEANS PARISH CRIMINAL SHERIFF, 
                        NEW ORLEANS, LA

    Mr. Gusman. Good morning. Good morning, Mr. Chairman and 
Members of the Committee. Thank you for this opportunity. As 
the criminal sheriff, I am responsible for one of the core 
components of the local criminal justice system, the operation 
of the parish jail system. This responsibility includes 
providing the care, custody, and control of subjects housed in 
our jail facilities as well as the processing of all 
individuals arrested within the city of New Orleans. 
Additionally I serve as the Executive Officer for the Orleans 
Parish Criminal District Court, which includes the execution of 
all writs, orders, and processes, including warrants and 
subpoenas, as well as providing security for the court system. 
Ancillary functions of my office include, but are not limited 
to, law enforcement patrols, the operation of search and 
rescue, mounted, and K-9.
    To really understand how Katrina has affected our 
operations, it's important to know where we were prior to the 
storm and where we stand now. Prior to the storm, the sheriff's 
office operated 11 jail facilities at near capacity with a 
combined bed space of approximately 7200 incarcerated subjects, 
giving it the distinction of being one of the Nation's 10 
largest jail systems. Of these 11 facilities, only four are 
currently operational. And included in the list of inoperable 
jail facilities are four of our largest: The Old Parish Prison, 
Community Correctional Center, Templeman Phase I and II, and 
Templeman Phase III and IV. Adding to our burden, prior to 
March 1, 2007, over 2,000 offenders had to be transferred to 
other jurisdictions due to the lack of bed space. This was an 
enormous financial burden because these individuals had to be 
transferred back and forth for court proceedings.
    Our intake and book operations have been significantly 
affected as well. We now process between 180 to 200 arrestees 
on a daily basis. This is in a facility that's designed to 
process only 80. Before, we had a state-of-the-art facility, 
and now that facility was destroyed; so, we're back to an older 
facility.
    Other components of our office that were also affected: 
Before Katrina, we had a modern kitchen facility. We produce 
over 20,000 meals a day. Now, we have a facility that's just a 
small temporary facility. We produce 7,000 meals a day.
    One of our primary responsibilities is to provide those 
that are in our custody adequate medical care, commensurate 
with community health care standards. Prior to Katrina, we had 
a complex medical system for our inmates. We had doctors and 
nurses. Now, we've lost a lot of that. As a result, we've been 
forced to scale down on-site medical operations, and we have to 
transport inmates to local hospitals for the treatment of 
injuries and illnesses.
    Inmate rehabilitation programs have also suffered. Before 
Katrina, my department ran three very successful rehabilitation 
programs: The ``Blue Walters,'' the ``Francois Alternative,'' 
and the ``About Face'' program. Successful completion of these 
programs effectively reduced the likelihood of an inmate re-
offending. Now, financial hindrances and limited infrastructure 
have closed these programs.
    In order for us to operate, we have to have these critical 
issues addressed. We need to restore our four largest jail 
facilities. We need to restore our kitchen. We need to rebuild 
a modern booking facility. We need to have increased funding to 
recruit and retain qualified employees.
    What can you all do? The United States Congress can assist 
us by working toward streamlining the remediation process. Cut 
the red tape that's involved in this process. Authorize another 
round of Hurricane Infrastructure grant funding. Continue and 
increase allocation levels for Federal grant funding, including 
the Byrne and the JAG. Authorize another round of Community 
Disaster Loans, and you can forgive the prior Community 
Disaster Loans. The 10 percent mesh that's required by FEMA, we 
need to have that waived. This is critical for us, as we 
received well over $60 million in damage to our infrastructure 
and our contents, and the 10 percent mesh would require a big 
payment for us.
    In closing, I would like to express our sincere 
appreciation to the many individuals that have helped us in our 
recovery process. The people like the Federal Emergency 
Management Agency, James Stark, John Connolly, Jim Hill, the 
Justice Team, Judge Mark Roy. I would also like to express my 
thanks to the United States Department of Justice, Attorney 
General Alberto Gonzales, U.S. Attorney Jim Letten, Mr. Domingo 
Herrera, for their assistance. The Louisiana Attorney General 
Charles Foti, and Louisiana Supreme Court Justice Kitty 
Kimball. This has been a very difficult road for us, and I 
appreciate all of the help that we've gotten. And I also would 
like to thank you all for joining us in New Orleans to hear our 
concerns about the escalating level of crime and the state of 
the criminal justice system. Thank you very much.
    Mr. Scott. Thank you. Thank you, Sheriff.
    [The prepared statement of Mr. Gusman follows:]
                 Prepared Statement of Marlin N. Gusman
    The impacts of Hurricane Katrina and the flood resulting from the 
levee failures are far reaching and can only be described as 
catastrophic. Never before has this Nation experienced a natural 
disaster of this magnitude, which very nearly destroyed one of the 
World's most vibrant and culturally diverse cities. The world is very 
familiar with scenes of the hurricane damage, immense flooding and the 
lives lost as a result of this tragedy. Now the focus is on the 
survivors, the citizens of New Orleans who are struggling to put their 
lives back together and rebuild. Recently, much of this focus has been 
placed on the escalating levels of crime in the city. Outsiders see a 
city with half of its former population with a per capita crime rate 
that is beginning to exceed that of pre-Katrina levels. Violent crime, 
most notably murder, is on the increase with close to 50 homicides to 
date in 2007. The crippled criminal justice infrastructure is 
struggling to deal with this serious issue. Progress in the city has 
been seriously hindered by the crime problem.
    As the Criminal Sheriff, I am primarily responsible for one of the 
core components of the local criminal justice system, the operation of 
the Parish jail system. This responsibility includes providing for the 
care, custody, and control of subjects housed in our jail facilities as 
well as the processing of all individuals arrested within the City of 
New Orleans. Additionally, I serve as the Executive Officer for the 
Orleans Parish Criminal District Court, which includes the execution of 
all writs, orders, and processes including, warrants and subpoenas as 
well as providing security for the court system. Ancillary functions of 
my office include, but are not limited to, law enforcement patrols, the 
operation of search and rescue, mounted, K-9, motorcycle, and SWAT 
units, community service programs, work release programs, and inmate 
rehabilitation programs.
    This written testimony will first address how Hurricane Katrina and 
the flood have affected the operations of the Orleans Parish Criminal 
Sheriff's Office (OPCSO). I will then describe what work still needs to 
be completed and what resources are needed to complete this work.
    To adequately understand how Katrina has affected our operations, 
it is helpful to see where we were prior to the storm and compare that 
to where we stand now. Prior to the storm, the OPCSO, operated 11 jail 
facilities at near capacity with a combined bed space for approximately 
7,200 incarcerated subjects, giving it the dubious distinction of being 
one of the Nation's ten largest local jail systems. Of these 11 
facilities, only four are currently operational. Included in the list 
of inoperable jail facilities are four of our largest: Old Parish 
Prison, Community Correctional Center, Templeman Phase I & II Jail, and 
Templeman Phase III & IV Jail (three out of four of these facilities 
are owned by the City of New Orleans). The inoperability of these four 
facilities results in a loss of critical bed space for approximately 
4,100 inmates at a time when these resources are needed more than ever 
with the escalating crime rate. Also, it should be noted that our 
operating revenue has been significantly decreased since it is based on 
inmate per diem payments. Adding to our burden, prior to March 1, 2007, 
over 2,000 offenders had to be transferred to other jurisdictions due 
to this lack of bed space. This was an enormous financial burden 
because these individuals had to be transferred back and forth to 
Orleans Parish for court proceedings. On a positive note, FEMA 
resources have enabled us to construct a temporary modular jail 
facility that can house up to 800 minimum-security inmates.
    Our intake and booking operations have been significantly affected 
as well. It was projected that the yearly number of arrested subjects 
processed through our booking facility in 2005 would exceed 100,000 
individuals. We were processing between 250 to 400 arrestees in any 
given 24-hour period in a state-of-the art booking facility. This 
facility suffered tremendous damage and is scheduled to be demolished 
soon. Intake operations have been temporarily transferred to our old 
booking facility, known as Central Lock-up, located on the ground level 
in the House of Detention. This facility was designed in the late 
1950's and was only supposed to accommodate 80 arrestees per day. 
Intake requirements quickly outgrew this facility in the mid 1980's. 
Now we are processing between 180 to 200 arrestees per day in a 
facility designed to process only 80. It is important to note that in 
2006, well over 50,000 arrestees were processed in this temporary 
facility (this figure also attests to the escalation in crime). With no 
other options we are doing the best we can to operate in this 
environment in a safe and professional manner.
    Other critical components of our office vital to operating an 
immense jail system were also affected. Pre-Katrina, our modern kitchen 
production facility produced over 20,000 meals per day. This facility 
was seriously damaged by high winds and the flood and remains, to this 
day inoperable. After we opened our first jail facility following 
Katrina (the House of Detention), all inmate and staff food had to be 
outsourced to catering firms as we had no viable means of food 
production. This was a financially burdensome choice but no other 
viable options existed. Thankfully, FEMA stepped in and assisted us 
with payments. Current food production operations are conducted out of 
a temporary kitchen facility, which produces more than 7,000 meals per 
day. This is actually an incredible feat considering the fact that this 
kitchen was not designed to handle such a heavy workload. It should 
also be noted that the cost of basic foodstuffs has increased in post-
Katrina New Orleans adding to our already stretched finances.
    One of our primary responsibilities to those that are in our 
custody is to provide medical care commensurate to community healthcare 
standards. Prior to Katrina, the OPCSO operated a complex medical 
system for our inmates. We employed many doctors (of numerous 
specialties), nurses, and other healthcare workers, and provided for 
comprehensive 24-hour care of sick and injured inmates. We operated a 
psychiatric tier and a psychiatric step-down tier as well as other 
psychiatric services for inmates with mental illnesses. A medical 
observation unit housed inmates who were sick or injured and a medical 
housing unit housed inmates with chronic illnesses such as advanced HIV 
disease and hepatitis. Both of these units were staffed 24 hours a day 
by physicians and nurses. This was a significant benefit to us, as we 
did not have to transport these individuals to the hospital for 
treatment. They could be treated on-site. Unfortunately both of these 
facilities were completely destroyed. As a result, we have been forced 
to scale down on on-site medical operations and have to transport 
inmates to local hospitals for the treatment of injuries and illness 
that we used to be able to treat on-site. This is actually problematic 
for several reasons. As you are well aware, many of the local hospitals 
were closed following Katrina, including Charity Hospital, which had an 
on-site prison ward for critically ill inmates (it should be noted that 
we provided security for our inmates on this ward). Now, inmates 
requiring hospitalization or complex medical procedures must be 
transported, at great expense to the OPCSO, to the two closest public 
hospitals, one in Houma and one in Baton Rouge. In addition to the high 
transportation costs, additional manpower is required. As a side note, 
it should also be pointed out that local medical resources available to 
inmates once released from jail are lacking causing continuity of care 
issues. The loss of medical personnel is also a significant problem in 
post-Katrina New Orleans.
    Prior to Katrina the Sheriff's Office employed almost 1,200 
individuals. Now, current staffing levels are at about 700. It is very 
difficult to find and then retain qualified employees now for many 
reasons. The lack of available and affordable housing plays a 
significant role as well as the lack of schools and medical facilities. 
Many of our former employees want to return to New Orleans and their 
jobs at the OPCSO but are hindered by this (many of our former 
employees have also permanently relocated outside of Southeastern 
Louisiana). We, with the assistance of FEMA, have only partially 
addressed this issue by providing more than 80 trailers, on our 
property as temporary employee housing. Also, job seekers are demanding 
higher wages to offset employment and environmental conditions. The 
criminal justice system has been particularly hard-hit by this. The 
cost of recruiting and retaining qualified law enforcement and medical 
professionals have increased exponentially. Many former deputies have 
left the profession to seek employment in other sectors or have taken 
up employment with other law enforcement agencies that can afford to 
pay their employees higher salaries. Finding skilled laborers 
(electricians, welders, locksmiths, etc.) is also very difficult.
    Hurricane Katrina has also affected our court security operations. 
Pre-Katrina the OPCSO was responsible for providing security only at 
Criminal District Court. Now, we provide security in three additional 
court locations: Magistrate Court in the House of Detention, Traffic 
Court in the House of Detention, and at the temporary Municipal Court. 
This obviously requires additional financial resources and manpower. 
Another significant problem related to our responsibility within the 
court system is directly related to the inoperability of the Old Parish 
Prison. The Old Parish Prison was directly connected to the Criminal 
District Court, effectively reducing the need to transport as many 
inmates. Now, all inmates have to be transported in vans from the 
outlying jails to the court. This is a financial burden as well as a 
potential risk to public safety.
    Inmate rehabilitation programs have also suffered. Before Katrina 
my department ran three very successful rehabilitation programs: Blue 
Walters, Francois Alternative, and About Face. Successful completion of 
these programs effectively reduced the likelihood of an inmate re-
offending. Now, financial hindrances and limited infrastructure have 
closed these programs. This is unfortunate, especially at a time when 
they could effectively contribute to the reduction of crime in New 
Orleans.
    Though much progress has been made in the 17 months proceeding 
Hurricane Katrina (with the assistance of many Federal agencies 
including FEMA, the Department of Justice, and many others), an 
incredible amount is still needed. In order for the OPCSO to 
successfully operate in post-Katrina New Orleans and to meet the needs 
of the criminal justice system, the following critical issues need to 
be addressed:

        <bullet>  The restoration of our four largest jail facilities: 
        Community Correctional Facility, Old Parish Prison, Templeman 
        Phase I & II Jail, and Templeman Phase III & IV. This would 
        increase our capacity (an additional 4,100 beds) to hold some 
        of New Orleans most violent and repeat offenders. Crime is 
        increasing requiring more bed space. It is important to note 
        that the City of New Orleans owns three out of these four 
        facilities.

        <bullet>  The restoration of our permanent kitchen production 
        facility to adequately provide for the dietary needs of our 
        increasing offender population.

        <bullet>  Increase the availability of affordable housing for 
        our employees.

        <bullet>  Rebuild a modern booking facility that can adequately 
        accommodate the increasing intake volume.

        <bullet>  Increased funding to recruit and retain qualified 
        employees.

        <bullet>  Increased funding to enable the OPCSO to purchase 
        much needed equipment for our employees so they can complete 
        their missions in a safe and effective manner.

        <bullet>  Need to expedite the recovery and remediation process 
        between the City of New Orleans and FEMA so that city-owned 
        facilities under the control of the OPCSO can be refurbished 
        and placed into operation.

    In all honesty, more financial resources are required to achieve 
all of these objectives. Only so much can be done with the limited 
resources available to us as well as our loss of revenue.
    The United States Congress can continue to assist us in achieving 
these goals by:

        <bullet>  Work towards streamlining the remediation process. 
        Work to cut the ``red tape'' involved in the process. Change 
        rules and procedures to expedite the flow of much needed funds.

        <bullet>  Authorize another round of Hurricane Infrastructure 
        grant funding.

        <bullet>  Continue and increase local allocation levels on 
        Federal grant funds including LETPP, Byrne/JAG, etc. These 
        funding sources enabled us to purchase much needed law 
        enforcement equipment as well as funding critical overtime for 
        jail security and proactive patrol operations.

        <bullet>  Authorize another round of Community Disaster Loans.

        <bullet>  Forgive prior Community Disaster Loans.

        <bullet>  Waive the 10% match/deductible required by FEMA. This 
        is critical for the OPCSO as we received well over sixty 
        million dollars in damage to our infrastructure and contents. A 
        10% match would require a payment on our part in the amount of 
        approximately six million dollars.

        <bullet>  Provide assistance to first responders so that they 
        can afford to live and work here, as they are the backbone of 
        the New Orleans criminal justice system.

    Despite the major challenges we face, much has been accomplished 
following the hurricane and attests to our resilience and willingness 
to revitalize the City of New Orleans. Immediately following Katrina 
and the flood, we were able to evacuate well over 6,000 inmates (not to 
mention hundreds of civilians) without any serious injuries or a loss 
of life. This almost unbelievable feat attests to the outstanding 
efforts of the deputies and staff of the Sheriff's Office. Less than 
two months after the flood we were able to open an 800 permanent bed 
facility, which helped to facilitate public safety in Katrina's wake. 
Since Katrina, with the hard work of Sheriff's deputies and staff and 
the assistance of Federal and State agencies, we have been able to 
refurbish and open four additional jails, including the temporary 
facility mentioned above, providing a much needed 1,700 beds. Numerous 
projects are underway to repair other areas of our infrastructure. With 
the assistance of FEMA, we have been able to construct a temporary 
Municipal and Traffic Court in one of our buildings. A temporary 
booking facility has been open for well over a year. In addition, a 
master mitigation plan is being created with the help of FEMA to 
provide for the survivability and sustainability of the entire criminal 
justice system should we be affected by another natural or man-made 
disaster of Katrina's magnitude.
    In closing, my staff and I would like to express our sincere 
appreciation to the many individuals who have assisted us in the 
recovery process. First, the devoted employees of the Federal Emergency 
Management Agency deserve mention including James W. Stark, John 
Connolly, Jim Hill and the Justice Team, as well as Judge Mark Roy. I 
would like to express my thanks to the United States Department of 
Justice, particularly to Attorney General Alberto Gonzales, Jim Letten, 
and Mr. Domingo Herrera for their continued assistance to the recovery 
of the criminal justice system in New Orleans. I would also like to 
thank Louisiana Attorney General Charles Foti and Louisiana Supreme 
Court Chief Justice Kitty Kimball. I would like to express many thanks 
to the devoted employees of the Sheriff's Office who have worked 
tirelessly to rebuild our department. I would also like to express my 
gratitude to the Louisiana Sheriff's Association. Finally, I would like 
to thank the members of the U.S. House of Representatives, Committee on 
the Judiciary, Subcommittee on Crime, Terrorism, and Homeland Security 
for joining us in New Orleans to hear our concerns about the escalating 
level of crime and the state of the criminal justice system.

    Mr. Scott. I recognize myself for 5 minutes. And thank you, 
Sheriff, for saying thank you for what we've done. We usually 
don't get much of that. I know we haven't done much, but we 
have done something; so, I appreciate your comments.
    Sheriff, you mentioned you had 7200 that you were housing 
before Katrina. How many are you taking care of now?
    Mr. Gusman. Well, we actually had an average yearly 
population of right under 6,000. We had beds for 7200. Now we 
house about 2500.
    Mr. Scott. And how many--you said some of the units have 
been closed.
    How many beds do you actually have?
    Mr. Gusman. We have 2500 beds. We're just right at 
capacity. It's kind of difficult sometimes. We have to make 
sure that we transfer in the event of overcrowding.
    Mr. Scott. Well, you're aware that many of the sheriffs 
that I know would be delighted to have the capacity census. 
Most of them are way over capacity.
    Mr. Gusman. Well, Mr. Chairman, it brings problems in. It 
brings benefits.
    Mr. Scott. What's the length of the sentence, average 
length of sentence, of the people in your jails?
    Mr. Gusman. Well, currently, all of--virtually everyone 
that's in jail now are pre-trial offenders; so, they are 
waiting trial, and they haven't been sentenced yet.
    Mr. Scott. And do you have mental health resources?
    Mr. Gusman. We employ one full-time psychiatrist and two 
part-time; and we have a floor in one of the jails that's 
dedicated to psychiatric care.
    But I've got to tell you that it's really strained and 
stretched; it's a difficult situation. Unfortunately, we pick 
up a lot of people who really deserve other care as opposed to 
being in jail.
    Mr. Scott. Mr. Jordan, you mentioned the crime lab and 
records. Can you just tell us what the present state of affairs 
is with the crime lab and criminal justice records?
    Mr. Jordan. Actually, I think the Superintendent knows more 
about the crime lab.
    Mr. Scott. Okay.
    Chief Riley. As it relates to our crime lab, we just 
secured a lease with the University of New Orleans. We have 
taken over their old computer lab. We are going to begin moving 
in this week with equipment at the University of New Orleans. 
Our lab should probably be running at about 45-50 percent of 
its abilities over the next 30 days; but we hope over the next 
90 to 120 days to have it up and fully functional; so, that's a 
big move for us. As it relates to records, we did, in fact, 
lose some reports that were at three district stations that 
were wiped out the day of the flood. Those reports were 
probably less than 30 days old, but there were hundreds of 
arrest records/reports that were in there that had not been 
brought up to our record room as of the date of the storm. 
Those three areas were completely--those stations were 
completely overwhelmed by water, and we did lose those reports.
    Mr. Scott. Did the arrest records just disappear?
    Chief Riley. Those were original reports that, yes, that 
had the details of the arrests.
    Mr. Jordan. Now, my office has a Case Recovery Management 
Team that is funded by the Federal Government. That's composed 
of prosecutors who look at the status of cases to determine 
whether they're still viable today. These are pre-Katrina cases 
that they're looking at. And this team has completed the vast 
majority of its work at this time, and they've looked at 
records and evidence stored in the courthouse and stored in 
other locations to determine whether those cases are viable.
    Mr. Scott. Chief Riley, you mentioned that you were not up 
to full capacity of employees. Is that for lack of money or for 
lack of recruitment--being able to recruit at the salaries 
you're recruiting for.
    Chief Riley. Well, it's a number of issues.
    The majority of officers that resigned left after their 
families were relocated. Over the past 2 years, some of their 
families have reestablished themselves in other communities and 
those officers had decisions to make.
    And, so, we probably--we probably lost about 60 percent of 
our officers for that reason: They moved on. Their families, 
they lost their home; they lost everything they owned.
    Mr. Scott. Well, if they moved on, you're not paying them. 
Are you unable to recruit and replace those?
    Chief Riley. We have only been able to--we have just 
graduated a class of 38 recruits. It took us 6 months to get 
people through the system. The majority of people, as always, 
that apply did not make it through the process. We have a new 
class in place right now with 31 recruits; so, we have not 
been--we're not anywhere near replacing over 500 officers that 
we've lost.
    Mr. Scott. Thank you. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. Chief, I want to, 
first of all, thank you for the job you're doing. I know it's a 
tough task. We want to be there to help you, and we are 
reviewing the whole testimony; so, don't think we're not doing 
anything. As I look at this, though, one of the things that my 
good friend from Texas raised was that this beautiful building 
we're in was a lake, I think the president testified after 
Katrina. But before Katrina, it wasn't a lake. It was a 
beautiful building. It's a beautiful building now. Mr. Jordan, 
as I looked at your office, and the criminal justice system in 
New Orleans, you really don't want us to restore it back to 
where it was before Katrina because it looks like to me, based 
on the statistics we have, your office, it was broken 
significantly before that. I just want to ask you some 
questions about that. How long did you say you've been District 
Attorney in that office?
    Mr. Jordan. Since 2003.
    Mr. Forbes. Well, in 2003, there were 58 desks per 100,000 
residents. Is that an accurate statistic in New Orleans?
    Mr. Jordan. I imagine that sounds correct.
    Mr. Forbes. Do you know what the national average was 
across the country then?
    Mr. Jordan. No.
    Mr. Forbes. Wouldn't it be useful if you're talking about 
attorneys to at least know that national average? Let me ask 
you this: Your office only had--12 percent of individuals 
arrested for murder were sent to prison in 2003 and 2004. 
There's something wrong with that system based on prosecution 
rates across the country. Do you know what the prosecution 
rates were across the country for murders and----
    Mr. Jordan. Well, Congressman, let me just say this: That I 
think that our conviction rate is consistent with other 
prosecutors' offices throughout the country when we look at the 
cases that are acceptable for prosecution. And let me just 
expand on that by indicating that over the last several years 
we have improved on the acceptance rate for cases and 
prosecution. That number has increased steadily since--since my 
tenure in office.
    Mr. Forbes. Mr. Jordan, let me ask you this question: You 
can----
    Mr. Jordan. Can I complete my statement?
    Mr. Forbes. You--you can. But I've got 5 minutes, and, so, 
you can put anything you want into the record, and I'm happy to 
have it. And if the Chairman will give us more time later, we 
can look at anything you want. But--but we have one recent case 
where the murderer was actually caught on tape and wasn't 
prosecuted.
    Mr. Jordan. Well, let--let me----
    Mr. Forbes. Explain that one.
    Mr. Jordan. Let me speak to that. First of all, you were in 
error when you say that it was caught on tape. What it was, 
before the storm, there was an incident where there were three 
individuals who fired firearms at the car wash, and they did 
not kill the individual that they were shooting at, but they 
did seriously injure those individuals. And we had a videotape 
of those individuals shooting the people at the car wash.
    Mr. Forbes. Did you prosecute them?
    Mr. Jordan. Yes, we did, and we got a conviction. In fact, 
we got a guilty plea; so----
    Mr. Forbes. You got a guilty plea, or the Federal 
Government got it?
    Mr. Jordan. No. My office got a guilty plea; so, I don't--I 
think your information is incorrect.
    But that case is still ongoing. But it does illustrate 
something that's very important, and that is a fear factor on 
the part of the witnesses. Even though those individuals were 
aware of the fact that there was a videotape, they were afraid 
to testify because of the fact that the individuals charged 
with this crime were released on bond, and they thought that 
they should have been behind bars. Now, we don't control 
whether they are released on bond; but under Louisiana law, 
people have a right to make a bond; and if they make that bond, 
then they are back out on the street. Now, under the Federal 
system, there's an advantage because it's simply a question of 
whether they are considered a flight risk or a threat to the 
community. In either event they would have been detained 
without bond. But under our system, they were released on bond, 
and these people were afraid to testify. And, Congressman, you 
may not be aware of the fact, but the victims had to testify in 
that case. It was--even with the videotape, the victims' 
testimony was important.
    Mr. Forbes. Can I ask you about----
    Mr. Jordan. I'm not--I haven't completed my statement yet 
on--on that particular point, because that case is still going 
on. And that was why it's so important for us to have a Victim 
Witness Assistance program that helps us to transport people 
and provide some minimal level of security to people because we 
do have a--a great level of fear in the city of New Orleans.
    Mr. Forbes. Let me ask you, on the release provision that 
you talked about: On your bail bond reduction hearings, is the 
State--is the State present when those hearings take place?
    Mr. Jordan. Not necessarily, Congressman.
    A bond can be reduced at a later point in time. Simply if a 
phone call is made and the judge feels that that person is not 
going to be a flight risk or a threat to the community. And 
that has happened. Most of the judges, however, do not reduce 
bonds, but it does happen on occasion. And, again, this is an 
illustration of the better Federal system because I believe 
that generally they don't release people charged with these 
kinds of serious crimes.
    Mr. Forbes. But help me with this system. My time is up. I 
want to cover just a few more seconds here, that--that you need 
to explain. When--when a hearing, as I understand it, takes 
place, an individual defendant is brought before a magistrate. 
And in that particular situation, before a magistrate, initial 
bond is set. Is that correct?
    Mr. Jordan. That's correct.
    Mr. Forbes. And then, subsequently, the bondsman can call a 
judge and request that that bond be reduced. Is that correct?
    Mr. Jordan. That's correct.
    Mr. Forbes. And your office doesn't even get the 
opportunity to be there to make an argument in that 
particular----
    Mr. Jordan. That's correct, Congressman.
    We do not necessarily--we are not necessarily present for a 
bond reduction conversation that may take place.
    Mr. Forbes. Don't you think that you should be able to be 
present?
    Mr. Jordan. Yes, I do. And we have advocated that. We 
believe that there should be a contradictory hearing whenever a 
bond is reduced.
    Mr. Forbes. My time is up. Thank you.
    Mr. Jordan.
    Mr. Jordan. Thank you.
    Mr. Scott. Mr. Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott.
    Chief Riley, let me ask you: Do you know what the current 
census estimate for New Orleans is?
    Chief Riley. That varies. I think the latest one goes back 
to July of '06, which were reports from a couple of weeks ago 
that estimated somewhere around 223,000 people. There was a 
demographer on the news the other night that states that since 
July of '06, that it is now somewhere around 270,000; so, we 
really don't know.
    Mr. Gohmert. Okay. Well, when you were mentioning you'd 
lost 30 percent of the officers, I was trying to reconcile that 
with the reduction in population of New Orleans. And it sounds 
like a year later, the 223,000, was a 49 percent reduction in 
population; and now, being around 30 percent. But I know, you 
hear things. You read things. And I'd understood from the owner 
of a dealership here that, in an area that was not flooded, he 
was contacted and told, as Mr. Sewell, to protect his cars, the 
police had cut into the safe and had all of the keys to the new 
cars and that the cars were driven away to safety, and they 
still haven't gotten some of those back. Is there truth to 
that?
    Chief Riley. Well, I can tell you the officers did cut into 
a safe. One of Mr. Sewell's employees was there giving out keys 
to his friends, who were driving off with the cars. Our 
officers on patrol saw that. We, in fact, stopped the thefts. 
We did use--I'll be honest with you: We did use about 30 of 
those Sewell cars for emergency purposes, but we also 
warehoused 78 of those cars in the Convention Center, and 
probably saved him a lot of money, and maybe we didn't save him 
a lot of money. Insurance. Who knows.
    Mr. Gohmert. Okay. But if they were warehoused, but they--
it wasn't necessary to move them, then I'm not sure I 
understand.
    Chief Riley. When I said we warehoused them, we warehoused 
78--I believe over 100 cars were stolen. We used 30 of the 
cars. We warehoused about 78 of those cars that were, in fact, 
returned to Mr. Sewell completely undamaged.
    Mr. Gohmert. Let me ask District Attorney, Mr. Jordan: How 
many prosecutors do you have currently?
    Mr. Jordan. We have approximately--86, I believe, is the 
total number.
    Mr. Gohmert. And investigators?
    Mr. Jordan. I think we have something like 20 or so.
    Mr. Gohmert. How--how does that compare to pre-Katrina?
    Mr. Jordan. Well, as I indicated in my testimony, we had 
92--92 positions that were funded before the storm. And----
    Mr. Gohmert. You--that's how many people were actually 
working there, or just how----
    Mr. Jordan. No.
    Mr. Gohmert [continuing]. Many positions?
    Mr. Jordan. 92 prosecutors.
    Mr. Gohmert. Right.
    Mr. Jordan. We have additional prosecutors--well, we've 
been allotted prosecutors for a Violent Crime Unit. There's 6 
prosecutors who are part of that unit. There are 13 positions 
that are actually funded by grants now; so, that's--that's a 
big difference between the way it is today and the way it was 
before Katrina. Those 92 positions or so were funded by the 
State of Louisiana completely and not by any--there--there may 
have been one or two grants, but not nearly as many as we have 
now. And we also have Federal funding for a Case Recovery 
Management Team.
    Mr. Gohmert. In all due respect, you answered my question, 
how many----
    Mr. Jordan. Okay.
    Mr. Gohmert [continuing]. You had before. And--and we--
we're able to dig up the facts on how much the Federal 
Government is funding and how much should be funded. But you 
addressed the bond issue, and I'd like to go back to that. You 
mentioned that your office wasn't even allowed to be present at 
some of the bond reductions. And I think in some material that 
we were furnished this statement is made, that New Orleans bail 
and bond release practices allow judges and other officials to 
receive payments of a certain percentage of release bonds. Is 
that true? Can a judge receive a percentage of a release bond?
    Mr. Jordan. I--I--it's my understanding that there may be a 
portion of the bond that goes toward some kind of fund that the 
court has.
    Mr. Gohmert. That--I'm blown away. As a former district 
judge, I--I just can't believe--so, what you're saying is some 
bondsman who wants to lower a bond can call a judge, and if the 
judge does not lower the bond where an individual can get out, 
the judge--the judge gets nothing for his funding. However, if 
he lowers the bond to a rate that the bondsman would make, then 
the judge gets a cut of----
    Mr. Jordan. Well, I'm not saying that. I think that that--
on forfeiture of that bond, a portion of it may go toward the 
court. That's my understanding.
    Mr. Gohmert. Well, that's--that's--I'm astounded over it. 
That's incredible that a court would get a cut of the action of 
a bondsman if he lowers the bond to where the bond can be made. 
I also was concerned about, in State law, it says that--section 
761 requires the arrestee be released if the charges have not 
been sufficiently substantiated after 60 days. In Texas we have 
an 180-day rule, and I--there were times when my hands were 
tied, and I had to release somebody if charges were not 
properly filed within 180 days. Sixty days, sometimes you can't 
even get the lab reports back in by that time. Can you?
    Mr. Jordan. Well, Congressman, that's a very good point in 
that we have had tremendous problems since the storm because of 
the absence of a lab. And it has created a situation where a 
number of individuals had to be released because there were no 
lab reports.
    Mr. Gohmert. Well, do you know if anybody is attempting to 
address that in the Louisiana Legislature?
    Mr. Jordan. Well, we are addressing it here in Orleans 
Parish. We are doing it through a combination of things. The 
agreement that Police Chief Riley and I have entered into 
recently would allow for field tests to be conducted on those 
drugs, and then a lab report would be conducted or the lab 
report would be furnished to the DA's office within 24 days 
after the arrest. And so far we--we had a number of field test 
cases; so, we hope that that would solve the problem along with 
the--the lab being in place in the next few days.
    Mr. Gohmert. My time is expired. Thank you very much.
    Mr. Jordan. Thank you.
    Mr. Scott. I'm sorry. It's just that I just introduced a 
bill in the Virginia General Assembly simply to do just that to 
allow the field tests to be sufficient for the preliminary 
hearing, but you need the real lab report for the trial.
    Mr. Jordan. Yes.
    Mr. Scott. And that's worked--I understand it's worked 
well.
    Mr. Jordan. That's excellent well.
    Mr. Scott. And, Mr. Jordan, let me just clarify.
    Mr. Jordan. Okay.
    Mr. Scott. You said that the court gets some of the bond 
released. That's the court. That's not the judge. Is that 
right?
    Mr. Jordan. That's--that's the court, as I----
    Mr. Scott. The judge doesn't----
    Mr. Jordan. That's not----
    Mr. Scott. It doesn't go in the judge's pocket.
    Mr. Jordan. It's not in the judge's pocket.
    Mr. Scott. I know in some cases they had, in the traffic 
crime in small cities, the judge would actually get a cut in 
the crimes; which I think was thrown out as being a violation 
of due process, when the judge had a personal financial 
interest in the outcome of the case. But that's not what you're 
talking about?
    Mr. Jordan. No, that's not.
    Mr. Scott. Forbes, you had another question?
    Mr. Forbes. Chief, once again, I want to thank you. Your--
your testimony is very good about the morale of your officers, 
and you know those officers better than anybody. We understand 
the morale. But I have one question that wasn't in your 
testimony. Even prior to Katrina, in New Orleans, only 7 
percent of those arrested by your officers--out in the street, 
risking their lives doing stuff they had to do--were eventually 
sentenced to prison. In fact, the Metropolitan Crime Commission 
actually stated that criminal court judges in New Orleans were 
significantly less likely than judges elsewhere to send people, 
even violent offenders, to prison. You know your officers. 
Ninety-three percent of the people that are arrested aren't 
going. Do you have any impact on them? Do you hear any feedback 
from them?
    Chief Riley. Well, absolutely. I mean, you become 
demoralized when you arrest a person, especially a violent 
offender, and that violent offender has enough confidence to 
say to you that, ``I'll see you out next week. I'll be out next 
week,'' and then you see them out next week. So, there 
certainly has been and there are a lot of things that are being 
done to correct the revolving door. But there certainly has 
been a revolving door in our local system, and it certainly has 
been a problem for--not recently. This has been going on for 20 
years. And that's why we have been in the top 10 in violent 
crime for the last 20-25 years.
    Mr. Forbes. But, Chief, that's why your testimony is so 
important because you pointed out there were problems before, 
and there are problems after.
    You--we want to correct all of them.
    Chief Riley. Yes.
    Mr. Forbes. And we thank you for--on that revolving door, 
where are the problems? What do we need to do to--to help stop 
that revolving door?
    Chief Riley. Well, I think that, first of all, Mr. Jordan 
and I, we've taken some steps with the 10-point plan. I don't 
know if you-all have a copy? That's something you probably need 
to get if you----
    Mr. Forbes. I don't. So, I don't know if you have one, if 
you could----
    Mr. Jordan. I have a copy of it.
    Chief Riley. So, that will--that will certainly help, the 
10-point plan that was in place. The 701 release rule, 
certainly hindered this department----
    Mr. Forbes. Just for the record, people, that's the 60-day 
rule.
    Chief Riley. Yes, that's the 60-day rule. You know, 180 
days would be great, and it's something that we may need to 
look into. But that certainly has hindered us. Not--not having 
swift trials have been a problem as well. Our police officers 
had to be better trained as it relates to report writing and 
things like that. So across the board, I think Katrina, in the 
aftermath, has revealed a lot of deficiencies; a lot of 
deficiencies that we are now working on. But, again, we do need 
assistance from the Federal Government to get some of those 
things done.
    Mr. Forbes. Chief, thank you.
    Chief Riley. You're welcome.
    Mr. Forbes. Thank you all.
    Mr. Jordan. Thank you.
    Mr. Scott. Some of--some of these do not require funding. 
Some do. Is that what I understand?
    Chief Riley. Correct.
    Mr. Jordan. Yes.
    Mr. Scott. Any other questions? Thank you very much. We 
appreciate your testimony.
    Mr. Jordan. Thank you.
    Chief Riley. Thank you.
    Mr. Scott. Thank you. Our next witnesses will be composed 
of the--we just had the State law enforcement officials. Now 
we're going to listen to the Federal--local law enforcement; 
now we're going to hear from the Federal law enforcement. And 
our witnesses will be: Beginning with Jim Letten, the U.S. 
Attorney for the Eastern District of Louisiana. Prior to his 
current post, he served as Chief of the U.S. Department of 
Justice's Organized Crime and Racketeering Strike Force. He's a 
native of New Orleans and has graduated from Tulane Law School.
    Next we have James Bernazzani.
    Mr. Bernazzani. Correct.
    Mr. Scott. Thank you. He is Special Agent in Charge--
Special Agent in Charge of New Orleans Division of the FBI. At 
the time of his appointment, he was Special Agent in Charge of 
the New Orleans Division. He had acted as Deputy Assistant 
Director for International Terrorism Operations for the FBI. He 
holds a Master's Degree from Harvard University.
    Mr. David Harper, Special Agent in Charge of the New 
Orleans Field Division of the Bureau of Alcohol, Tobacco, 
Firearms, and Explosives. Prior to his employment with the ATF, 
he was Special Agent for the State Department of Diplomatic 
Security Service and a U.S. Army officer. He holds a Bachelor's 
Degree from the University of Mississippi.
    William James Renton, Special Agent in Charge of New 
Orleans Field Division of the Drug Enforcement Administration. 
Prior to that, he was the law enforcement--he had his law 
enforcement career as a police cadet in the Jefferson Parish 
Sheriff's Office.
    He holds a Bachelor's Degree from Loyola University.
    And Jacques Thibodeaux, Acting Chief Deputy, United States 
Marshal, Eastern District of Louisiana. In addition to that 
post, he also is a military police colonel in the Louisiana 
National Guard. And that--John Thibodeaux, he has spent--
military police in Louisiana National Guard. Spent 4 months on 
active duty after Katrina with the National Guard as part of 
the recovery in New Orleans.
    Mr. Scott. And we begin with Mr. Letten.

TESTIMONY OF THE HONORABLE JIM LETTEN, UNITED STATES ATTORNEY, 
                 EASTERN DISTRICT OF LOUISIANA

    Mr. Letten. Thank you, sir. Good morning, Chairman Scott 
and Members of the House Subcommittee. I am Jim Letten, United 
States Attorney for the Eastern District of Louisiana, and it 
is a distinct honor for me to appear before you, representing 
the outstanding men and women of our U.S. Attorney's Office and 
Federal law enforcement. I'm proud to serve our citizens with 
these men you see before you and with the leadership and 
professionals of the NOPD, with which we have had a long-
standing partnership. I might add that serving as the U.S. 
Attorney in this district is a unique personal honor for me, a 
New Orleanian born and raised, with roots on both sides of my 
family running many generations deep. In fact, our family's law 
enforcement commitment to this area includes my great-
grandfather, who in the summer of 1898 gave his life in the 
line of duty as a New Orleans Police Officer, while 
apprehending a wanted violent criminal just about four blocks 
from where I now work.
    It's worth noting that prior to Hurricane Katrina, the city 
of New Orleans itself grappled with one of the highest per-
capita homicide rates in the U.S. In fact, just a few months 
before the hurricane, at the Mayor's Crime Summit Breakfast, I 
warned, and I continue to warn today, that the viability and 
even survival of this city will depend on the ability to 
control and reduce violent crime, to deter public corruption--
which through years of endemic fraud, distortion, and kickback 
schemes has contributed to an enormous population business and 
talent drain--and provide a viable public education system, 
especially for our poor, and to diversify the deteriorating 
economy of the city.
    As this city re-populated in earnest, particularly in the 
spring of 2006, our office--with our partners in FBI, DEA, ATF, 
and the Marshals Service and NOPD--aggressively pursued Project 
Safe Neighborhoods, a top priority of this administration. 
Indeed it is this very population return, including some of the 
criminal element, under severely adverse conditions that have 
resulted in 161 homicides alone in Orleans for 2006. As of 
today, there sadly have been 61 homicides in Orleans Parish 
since January 1.
    We in the Federal system in attempting to address the 
violent crime problem, place particular emphasis on attacking 
drug- and firearm-related crime. During the last two decades, 
the drug trade in this city has largely been limited to low-
level street trade, primarily engaged in by young men from poor 
areas, who either alone or in very loosely knit non-structured 
groups or gangs, sell drugs and violently engage one another 
and settle disputes with firearms.
    In fact, New Orleans does not suffer a traditional gang 
problem. In truth, however, the loosely knit criminal element 
of New Orleans is more difficult to identify, penetrate, 
infiltrate and control than structured organized gangs would 
be. What is most important for us to acknowledge is that the 
vast majority of these homicides and other violent offenses 
must be handled by the local criminal justice system, as they 
do not fall within Federal jurisdiction. We, nevertheless, have 
seen opportunities to act boldly where our Federal resources 
can be brought to bear, and we have and will continue to do 
just that. Despite our limited jurisdiction, we have made 
positive strides on the Federal level.
    But our crime problem here is a result of an extremely 
complex landscape and returning drug dealers and violent 
criminals who have chosen to return to New Orleans, in order to 
exploit dysfunction in the local justice system, including a 
now notorious revolving door. This revolving door alone has 
likely attracted an inordinately high number of offenders in 
relation to the relatively small population of the city, who if 
arrested on local charges, often anticipate being released 
either from prison or their bond obligations within 60 days if 
formal charges are not filed against them in that period. Some 
3,000 of these Rule 701 releases occurred in 2006 alone. That's 
unacceptable.
    Further, despite a committed reform-minded Police 
Superintendent, which we have the pleasure of working with, 
NOPD still suffers many challenges which it has to overcome. In 
calendar year 2006, our office, the U.S. Attorney's Office, 
charged 358 individuals with drug, violent crime, firearm, and 
significant immigration offenses, producing 32 more indictments 
in 2005 despite the fact that only half the population had 
returned. In 2006, our immigration charges tripled over 2005. 
In 2006, our violent crime prosecutions increased by 32 percent 
over the previous year with a 98 percent conviction rate. 
Similar data shows a 100 percent conviction rate of immigration 
offenses and a 10.3 percent increase in drug cases filed with a 
93.5 percent conviction rate.
    In total, between January 1, 2006, and today, we have 
indicted no less than 302 individuals on violent crimes and 
firearms related felonies with an additional 515 on drug 
felonies as well. Many of those cases have been made by the 
fine men and women of NOPD.
    But statistics do not even begin to tell the positive story 
of Federal law enforcement. The Attorney General himself has 
visited this city no less than six times since Hurricane 
Katrina; and during September allocated additional Federal 
resources to the area, including additional Federal agents to 
FBI, ATF, U.S. Marshals Service, and additional Assistant 
United States Attorneys. Those additional prosecutors include 
six specially detailed prosecutors, who are being reauthorized 
to me through the end of fiscal year 2007, as well as nine 
Assistant U.S. Attorneys who have been hired to serve on our 
staff for 14-month terms.
    Additional ATF agents have been assigned to supplement it's 
very successful Violent Crime Impact Team, and it re-launched 
its successful 24-hour ATF gun hotline. The FBI's recently 
launched violent crime intelligence initiative continues to 
develop, maintain, and distribute information regarding both 
violent offenders for use by all agencies in connecting our 
efforts against these dangerous individuals.
    DEA, ATF, and NOPD are involved in a Targeted Offenders 
Project, in order to screen previous NOPD murder, armed 
robbery, and firearm arrests to identify those eligible for 
Federal prosecutions. And the U.S. Marshals have supported the 
highly successful Crescent Star Fugitive Task Force.
    Last September's announcement of additional resources from 
the Attorney General also provided funding for a police 
athletic league, additional Weed and Seed sites and safe havens 
and reestablishment and refunding of Boys and Girls Clubs of 
America destroyed by the storm. This January, just weeks ago, 
we wrapped up yet again Federal efforts against violent 
offenders, to take pressure off the District Attorney's Office 
and the local criminal justice system by Federally charging 
more violent crime and drug offenders, particularly in urban 
high-crime spots around the city. That hinged on small teams of 
FBI, DEA, and ATF Special Agents, operating in support of their 
partners, NOPD, in the field to identify cases subject to 
Federal jurisdiction. Since the first week of February, this 
initiative has produced some 55 additional individuals arrested 
for Federal drug distribution and firearm charges, 42 of whom 
have been indicted and all but two who remain in custody, 
detained. Also, the Attorney General provided additional ATF 
agents to supplement those permanently assigned to the New 
Orleans Violent Crime Impact team. And ATF has also obtained 
critical new ballistics testing equipment known as NIBIN, to 
replace the equipment so important to NOPD's forensic ballistic 
identification efforts.
    Nine additional FBI special agents have been assigned to 
New Orleans to supplement those currently assigned to its 
wonderful Violent Gang Safe Streets Task Force; and specially 
qualified FBI agents around the U.S. were specifically 
recruited and assigned to assist in the investigation of recent 
homicides and cold cases to determine which could be charged 
under Federal law.
    Special agents of the DEA were temporarily provided with 
authority to investigate and enforce all criminal laws in 
addition to Federal drug laws in order to assist NOPD more 
effectively. The Attorney General has also provided funding for 
our own U.S. Attorney's Office, and this is important, to 
acquire two highly competent professionals to augment our 
already well-established, highly efficient Federal victim 
witness team to provide for protection, relocation, counseling, 
and other assistance to victims and witnesses of crimes, not 
only for the U.S. Attorney's Office, but more importantly for 
local criminal justice such as the DA's Office.
    And the Attorney General has committed up to $3 million in 
Federal funds to help establish and build a family justice 
center to address victims of domestic sexual violence in the 
city and surrounding parishes.
    In keeping with our extraordinary role, which you can see 
has gone far beyond enforcement, in November of 2005, the U.S. 
Attorney's Office is one of the leaders in constructing what is 
now called the Southeast Louisiana Criminal Justice Recovery 
Task Force. As a result of this task force last May, BJA 
distributed nearly $60 million to Louisiana law enforcement 
agencies, some $30 million of which went to needy agencies in 
the New Orleans area.
    Just one of the solutions in which we in the Department of 
Justice have helped, along with our partners in local law 
enforcement, include the department's allocation of critical 
resources to help secure the employment of critically needed 
crime lab technicians to support NOPD. To that, and through our 
efforts and those of many of our important partners, a contract 
was recently secured between the city and the UNO Foundation 
which, through an initial 3-year lease, will now provide NOPD 
with its own crime lab, and they're moving in as we speak.
    We intend to replicate this year's anti-gang funding from 
the Department of Justice in the Public Safety Housing 
Initiative, PHSI, which in 2006 helped our local partners make 
over 800 arrests of individuals threatening the highly 
populated west bank area. And as we move toward the summer, we 
are identifying the need for additional safe havens for our 
children built on Weed and Seed models. And with that worthy 
initiative, we have formed and are moving ahead with a broad 
unprecedented coalition of agencies from Federal, local, and 
State government, as well as the private sector and faith-based 
groups, with the goal of providing education, jobs, activities, 
and programs for thousands of at-risk youths.
    Because failure is not an option we must and will continue 
to fight relentlessly for public safety; for only then, with 
true commitment, integrity, vision, and patience, will we 
prevail.
    I thank you so much for your support, for what you have 
done and continue to do for us, for being here, for caring 
about this wonderful city. I also invite, if you would give me 
the opportunity down the road, when I have a chance to, to 
straighten the record a little bit relative to the Alton Hooks 
case because I can talk about the facts of that case, that 
evolution. Thank you.
    [The prepared statement of Mr. Letten follows:]
             Prepared Statement of the Honorable Jim Letten

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Mr. Bernazzani.

  TESTIMONY OF JAMES BERNAZZANI, SPECIAL AGENT IN CHARGE, NEW 
                     ORLEANS--FBI DIVISION

    Mr. Bernazzani. Good afternoon. Welcome to New Orleans. 
Katrina did not create the current landscape facing New 
Orleans. Katrina changed it. Notwithstanding the vast majority 
of law-abiding citizens in this city, New Orleans was a violent 
city before the storm, and it's a violent city after the storm. 
Based upon a generation of aspects of failures and dysfunction 
of State institutions, a segment of society has been created 
which is disenfranchised. They have no opportunity. They are 
products of an educational system that didn't educate. They are 
products of a State judicial system that failed to mete out 
consequences for criminal activity. They are products of levels 
of corruption that drove business away from this area, thus 
denying the youth meaningful jobs and the city a tax stream for 
programs. And when you add crack cocaine and the AK-47, you 
have got New Orleans today.
    Not withstanding the challenges facing State and local law 
enforcement and the judiciary, Federal Government has stepped 
up to help, to support. It's important to understand that this 
is not the federalization of New Orleans. NOPD is the lead law 
enforcement department for public safety in the area.
    The FBI with our law enforcement partners are stepping up 
to try to build confidence in the community, to cooperate, to 
have witnesses come forward. And what we are trying to do where 
we can is find the Federal hook. And where we have agreement 
between NOPD, FBI, DEA, ATF, and Marshals Service, we will 
bring these individuals to a very aggressive United States 
Attorney's Office, who understand the rules of law and 
understand what quality of life means. And there is no 
revolving door.
    And we are beginning to build traction. We have a very 
strong outreach program with the community with NOPD and FBI. 
I've given you some of these cards that we'll be passing out. 
It instructs people how to report information anonymously. 
Prior to this effort, the FBI received a tip relative to public 
safety once every 2 weeks. Now we're getting a half-a-dozen a 
day, and we're moving forward.
    I brought in nine homicide investigators from around the 
country to work in support of the NOPD homicide, to help plug 
holes in those cases; and, again, when we find the Federal 
hook, we'll bring them to the Federal system, a plus to agents 
in the eight districts supporting NOPD, again performing 
nontraditional roles, working, riding along with NOPD. And, 
again, where we can find that Federal hook, we'll bring them 
down to the United States Attorney's Office. And this effort 
will continue.
    We have also set up a Multi-agency Violent Crime 
Intelligence Center, where we integrate the disparate pieces of 
intelligence designed to tell us what's going on, who's in 
town, what they're doing; and by extension who's out of town, 
and intent on returning, and what they're going to do. It is 
very interesting what we see relative to what Katrina did in 
changing the threat landscape, which allows us to understand 
and move our finite resources, whether it be FBI, DEA, ATF, 
NOPD, and the like. And this will continue.
    So the fundamental efforts of the FBI in violent crime is 
that (1) from an operational operative--homicides and day-to-
day street work; (2) from an intelligence optic--building that 
mosaic, understanding the threat landscape that will drive 
operations, identifying the baddest of the bad and going after 
those individuals and getting them off the streets, and 
hopefully getting them in the Federal system. And the third 
thing is outreach. No matter what we do here--we can make 
arrests until the cows come home; but if there's 15 kids in 
line willing to take that kid's place, who we've taken off the 
streets, then we're going to be having the same conversation 5 
years from now.
    I've passed out cards to build what's known as the 
strategic peace. Everybody focuses on the tactical peace, law 
enforcement; whether it's the arrests, prosecution, conviction, 
or incarceration. That's all fine and good. We can lop the head 
off of this monster. But we need to get to those individuals 8-
, 9-, 10-, 11-, 12-year-old kids, who may be involved in 
nonviolent criminal activity, breaking and entering, stealing a 
car. We need to get to those individuals and provide some sort 
of mentoring, some sort of opportunity so they won't graduate 
to the 17-year-old shooter. And that's what we're interested 
in. Thank you very much.
    Mr. Scott. Thank you.
    Mr. Harper.

    TESTIMONY OF DAVID HARPER, SPECIAL AGENT IN CHARGE, NEW 
                  ORLEANS--ATF FIELD DIVISION

    Mr. Harper. Thank you, Chairman Scott, Congressman Forbes, 
Congressman Gohmert, and Members of the House Subcommittee. We 
appreciate the opportunity to appear before you today and share 
some of the good work and contributions being made by the men 
and women of the Bureau of Alcohol, Tobacco, Firearms and 
Explosives.
    As you're aware, violent crime in New Orleans was an 
increasing concern well before Hurricane Katrina. Just months 
before the storm, the Department of Justice and ATF established 
a Violent Crime Impact Team, or VCIT, in New Orleans. Since 
August of 2006, the Department of Justice has funded detailed 
assignment of between four and six additional ATF special 
agents to the New Orleans area.
    We believe that ATF's contribution to the long-term 
solution must necessarily include focusing our resources on 
that relatively small group of violent recidivists that commit 
a disproportionate amount of violent crime. We've begun 
targeting that group using a four-point approach.
    First: Establishing an ATF/NOPD team to identify and target 
the most violent repeat offenders who have benefited the most 
from a disrupted local criminal justice system. To date, 71 
individuals have been identified and investigations are under 
way.
    Second: Preventing the diversion of firearms from the 
legitimate retail commerce into the crime gun market through 
investigation of thefts from Federal firearms licensees and 
illegal firearms trafficking.
    Third: Reestablishing the National Integrated Ballistic 
Information Network, the NIBIN System, and the New Orleans 
Police Department crime lab and dedicating four special agents 
to investigate cold case serial homicides and assaults that are 
linked together through the use of that technology.
    Fourth: Actively adopting firearms cases from our Federal, 
State, and local enforcement partners for Federal prosecution 
wherever appropriate.
    Since the ATF VCIT was augmented by the Justice Department 
in August of 2006, cases against 108 defendants have been 
forwarded to Mr. Letten's office for Federal prosecution by the 
combined efforts of the New Orleans Field Division.
    Gentlemen, I appreciate the opportunity to testify today 
and to share our progress with you; but we're well aware that 
there's--there's much work left to do. In closing, I'd like to 
specifically acknowledge the good work being done by Chief 
Riley and the men and women of the New Orleans Police 
Department despite the enormous challenges that they face. And 
I also look forward to answering your questions. Thank you.
    Mr. Scott. Thank you.
    [The prepared statement of Mr. Harper follows:]
                   Prepared Statement of David Harper

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Mr. Renton.

   TESTIMONY OF WILLIAM JAMES RENTON, JR., SPECIAL AGENT IN 
            CHARGE, NEW ORLEANS--DEA FIELD DIVISION

    Mr. Renton. Thank you, Chairman Scott, Mr. Forbes, and Mr. 
Gohmert. It's a pleasure to be here before you and the Members 
of the Committee and to have an opportunity to verbalize what 
the DEA's contribution has been to the post-Katrina recovery of 
the city of New Orleans.
    Immediately after the storm, DEA Special Agents began--our 
entire office, 56 officers, became involved in NOPD, our 
partners of longstanding, in helping to patrol the city's 
streets of New Orleans and maintain law and order.
    Since November or December 19--of 2005, after the NOPD was 
reconstituted somewhat, we assumed our more traditional roles. 
However we focused continually on the city and the violent drug 
traffickers that were affecting availability as well as the 
quality of life in the city.
    In January, we started a new program, which, at the request 
of the Attorney General, we were provided with additional 
authority to enforce all the laws of--Federal laws in the city 
of New Orleans and the metropolitan area. As you know, DEA is a 
single-mission agency, that's only entitled to--authorized to 
enforce title 21 of the United States Code, which specifically 
refers to drug trafficking. DEA was one of the first agencies 
to implement the new program that we started on January 31 of 
this year. We embedded with New Orleans Police Department 
several of our special agents in the CAT Team, which is the 
Crime Abatement Team, which is a new strategy that Chief Riley 
initiated to try to reduce violent crimes in hot spots.
    We also embedded Federal officers with the New Orleans 
Police Department's Special Operation Division, or SWAT team, 
to handle the most violent areas and hot spots in the city 
that--where crime was--was breeding. We also additionally sent 
people, three people, DEA special agents, to participate with 
major narcotics for the city of New Orleans, working in areas 
to try and quickly take drug dealers off the streets where they 
were selling drugs in the open market.
    Also DEA assisted the Sixth Police District in New Orleans, 
Central City, which is historically the most violent crime-
ridden district in the city. We sent four Special Agents and 
ten Task Force Officers to that area to try and help remediate 
some of the crime situations. We've had a number of successes, 
and DEA agents have been on the scene or participated in 
effecting arrests of individuals, forty of the Federal arrests 
that have been made to date and prosecuted in Federal court.
    Also, we provided training to the New Orleans Police 
Department. Immediately after the storm, Chief Riley asked if 
we could provide leadership training, which we did, to every 
Sergeant/Lieutenant in the New Orleans Police Department. We 
did this in three separate sessions, with over 100 officers at 
each session. We brought in mental health professionals, law 
enforcement professionals, and assisted the NOPD with 
leadership training under the division that Chief Riley had.
    Later we had been involved in some intelligence 
initiatives, whereby we trained some NOPD officers as well as 
other law enforcement officers in the area of intelligence 
techniques. And we've entered into a partnership with the New 
Orleans Police and ATF to review all homicide arrests since the 
storm, as well as any arrests where a defendant was arrested 
with a weapon and/or drugs, to try and see if there's a Federal 
statute which can be prosecuted in court.
    Ladies and gentlemen, I appreciate your attention, and I'd 
like to thank you for coming down here and looking at what the 
Federal Government's response has been to crime. We have 
certainly responded to the situation. Like Mr. Letten, as a 
local native who grew up in the suburbs of this great city, I 
was shocked to see the effects of Hurricane Katrina. I was 
pleased, very pleased, to be able to help in the response. DEA 
is fully committed to the effort here and will continue to be 
so in the near future.
    Mr. Scott. Thank you.
    Mr. Thibodeaux.

  TESTIMONY OF JACQUES THIBODEAUX, ACTING CHIEF DEPUTY, U.S. 
             MARSHAL, EASTERN DISTRICT OF LOUISIANA

    Mr. Thibodeaux. Chairman Scott, Members of the Subcommittee 
on Crime. First, as a resident born and raised here in 
Louisiana, I'd like to take the opportunity to personally thank 
you for the efforts as--as we progress in the future. The----
    Mr. Scott. Is your mike on? There's a little green light.
    Mr. Thibodeaux. The U.S. Marshals Service Crescent Star 
Fugitive Task Force was created in May 1999. Since that date, 
our task force has cleared over 3500 local, State, and Federal 
warrants between its inception and the day Katrina hit.
    In the days immediately after Katrina, the U.S. Marshals 
responded by sending Deputy Marshals to the disaster zone, with 
the primary goal of assisting local and State law enforcement. 
The key partnership was with Louisiana Probation and Parole, 
which resulted in the location of more than 2,000 State 
probation and parole fugitives whose whereabouts were unknown 
in the immediate aftermath of Katrina. Many of these offenders 
were the regions worst sexual predators.
    Although our task force was, in effect, shut down for 4 
months, as local and State officers returned to their 
departments to conduct essential local and State law 
enforcement, the recovery continued. Our first step started 
with two of our core missions, judicial security and fugitive 
apprehension. The first partnership was a product of our 
judicial security mission. As we returned over 300 Federal 
prisoners back to five local contract jails, bringing much 
needed Federal funds to devastated local law enforcement. In 
the words of one sheriff, ``We need every cent we can get right 
now. Our department lost everything.''
    The task force also reestablished fugitive investigation 
with the partnership between the New Orleans Police Department 
and the U.S. Marshal Service National Crime Information Center 
divisions. The U.S. Marshals Service conducted initial 
verification of NOPD warrants in the aftermath of Katrina. The 
NOPD NCIC Division also co-located in our task force work space 
for 13 months after the storm and had some Federal local 
cooperation in the verification of fugitive warrants.
    As we continued to recover, our next partnership began in 
October of 2006 with the establishment of the U.S. Attorney 
General's anti-crime initiative in New Orleans. We have four 
additional DUI U.S. Marshals Service personnel to supplement 
our task force, bringing our total task force number to eight 
full-time criminal investigators. Our task force is actively 
targeting fugitives in all 13 parishes in Eastern Louisiana and 
tracking them as they cross parish, State, and national 
boundaries.
    In prioritizing cases for apprehension, specialized support 
has been provided by the Marshals Service Technical Operations 
Group, Financial Surveillance Unit, Criminal Information 
Branch, Internal Investigation Branch, and more important the 
Sexual Offenders Investigation Branch, as well as all resources 
from a national network of U.S. Marshals Service regional- and 
district-based task forces. These units have assisted in the 
apprehension of numerous high-profile fugitives.
    As a result of these initiatives, the Marshals Service 
strengthened its relationship with all law enforcement in the 
region, locating some of their most wanted fugitives, including 
20 of the NOPD's most top-wanted fugitives and two fugitive 
cases that were profiled on America's Most Wanted television 
program. Since the inception of the Attorney General's 
Initiative, we have made 253 physical arrests and cleared a 
total of 316 warrants. Eleven of these were wanted for murder, 
17 for armed robbery, 11 for rape, 10 for escape, and 32 sexual 
offenses. The U.S. Marshals Service is committed to the 
recovery of this area. As we are closing in on our task force's 
5,000th arrest, and we continue to protect the judicial system, 
the large influx of Federal arrests, our message is clear: We 
are in this effort for the duration. I look forward to 
answering your questions. And thank you again for your efforts 
here in Louisiana.
    Mr. Scott. Thank you very much. Let me ask a few questions.
    Mr. Harper, you mentioned that you had identified 71 
individuals who are committing a disproportionate number of 
crimes, and you focused on them. Can you say a little bit about 
what the focus was, and tell us how it made a difference?
    Mr. Harper. It's a--relatively new program we are currently 
focusing on. We have accomplished the first goal as identifying 
these people because we were obviously aware that there were a 
number of people who had been through the revolving door and 
had not been incarcerated; so, we've identified those 
individuals. We're looking at the cases where they have been 
arrested to see where we may be able to use what they've 
already done to conduct historical investigations, conspiracy 
investigations. Or if that's not the case, we may just target 
those folks as repeat offenders and--for proactive 
investigation. And we're expecting our first few indictments in 
the very near future.
    Mr. Scott. You identified them. They knew they were 
identified?
    Mr. Harper. No, sir. This is a joint project with the New 
Orleans Police Department, and their--original identification 
of some of these individuals was through data-mining of the 
existing system that the Police Department had.
    Mr. Scott. Mr. Letten, you mentioned the Gang Safe Streets 
Task Force and Weed and Seed model. Can you elaborate on that?
    Mr. Letten. Yes, sir. The Safe Streets Task Force is, 
actually, an important component of what we know as Weed and 
Seed.
    The Weed and Seed model is something that actually has been 
in effect for a long time. We've continued it.
    We're actually rebuilding our three Weed and Seed sites and 
trying to expand Weed-and-Seed-like coverage throughout the 
city post-Katrina. The Weed and Seed--the two components of 
Weed and Seed are the weeding, which of course is the law 
enforcement, increased law enforcement/presence/activity, 
arrests and prosecutions in those high-crime areas that are 
designated as Weed and Seed and recognized as funded Weed and 
Seed areas. To that end, we've gotten very good funding from 
the Department of Justice CCDO, and we've applied that to our 
Weed and Seed sites.
    The seeding portion, of course, transcends that. The 
seeding portion is the building of safe havens for our children 
and actually social services and activities for our children 
and residents in those areas to actually give them alternatives 
to crime.
    Mr. Scott. And what kind of Federal resources are going 
into the seeding part?
    Mr. Letten. Actually we are waiting right now. The 
Department of Justice is presently getting ready to provide for 
us funding for our Weed and Seed packages. Haven't seen that 
2007 funding yet, but we expect the commitment from this 
Attorney General and from CCDO, the Community Capacity 
Development Office, has been absolutely tremendous. And, so, we 
are--we're anticipating from Mr. Greenhouse, and certainly from 
the--from the department, that funding shortly.
    Mr. Scott. The District Attorney mentioned Witness 
Protection as an important issue. Do you have the same problem, 
and what are we doing about it?
    Mr. Letten. Actually, there's two--that's an interesting 
concept because that's really what most local prosecutors refer 
to generically as witness protection is what's really more like 
victim witness services. When we think of witness protection, 
we think of the U.S. Marshals Service, a very, very effective 
witness protection program where individuals who testify 
against let's say organizations, et cetera, who are at high 
risk and who fit into these categories, which are very few, are 
relocated and given new identities and things like that.
    Usually with individuals in urban situations, who are 
witnesses to murders and such, simply having fundamental victim 
witness services; that is, professionals who understand 
victims' rights, understand their needs, who know how to apply 
the funding--which doesn't need to be a whole lot--to those 
needs, knowing how to relocate those individuals and give them 
faith in the system, advise them of the proceedings and have 
those people safe and ready to testify; and then give them 
whatever short-term relocation or even local relocation they 
may need thereafter. That is what local prosecutors need, and 
that's the bulk of what we use. We've got Donna Duplantier and 
Lisa Stewart are two of the best victim witness professionals 
that I can ever imagine. They've been extremely effective in 
our office in bringing to the table the resources that we have, 
which are more than adequate in the Department of Justice, to 
help with our victims. We--the Attorney General, though, has 
seen the need for help on the local side, and has actually 
allowed us--which I'm grateful for--to hire, which we're doing 
right now, two specialists that are primarily going to be used 
to help do those same things to or for local victims, 
particularly at the DA's office.
    Mr. Scott. Can you say a word about the crime lab?
    Mr. Letten. Yes, sir. NOPD's crime lab was literally washed 
out. It existed in the basement of their headquarters. NOPD, 
thanks to the generosity, teamwork, and kindness of Jefferson 
Parish Sheriff's Office, St. Tammany Parish Sheriff's Office, 
State Police, and the Federal agencies sitting here, I will 
tell you, has been able to cobble solutions where their crime 
lab needs, in terms of serology, ballistics, blood analysis, 
DNA analysis, et cetera, are met and drug analysis.
    However, that's not an adequate solution because if--they 
don't have one-stop shopping. Our office and--and the 
Department of Justice, Steve Parent, who is now the acting 
EOUSA Director. I would daily communicate to the Attorney 
General and the DAG and their staff, including Will Moschella 
and those individuals who work with us, what we're doing down 
here, the needs that have been identified. One of the needs we 
identified to them was a desperate need to get NOPD some crime 
lab services locally and on site. They came up with funding in 
the Department of Justice to pay for an initial half million 
dollar, initially, I believe; an initial, I guess, cadre of 
experts to actually serve those crime lab functions to pay for 
technicians.
    We are also working behind the scenes with some wonderful 
partners, New Orleans Police and Justice Foundation and others, 
who together, working together, and bringing the city together 
with the University of New Orleans Foundation actually we're 
able to leverage and facilitate, and with FEMA I might add and 
Chairman Powell's office who were so important in this, we 
brought them together and leveraged a lease, a 3-year lease 
that just occurred just a few weeks ago as NOPD, as Warren 
Riley, as Chief Riley mentioned, to move into some very good 
lab space there, which is being occupied, literally, as we 
speak, by NOPD. So Justice is paying for parts of the 
technicians, and FEMA and other sources are paying for the 
lease. And the bricks and mortar and hardware, we're hoping 
that will take us down the road until we can get them more 
steadily established.
    Mr. Scott. Thank you.
    Mr. Forbes. Thank you, Mr. Chairman. Once again, I want to 
thank you all for being here and the great job that you are 
doing for the city and for our county.
    Mr. Letten, you probably exemplify most of the people 
sitting in this room. You had a grandfather that had a 
commitment to this area in 1898. You love New Orleans and all 
that's going on here. But people here deserve systems that 
work, and they deserve to be able to walk on the streets and be 
safe. And that's not going to happen if we don't look at all 
the problems that were there post-Katrina and pre-Katrina.
    And I wish I had time to talk to all of the witnesses, but 
my 5 minutes I want to address it to you two. Mr. Letten, the 
first question is to you, and then to Agent Bernazzani.
    My questions for you are these: We heard earlier testimony 
about the need for playgrounds and for parks and for other 
kinds of things that would normally be funded in large part by 
tax revenues from businesses. In part of your testimony, you 
mentioned that you thought there was a huge population business 
talent drain based on public corruption. And I'm going to ask 
you, one, to address that; and, two, you heard Mr. Jordan 
mention the fact that I had my facts wrong on this case that 
was not prosecuted. They were facts that I had based on video 
of the individual that was----
    Mr. Letten. Yes, sir.
    Mr. Forbes [continuing]. Caught on tape. He said that there 
was a State conviction. Could you clarify that for me because I 
want to make sure I've got my facts right. And then the third 
part I'd like for you to address is this: when you gave your 
statistics, it seemed like about the lowest conviction rate you 
had was still 95 percent----
    Mr. Letten. Yes, sir.
    Mr. Forbes [continuing]. From 100 percent. The flip side is 
on the State level we're releasing that back out. It just 
doesn't seem like the criminal justice system can work when you 
only take in 7 percent of your arrests.
    Can you address those two?
    And then, Agent, if you could address this whole witness 
intimidation part of it because I don't understand how you get 
witnesses to testify if they know that 93 percent of the people 
arrested are going to, one, be back on the streets. But then 
they have these bond reduction hearings where the State is not 
being represented, and you put people back on the streets with 
some percentage of it going to the court or to the judges.
    So, if the two of you would address that. And we'll start 
with you, Mr. Letten.
    Mr. Letten. Yes, sir. If I can--I'll try to answer those 
three in sequence then.
    The first one is I've--you know, I've--I've dubbed--and I 
love this city. God. I've dubbed the phenomenon New Orleans 
experienced as the East Berlin syndrome. First of all, let me 
say: The problems we're experiencing now have been exacerbated 
by Katrina. They were not created by Katrina. We've been 
grappling with a lot of these issues for years.
    In the 1960 census--and I don't have the precise numbers--
New Orleans hit its zenith with probably 600,000 plus citizens; 
maybe 630,000. That number dwindled significantly. We lost a 
population so that, when we were going into Katrina, we 
probably had a little over 400,000, maybe 450,000, in net 
population. That's a significant population drain.
    More importantly, we lost large businesses that simply 
moved out of the city, large corporations. We diversified our 
economy. We lost talent. Our kids were graduating from schools 
and not returning to New Orleans. What was happening is the 
business phenomenon and I think with it the inability to 
attract and keep business was driven by the fear of corruption 
statewide and in the city. I, born and raised here, as a 
prosecutor for 27 years, I talk to people every day, and I've 
been approached by citizens. And we've done corruption cases--
Jan Maselli Mann, our first assistant is in the audience today, 
she just brought home a significant public corruption case of 
high-level city officials who were involved, and it's a 
kickback scheme involving energy contracts in the city.
    Over the years what happened is we were very tolerant of 
city and State officials basically sticking their hands out and 
requiring kickbacks for influence, for public contracts, and 
simply to do business. Businesses did not want to locate here. 
That contributed, then, that business exodus occurred, as job 
opportunities went out the window, our tax base, our revenue 
streams declined. We also did not provide, for many years, a 
decent public educational system. If you can afford private and 
parochial schools, great. But if you were the poor and you had 
to go to public schools, you had probably the worst public 
school system in the United States.
    So the economy was significantly deteriorating. And, again, 
it was driven primarily by corruption. Only recently do I 
believe--after the conviction of Edwin Edwards and after a 
number of very, very important convictions here in Orleans and 
in Jefferson Parish where we showed a functional zero tolerance 
for corruption--and we're still pursuing that--are we seeing 
attitudes--or we're seeing attitudes about the city beginning 
to change. But it's like turning an aircraft carrier around. 
It's something that we have to do. We have to provide a zero 
tolerance for corruption, that has gutted our city over many 
years.
    And, so, going into Katrina, we had a significantly reduced 
population. We had a significantly reduced tax and revenue 
base. We had a significantly reduced industry base. We were 
relying solely on the port--which was declining, sadly--and 
tourism, which was very, very fragile. And, so, that's the 
phenomenon that I was talking about.
    The second thing I believe you asked is the matter that I 
happen to know, is the prosecution of Alton Hooks. And I 
clarify the record not to be critical at all, but simply 
because I was involved in the decision to charge that case with 
my top prosecutors.
    What happened is, in 1994, there was a very celebrated, 
very widely known, case that involved a car wash surveillance 
camera that captured three individuals in, more or less, a 
shootout. It wasn't a bad case. I mean, you could see one of 
the individuals in particular firing an AK-47 at another 
individual, trying to kill them, clearly. One of the 
individuals armed was a guy named Alton Hooks. These 
individuals were identified. They were arrested by NOPD, 
brought to the DA's office. The DA's office took the case 
forward, was having great difficulty--I believe they charged 
them with--and I stand to be corrected--with attempted murder 
or aggravated battery, or some significant State offenses. They 
were having difficulty with one of the judges for reasons 
entering into evidence, actually authenticating that tape and 
getting the judge to accept it into evidence.
    We--at some point, I talked--we follow these cases because, 
wherever we saw the need and the ability to step in Federally, 
we do. I instructed my prosecutors, ``Find out which of those 
individuals are chargeable Federally.'' Alton Hooks, one of the 
primary shooters, it turned out, was a convicted felon. I gave 
them personally the go-ahead to use the evidence we got and 
seek and obtain an indictment against Hooks for being a 
convicted felon in possession of a firearm. It sure wasn't 
attempted murder, but it was a charge that we could make stick.
    In the meantime, as soon as the defense attorneys found out 
that we had brought the Federal case to bear, they wanted to 
negotiate. We had actually negotiated the possibility of a 
package deal, where he would plead guilty to not only the 
State--the Federal charges, 10 year charge, but also a 
significant amount of time on the State charges. For reasons 
I--I'm not going to necessarily get into at this point, that 
was not accepted by the DA's office at that time. So what we 
did was we proceeded. We went forward. It turns out that Alton 
Hooks, in May of 2005, before Katrina, pled guilty to the 
convicted felon in possession firearms charge, was later 
sentenced, is doing 10 years in Federal prison. After the 
Federal conviction, then, he wrapped up the State case by 
pleading guilty to a similar concurrent charge, I believe to--
maybe to the attempted murder, with concurrent time that 
followed the Federal time. So, that's the evolution there.
    Mr. Forbes. Let's switch real quick. My time is out, but I 
think it's important to get your testimony in about witness 
apathy.
    Mr. Bernazzani. I--I honestly believe that the revolving 
door--for some reason because of this bond-reduction program, 
where a judge can set bond and another judge can reduce it to 
personal recognizance has a debilitating effect on the 
community to cooperate. I honestly believe that NOPD and the 
District Attorney's office have been victimized by this program 
also. Because, Part 1, the violence continues because these 
violent guys that are let back on the street are violent people 
to begin with. Two, the community won't cooperate because if I 
finger you as that violent felon I know in a few days you're 
back on the streets and I become the next victim, and I don't 
want that. And when the community senses a failure in the State 
Judicial System--and the revolving door is a failure--a second 
judicial system kicks in: Street justice. And the killings 
beget the killings, beget the killings. We have a lot of 
revenge killings in New Orleans and it's spiraling. This bond-
reduction program has to stop. They need to implement a 
contradictory hearing program whereby if there's an effort to 
reduce a bond, especially with the violent individual, that the 
people can be represented by the District Attorney's Office to 
argue why that bond should not be reduced. It's statutory. It's 
statewide. It needs be to be done.
    Mr. Forbes. Thank you.
    Mr. Scott. Mr. Letten, what is the Federal procedure on 
that?
    Mr. Letten. On the bond? We--in the Federal system we are--
we don't have the--well, we don't have--we don't suffer a 
couple of those phenomena.
    Number 1, when an individual is arrested, let's say, by any 
one of these Federal agencies in the field, that individual 
is--is--what--the first thing that happens is that person is 
brought before a United States Magistrate Judge. Normally, that 
person is arrested with--a Federal complaint is filed either 
before or immediately after the arrest is made if it's made--if 
it's a reactive arrest.
    What happens is, our Federal prosecutors before--in open 
court--unless it's a sealed proceeding--but with a represented 
defendant in there--actually produces, under Federal law, 
produces evidence, where we believe it's appropriate, to 
demonstrate that an individual is either a flight risk or a 
danger to himself or others. There is a presumption under law 
that is created if that person is--is dealing drugs, dangerous 
drugs. And certainly, in the cases involving these drug 
distributors, we--we have an almost perfect success rate where 
an individual is distributing drugs or is a convicted felon 
possession or is using and carrying firearms during/in relation 
to a drug trafficking offense, we have a very good record where 
we can produce adequate evidence for those in--for those judges 
to hold that person and detain that person without--until 
that--charge is disposed of, unless additional evidence comes 
to light, until that--until the matter is over.
    Now, if the Court--if the Court or the defense attorney 
wants to reopen the matter and get a reduction, then there has 
to be an adversarial hearing. In State Court, the State 
Constitution, except in capital cases, requires that a bond be 
set. However, what happens is that very often, and less so now 
as a result of an evolution that occurred last year, it is 
possible for, let's say, a Magistrate in State Court, Criminal 
District Court, to set a $100,000 bond on an alleged shooter 
and to have a phone call made to a judge--and most of the 
judges are wonderful. They really are. But to have a phone call 
made to a judge who may or may not get the facts and who, with 
the stroke of a pen, can actually give that person recognizance 
bond, or lower it to some bond that is so minimal that the 
person rolls out. And that was a terrible revolving door for a 
very long time, which plagued the system and--and turned back 
out on the streets some very, very dangerous characters, as Jim 
talked about.
    Mr. Scott. Thank you.
    Mr. Gohmert.
    Mr. Gohmert. Thank you. And we do appreciate all of you 
being here as well. A number of things have been discussed. For 
one thing, Mr. Letten, you had mentioned earlier that one of 
the problems was years of, and among other things, endemic 
fraud and corruption.
    You talked about the extent of that: public officials 
sticking their hands out; one businessman telling me that he 
was amazed that, not only do you pay a fee, but then you pay 
the person that's collecting the fee; and one guy even was 
willing to take a check because everybody did it. That is 
pretty amazing. But the classic model, that they--in the past, 
have been violent crimes, murder, robbery, rape, burglary not 
necessarily violent, but those were only State crimes.
    Mr. Letten. Yes, sir.
    Mr. Gohmert. And I was amazed over the years that people 
who were running for Congress and saying, ``I'm going to go to 
Washington. I'm going to bring down the murders, the rapes, 
the--the burglaries.'' I'd hear the commercials, but that--
that's a State issue. Here you've been helping, and I know laws 
have been passed to give additional jurisdiction to the Federal 
authorities. But the classic model was the States take care of 
the most violent crimes, local crimes. And if there's a problem 
with corruption, that was the heart and soul of, you know years 
ago, the Federal prosecutions. Since that appears to have been 
a problem, have you been involved in investigating, pursuing 
corruption, particularly post-Katrina?
    Mr. Letten. Absolutely, sir. We have. Ad thanks once again, 
thanks to, I think, some of the best Federal agents anywhere; 
thanks to some of the best prosecutors anywhere, who have an 
unlimited capacity for work; and thanks to my Attorney General, 
who has given us additional resources in recognition of these 
incredible burdens we carry, we have been able to continue our 
efforts against corruption. Am I--am I saying that we don't 
have to be--you know, obviously, we have to be very careful 
about how we set our priorities and how we use our assets. Of 
course, we do. But we--our--we have not faltered in our zero 
tolerance for corruption cases. As I said, you know, this 
case--we--there was a case against some--some very well-placed 
City Hall officials and their associates who were involved in a 
very elaborate kickback scheme, who exploited a multi-
multimillion-dollar, probably well over a billion dollars, for 
energy savings for the City of New Orleans. That case was--you 
know, a lot of people thought that, after Katrina, that case 
would kind of go by the wayside and we'd have our hands full 
with other things. Well, not so. As I said, our first Assistant 
U. S. Attorney, who's also my Criminal Division Chief, actually 
went forward, indicted that case. We were prepared to go to 
trial in January, when those three individuals pled guilty. I 
believe there were a total of eight in that--and I could be 
wrong. It might be twelve--numerous individuals out of that 
same case, that corruption case, which was an involved kickback 
scheme, who pled guilty. The lead defendants name is Stan 
Barre. And that, I think, is emblematic of the type of 
dedication/commitment we have against corruption because we 
recognize that, unless we keep pressure up on individual who 
potentially wield the power, the corrupt power, to violate the 
law or influence business adversely, then we're going to lose 
the high ground. And we can't lose the high ground, and we 
won't. And so we are there. We're doing both, and we believe we 
have the assets right now to do that.
    Mr. Gohmert. Let me, on a different note: Mr. Renton, with 
the DEA, what do you find to be the principal source of drugs 
in this State, post-Katrina? Where are they coming from?
    Mr. Renton. Most--the majority--or 90 percent of the drugs 
here in the city are coming from the--unfortunately, Texas 
border, Mexican-Texas border, and is being transported. 
Historically, New Orleans has been a retail center; not a 
trans-shipment point, not a distribution point, but a retail 
center for drugs, where drugs are--it's the ultimate 
destination of where they are being used. Houston was 
historically the source city for New Orleans prior to Katrina. 
That trend has virtually continued.
    That has been exacerbated by the fact that a great number 
of New Orleans residents, who may or may not have been involved 
in the drug trade prior to Katrina, relocated to Houston closer 
to the source of the drugs, and have made connections in 
Houston whereby they were able to get drugs in larger 
quantities and at cheaper prices, which are eventually brought 
to New Orleans and distributed.
    Mr. Gohmert. I was afraid you were going to say that was 
the source. I know from Texas law enforcement, I was hearing, 
you know, for example, we made it harder to get Sudafed; so, 
now we're getting more drugs from Mexico to replace it. But I'm 
sorry to hear that they're making their way to New Orleans. Mr. 
Chairman, could I ask Mr. Bernazzani----
    Mr. Scott. Yes.
    Mr. Gohmert. I heard earlier that New Orleans isn't 
suffering from traditional gang problems. What is the gang 
problem here? Where is it coming from?
    Mr. Bernazzani. It's a misnomer. There really are no gangs 
here, but it's five letters. It's easy to say. Basically what 
it is is drug-distribution networks based upon neighborhood 
linkages. It's very horizontal in constructs. There isn't a 
hierarchy of leadership/membership/finance/communication to get 
into to a point where we can start a criteria investigation. 
But it's a different pre- and post-Katrina relative to these 
quote, unquote, gangs is that: The storm caused these 
individuals to be dislodged, as Billy was saying, over to 
Houston, Dallas, Memphis, and the like. And when they came back 
after they made their connections, they came back to a city 
that was about 60 percent relatively uninhabitable. And so they 
migrated to new areas, the least-affected areas. And that means 
the Garden District, Uptown, the affluent areas; on the other 
side, the Marigny, across the river into Algiers and the West 
Bank. So what we have right now is a population shift of a 
criminal element that's trying to establish its presence and 
longevity. And, unfortunately, as Jim Letten has been saying, 
this segment of society has a strange outlook relative to 
social contact, how one deals with one another. And the 
resolution of conflict is usually violence, is usually a 
weapon. And, so, we're going through this process right now. 
When you look at--you know, everybody talks about the 
population and the per capita. That's very difficult, as Chief 
Riley has told you, because it fluctuates. What people need to 
focus on is the relationship and the percentage between the 
criminal element and law-abiding citizens. Prior to the storm, 
there were 485,000 in the city. You had a segment that was a 
criminal element. Many of these individuals after the storm 
haven't been returning because of the slow progress of 
recovery. Many of the homes on the Lakefront, those are law-
abiding citizens out there. Those who are returning are the 
criminal element that's feeling the State Judicial system of 
Texas or Florida or Tennessee. And they want to come back here 
where they enjoy the revolving door. So, post-Katrina, when you 
look at the percentage of the criminal element vis-a-vis the 
total population of those law-abiding citizen, it's 
fundamentally different; and, unfortunately, it shifts toward 
the criminal element.
    Mr. Gohmert. Thank you.
    Mr. Letten. Can I correct the record, sir, for--I thought 
about something, and please indulge me if I put a ``b'' when 
there should have been an ``m'' before, when I was talking 
about the city savings contract. I really want to be very 
careful about the record. When I talked about the city savings 
contract and its corruption case, I believe it was--it was a 
multi-year contract, that was many millions of dollars.
    It was not a billion dollars. I think it was something like 
$30 million or whatever. I probably would have remembered that 
had I not walked in here today trying to keep everything else 
in my head. But that was an inadvertent misstatement on the 
base.
    Mr. Gohmert. Still a lot of zeros.
    Mr. Letten. Oh, it's a lot of zeros, yes, sir.
    Mr. Scott. Thank you very much.
    Mr. Forbes. Thank you.
    Mr. Letten. Thank you.
    Mr. Scott. And we'll ask our next panel to come forward. We 
will come to order and welcome our next panel.
    First, we have the Honorable Ernestine Gray, Judge of the 
New Orleans Parish Juvenile Court. She serves as the 57th 
President of the National Council of Juvenile and Family Court 
Judges. She holds a Law Degree from Louisiana State University 
School of Law, and has the added distinction of having a sister 
who is a judge in my district in Virginia. Judge Gray, it's 
good to see you.
    Judge Gray. Thank you.
    Mr. Scott. Our next witness will be Howard Osofsky, 
Professor and Chair, Department of Psychiatry, at Louisiana 
State University Health Sciences Center. In addition to the 
current post, he also serves as Co-director of the Louisiana 
Rural Trauma Services Center. He received a Medical Degree from 
New York State College of Medicine, and a Doctorate in 
Psychology from Syracuse University.
    Next will be Reverend John Raphael, Pastor of New Hope 
Baptist Church in New Orleans. He was educated in the city, 
where he attended Dillard, Loyola, Southern University. He also 
has a Bachelor's Degree from Christian Bible College.
    Our final witness will be Peter Scharf, Research Professor 
of Criminal Justice at Texas State University. He is also 
Executive Director of the Center for Society, Law, and Justice, 
which he founded at the University of New Orleans. Previously 
served as Director of Technology and Technical Assistance at 
the Police Foundation in Washington DC, where he helped found 
the Bureau of Justice Assistance Community Policing Consortium 
and developed its Risk Management Management System. He holds a 
Doctorate of Education Degree from Harvard University and has 
the added distinction of having a daughter who lives in my 
district. Thank you.
    Mr. Scott. Judge Gray.

   TESTIMONY OF THE HONORABLE ERNESTINE GRAY, JUDGE, ORLEANS 
                PARISH JUVENILE COURT, LOUISIANA

    Judge Gray. Thank you, and good afternoon. It is my honor 
to be here to speak before the Committee this afternoon. A lot 
of what I would want to have said to you has already been said; 
so, it's going to be emphasis and reemphasizing. I'd like to 
start off by quoting a police officer who was quoted in an 
article in the Times Picayune on Sunday, entitled, ``Losing 
Juvenile Jails - Age Justice Some Say - Alternative Sought for 
Young Offenders''; an article by Katy Reckdal.
    Mr. Scott. Could you move your mike a little closer?
    Judge Gray. Sure. And Officer Melvin Gilbert said, ``If we 
do what we've always done, we'll get what we've always 
gotten.'' Einstein said it differently: ``Insanity is doing the 
same thing over and over and expecting different results.''
    Indeed Hurricane Katrina presented those of us living in 
New Orleans with crisis and opportunity. Every day, as we are 
still dealing with the crisis, we are trying very hard to make 
use of, and maximize, the opportunities. In order to 
effectively talk about post-Katrina, one must have some 
appreciation of pre-Katrina.
    Youth in Louisiana are subject to a significantly higher 
level of significant risk factors than the national average; 
and children in New Orleans are at even greater risk. According 
to the Annie Casey Foundation's Kids Count, an Agenda for 
Children, Louisiana ranks 49 out of the 50 States in terms of 
overall child welfare; and the city of New Orleans consistently 
ranked lower than the State as a whole. Louisiana ranked 49 in 
the country for the number of children living in poverty, with 
26.6 percent of all children in Louisiana living in poverty. In 
New Orleans, 40.5 percent of children lived in poverty. 
Louisiana was 49 in low-birth-weight babies. New Orleans had a 
higher percentage than the State as a whole: 10.1 versus 5.7. 
Louisiana ranked 41 in the percentage of teens who are high 
school dropouts. Again, New Orleans children were at higher 
risk. Fifteen percent of 16- to 19-year-olds in New Orleans 
were high school dropouts, compared to 10 percent statewide.
    As summer approaches, and the anticipated school vacation, 
coupled with a lack of recreational activities and other 
proactive factors, suggest to the Orleans Parish Criminal Court 
that the number of arrests for delinquent behavior--both 
representative of normal adolescence and actual crimes--may 
significantly increase. It is not my purpose to sound alarmist, 
because I believe on the whole that the news about our youth, 
those 17 years and under, is positive.
    In fact, prior to Hurricane Katrina, based on information 
from the New Orleans Police Department, the Juvenile Division, 
we were beginning to see some modest decline in juvenile 
delinquency and status offenses. For example, the Juvenile 
Division reported a 6 percent decrease in curfew violations, a 
35 percent decrease in truants, and a 12 percent decrease in 
juvenile arrests, when comparing the first 8 months, January to 
August, of 2004 and 2005.
    During 2006, there were approximately 870 arrests for 
delinquent behavior which resulted in 347 new delinquency 
filings in the Orleans Parish Juvenile Court. The breakdown of 
the arrests by crimes was as follows: Possession of marijuana 
120, or 14 percent; those children arrested on warrants, 101, 
or 12 percent; criminal trespass, 71, or 8 percent; disturbing 
the peace and simple battery, 63, or 7 percent; possession of 
crack cocaine and curfew and other offenses 53; or 6 percent; 
resisting arrest and distribution of crack cocaine, 47, or 5 
percent; murder, out of the 161 total for the year, 3 of 
children who were under 17, 2 at age 16, 1 at age 15--armed 
robbery, 12, or 0.013 percent; gun possession arrest, 38, or 
0.04 percent.
    While the numbers for the first quarter of 2007 seem to be 
on the increase, based on the number of petitions that have 
been filed with the Court, we do not yet have the arrest data 
from which the police--from the Police Department, by which we 
could give the same percentages.
    Other pieces of demographic information which the Committee 
might find interesting is that African American youth are 98 
percent of those youth arrested in New Orleans; Whites 
represent 1 percent; and Asians are 0.002 percent. The 
breakdown by sex of African American youth is 76 percent male 
and 22 percent female. Further, our best information indicates 
that youths between the ages of 15 and 17 are responsible for 
most of the delinquent behavior committed by youth in our city.
    I would be remiss if I did not say, as we worry about 
delinquent youth, we must also be concerned about those youth 
who, most times through no fault of their own, find themselves 
in foster care. Youth growing up in foster care face a broad 
range of challenges are, and are at high risk for delinquent 
behavior. It is well documented that many adult prisoners have 
a history of childhood abuse and neglect.
    Given all of the above, here are important takeaways for 
this Subcommittee: The progress that has been made in the 
juvenile area could not have been made without the support of 
the Federal Government, and we will more than likely continue 
to need your support for some time in the future. We have come 
a long way in bringing stake holders together, capitalizing on 
the juvenile reform efforts that started in the State prior to 
Hurricane Katrina. And we are assessing our needs, but we are 
just beginning the dialogue of how our system should operate. 
We are looking to the National Council of Juvenile and Family 
Court Judges Delinquency Resource Guidelines, and the eight 
core strategies of the Annie Casey's Juvenile Detention 
Alternative Initiatives to provide much of the blueprint for 
how we will work in the future.
    As we continue to work to build a better, more responsive 
citizen, there are some critical issues that we must address: 
data collection, disproportionate minority confinement, 
continued meaningful collaboration, alternatives to 
incarceration, development of Continuum of Care, as well as 
addressing the conditions of confinement.
    Our programs are good, but under-funded. As we're trying to 
live and work in post-Katrina New Orleans, many of our services 
are not back in place. Our programs are at capacity, with 
smaller caseloads overall. There are too few programs under 
Continuum of Care that should be in place as any community is 
trying to ensure that its youth population has the best chance 
of becoming healthy, productive adults and contributing 
citizens. We are lacking critical services for families in our 
communities, particularly mental health and substance abuse.
    As we work hard to improve the system, protect the 
community, and hold juveniles accountable, we must not forget 
that we worry about what a child will become tomorrow, but we 
cannot forget that he is someone today.
    I would urge Congress to continue to ensure the existence 
of the Office of Juvenile Justice and Delinquency Prevention, 
which will come up for reauthorization this year.
    You might wonder why a Judge sitting in New Orleans would 
see that as important. I will tell you. Someone asked about 
programs that work. My information is that we in the juvenile 
arena are able to rely on information from the Office of 
Juvenile Justice and Prevention that talks about what are the 
best practice, what are the programs that work, because they 
have published and continued research and evaluating programs 
and put out in the field for replication those things that 
work; so, I would urge our continued support of that office. I 
would also urge, as someone else has mentioned, the 
continuation of Byrne funds that are available to communities, 
come to New Orleans, to the State of Louisiana, that would 
support the criminal justice system through funding. I would 
urge you to continue to support that.
    In closing, I would say that prevention, I believe, is the 
key. We do not soothe a victim; we cannot take away the pain of 
a victim after the crime is committed. The way we stop them 
from hurting, the way we make it better for them, is to do 
whatever we can, everything that we can, to prevent the crime, 
to event the harm, in the first place. That is how we serve our 
citizens. That is how we serve our children. That is how we 
serve our community. And that is how we serve our Nation. Thank 
you.
    Mr. Scott. Thank you.
    [The prepared statement of Ms. Gray follows:]
      Prepared Statement of the Honorable Ernestine Gray, Judge, 
                Orleans Parish Juvenile Court, Louisiana

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ATTACHMENT

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Dr. Osofsky.

    TESTIMONY OF HOWARD J. OSOFSKY, CHAIR, LOUISIANA STATE 
 UNIVERSITY HEALTH SCIENCES CENTER, DEPARTMENT OF PSYCHIATRY, 
                        NEW ORLEANS, LA

    Dr. Osofsky. Chairman Scott, thank you for the opportunity 
to be here and testify to the Committee. In addition to being 
the Chair of Psychiatry at LSU Health Sciences Center and Co-
Director of the Louisiana Rural Trauma Services Center, since 
Hurricane Katrina, the State asked me, ``in my spare time,'' to 
be the Clinical Director of Louisiana Spirit, the crisis 
counseling and our regular services counseling provided under 
the Stafford Act. I also would like to say that, as we try to 
assist the community in rebuilding infrastructure, I am 
grateful to our faculty. Even with pay cuts, with furloughs, 
with still no offices, we've been able to retain almost all of 
our faculty and add new faculty. And at the time when the 
Federal Government did its survey, whereas prior to the 
hurricane we were probably 8 percent of the psychiatrists in 
the City; since the hurricane, when they did the survey, we 
were probably a minimal of 60 to 70 percent, and with other 
mental health professionals on our faculty. We have retained 
full resident training, child resident training, psychology 
training, social work training; and, as I said, I'm truly 
grateful for the people who work with us in, what I know is our 
current difficult environment.
    Although I will not reiterate what's been stated before, as 
a member of the Board of the New Orleans Police and Justice 
Foundation, I'm certainly aware and appreciative of the efforts 
that are being made throughout our city with the support of our 
Federal Government.
    Let me just focus briefly on the mental health perspective. 
Many problems are apparent. The slow recovery of our community 
with overcrowding, economic loss, difficulty in rebuilding, and 
concerns about safety, contribute to demoralization. Although, 
we recognize the importance of family structure and support, 
members of the community at large, including First Responders, 
are living with ongoing family stresses and what is clearly 
apparent, is an increase in family conflict and divorce.
    At the present time, actually, our department, without full 
funding, is working in the police districts, in firehouses, in 
EMS headquarters, and also providing confidential offsite 
services at no cost to First Responders and their families to 
try and help. We certainly have a very high percentage of 
appreciation and response involving these service.
    I would also mention as a contributor to stress, that drugs 
are a significant problem in our community. I would even say 
that based on one of the NIDA grants in the community it's 
apparent that drug dealers have returned with purer and less-
expensive drugs. There is the issue of competition; the fewer 
number of people available to buy drugs has been an important 
factor. A high percentage of arrests are drug-related, 
compounded by anger, retaliation, and the other issues that are 
inherent within the drug trafficking system. Police officers 
not only face stresses in their daily work, but increased 
danger related to the violent crimes and frequent drug-related 
crimes. Further their commitment to fighting nightly crimes and 
other responsibilities makes it less likely they can be 
involved in preventative measures, such as picking up young 
people who are inappropriately on the street at night and who 
should be taken to the curfew center.
    The need to rebuild mental health infrastructure is 
critical. There is a desperate need for a crisis intervention 
unit, inpatient psychiatric beds, especially those that can 
address co-occurring disorders of substance abuse and mental 
health, and an appropriate system of care within the community. 
Our somewhat reduced police force picks up a greater percentage 
of patients who are suicidal or severely mentally impaired. 
They frequently need to drive 30 minutes to an emergency room 
and then wait a minimum of 1 hour, sometimes as long as 5 
hours, for transfer. At times, officers and emergency medical 
technicians report not only the demoralization, which we're 
hearing a great deal about, but demoralization relating to some 
of these issues and how they can face them.
    Sending patients to other parts of the State, as is often 
proposed, is not an answer. Without a system of care and full 
family participation, the likelihood of recidivism is much 
greater. It is very important that zero tolerance be 
maintained. However we must address the problems of community 
recovery meeting the needs of young people in our community who 
have endured much trauma.
    Together with schools, our department has now completed 
over 10,000 evidence-based needs assessments, helping schools 
with returning students of all ages in Orleans Parish, St. 
Bernard, and Plaquemines Parishes. Although resilient, in some 
areas as high as 45 percent of the children and adolescents 
meet the cutoff scores for mental health services on these 
evidenced-based measures. With the younger children, whose 
parents complete the measures, over 30 percent of the parents 
request help for their children and themselves.
    Family-based services are crucial at this time. A 
considerable number of adolescents are living on their own, 
away from home, away from parents, in order to be back in the 
community and attend schools. They are living on their own 
frequently as a result of overcrowding in trailers and parents 
not being able to return because of employment issues and 
housing issues, both of which result in inadequate supervision. 
With overcrowding, children and adolescents are also exposed to 
more fighting and family disputes.
    Adolescents have described being unable to talk to parents 
who are themselves overwhelmed or with other adults who may 
also be stressed.
    Returning students are often in reconstituted schools with 
fewer consistent friends and also fewer teachers whom they know 
from the past. Rival groups of children and adolescents are 
frequently brought together under one roof with little to do 
after school or on weekends in devastated areas. I can tell you 
about the numbers of students, excuse me, adolescents where 
their activity at night can be driving a car up and down the 
street in devastated areas, with really very little for them to 
do as far as services, normal activities.
    Take a look at this and the use of drugs, alcohol, and 
risk-taking behaviors. Schools have reported an increase in 
fighting, bullying, and have described their concerns about 
risk-taking behaviors. There are very few programs planned for 
the summer because of limited resources.
    There is a need for the development of positive programs 
such as the Youth Leadership Program that Judge Gray and the 
Sheriff and our department worked on for a number of years with 
students on the brink of disaster, who were being expelled from 
schools, even from alternative schools.
    We also have an extremely positive Youth Leadership 
Program, with ordinary students helping them to help other 
students help others in the community, do service; and in the 
process, to function much better in school in their families, 
and in the communities.
    There's also the Cops for Kids Program, with which we've 
worked actively for years in the summer; but, again, with 
reduced funding and numbers for students----
    Mr. Scott. Did you say Cops for Kids?
    Dr. Osofsky. Cops for Kids. It's a collaboration between 
the New Orleans police department, our department, teachers, 
and New Orleans Police and Justice Foundation, to help young 
people who normally lived in housing developments to have 
better summer experiences, learn to trust the police, have 
different types of activities and counseling--with again, 
excellent results.
    Mr. Scott. And if you could summarize.
    Dr. Osofsky. Okay. Unless we address prevention and early 
intervention, we will not allow our youth to fulfill their 
potential. In both the short- and long-term, lack of attention 
to prevention and early intervention activities will contribute 
to delinquency, crime, substance abuse, and violence. Thank you 
very much.
    Mr. Scott. Thank you.
    [The background information of Mr. Osofsky follows:]
              Background Information of Howard J. Osofsky

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Reverend Raphael.

          TESTIMONY OF JOHN RAPHAEL, PASTOR, NEW HOPE 
                BAPTIST CHURCH, NEW ORLEANS, LA

    Reverend Raphael. Good afternoon. I am honored this 
afternoon to have the opportunity to speak to this Committee 
concerning this important matter. Hurricane Katrina and 
subsequent flooding of New Orleans did at least two things to 
us in the city. First of which although shamefully revealing if 
responded to in an inadequate matter can result in New Orleans 
becoming a perfect model of all that is great in America. The 
second of which has intensified pre-Katrina problems and if not 
responded to adequately, will result in New Orleans becoming a 
perfect model of all that is wrong with America.
    The first thing that Katrina did was expose years of 
neglect in areas already mentioned today, such as education, 
housing, job opportunities with livable wages, and most 
onerous, among other things, adequate flood protection. While 
most of the New Orleans pre-Katrina problems were not unique to 
our city, what is unique is the level of national and indeed 
international compassion and concern both for our city and its 
citizens in response to the Katrina catastrophe. I pray that 
the heart-felt concerns of your constituents across America 
will serve as the impetus for Congressional Commitment to 
provide the resources to bring New Orleans, not back to its 
pre-Katrina condition, but forward to its post-Katrina 
potential.
    But while this city without the experience of Katrina may 
have been able to continue for many years, continue to limp 
socially, educationally, and economical, while garbed in the 
Mardi Gras masquerade of a city in which all was well. The 
social aftermath of Katrina has produced a paralyzing 
hopelessness upon a large portion of our population. The 
communities of New Orleans which have been most affected by 
violent crimes are, to a large degree, populated by individuals 
whose frustrations are reflected in the recently reported 
statement of one of our trailer-bound senior citizens. Her 
disheartening declaration was that ``Sometimes I feel that I am 
in the world all by myself.''
    I have personally seen to far too many murder scenes on the 
streets of New Orleans where the response at the scene always 
seems to be the same: a family member of the victim, broken-
hearted and distraught, crying out for someone to step forth 
and tell what happened, while the dispassionate crowd stands by 
tearlessly and silently until the body is taken away. A great 
number of those homicides have occurred in the middle of the 
day and in highly populated residential areas in New Orleans.
    And it has been my observation that both the boldness of 
violent offenders and the lack of response by witnesses, 
somehow is connected to, among other things, the perception 
that the lives of certain members of our communities are not 
valuable. Although this toxic and self-devaluing perception is 
one which finds its roots in a long-ago ended slave-driven 
economy and, more recently, for years, been nursed on the pads 
of social neglect, the initial response, or rather lack of 
response to Katrina victims has injected it with new life. The 
inhumane intense observation without immediate action suffered 
by the economically disenfranchised of our city, most of whom 
were African Americans, declared dishonestly, but distinctly, 
to those individuals that their lives were of little or no 
value.
    The failure to provide or at least to promise hope of 
adequate housing and economic opportunities for the poorest of 
those affected by Katrina perpetuates the perception that those 
individuals are of little or no value. And as a consequence of 
this perception of devalued lives, among other factors, far too 
many individuals have been violently destroyed by offenders and 
discounted by witnesses.
    As a former police officer for many years in the city of 
New Orleans, I am abundantly aware of the need for well-
trained, well-equipped, well-paid law enforcement officers in 
the battle against crime. We are all in agreement that funds 
are needed for an adequately staffed and properly functioning 
District Attorney's office. We all recognize the need for a 
firm, but fair, court system.
    But along with addressing these needs, it is imperative 
that we recognize that a hopeless community will cripple even--
efforts of even the best-paid cops, the best-prepared 
prosecutors of criminal cases, and the best-principled courts. 
A hopeless community is an uninvolved community. An uninvolved 
community provides the breeding ground for uninhibited 
criminal--criminal activity. There are many across our city who 
recognize that a great deal of the responsibility for providing 
a solution to the crime and violence in our communities rests 
upon us, and many have moved far beyond simply complaining 
about the predicament to confronting the problem.
    Both religious and community groups, often at the risk of 
life and limb, have actively gone into the most dangerous 
communities in New Orleans in an attempt to provide hope for 
the hurting, help for the struggling, and alternatives for 
those engaged in criminal life styles. We have attempted to 
provide remedies for self-inflicted social wounds, to generate 
neighborhood concern, to develop relationships between police 
and community, and to encourage witness involvement in the 
prosecution of offenders. However, as long as citizens are 
faced with inadequate or no housing, inadequate paying jobs, or 
no job at all, with few job-training programs, with an 
inadequate education system, and virtually no recreational 
programs for our children, with inadequate physical and mental-
health services, and with insufficient drug rehabilitation 
facilities, drug dealers will continue to justify dispensing 
death on our streets, mothers will continue to bury their sons 
and daughters, children will continue to die before they 
discover what living is all about, and New Orleans will 
continue to cling to the title of ``Murder Capital of our 
Country.''
    Again, in closing, I know that our city is only one of many 
in America facing similar social ills. But I'm convinced that 
the good will of our neighborhoods across this country, our own 
determination to prevail, your commitment to this task, and the 
help of God, provides us with a unique opportunity for us to 
prove that just as we are a Nation that can lift mankind from 
the depths of pain and poverty around the world, then we are 
more than qualified to do the same here. Thank you.
    Mr. Scott. Thank you. Reverend Raphael, I know it was quite 
a challenge for a Baptist minister to keep it within the 
allotted 5 minutes. I was hoping I wouldn't have to give you 
the touch. [Laughter.]
    I appreciate your testimony, particularly the part where 
you mentioned that I was here back in September--August or 
September of last year.
    Reverend Raphael. Yes, sir.
    Mr. Scott. So a lot of people are familiar with your work. 
Thank you.
    [The background information of Mr. Raphael follows:]
                 Background information of John Raphael

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Professor Scharf.

   TESTIMONY OF PETER SCHARF, RESEARCH PROFESSOR OF CRIMINAL 
  JUSTICE AND EXECUTIVE DIRECTOR, CENTER FOR SOCIETY, LAW AND 
               JUSTICE AT TEXAS STATE UNIVERSITY

    Mr. Scharf. I'm so honored to be here. In preparing with 
Chief Counsel Bobby Vassar, and listening to your questions, 
I'd like to think ``What are the concerns of the Committee?'' 
This is an incredible opportunity to re-invent criminal justice 
support in this country. One question is: What's driving the 
murder epidemic here and elsewhere? Murder rates are up 4 
percent in the first half of 2006, and this is not the only 
city that's experiencing a rise in murder risks.
    And the second question is a question of evidence: What's 
our best shot.
    And as I thought about that as homework for my testimony, I 
read the Challenge of Crime in a Free Society, written in 1968, 
funded by President Johnson.
    And the same issues he dealt with there are part of 
education versus cops versus prosecutors was evident in those 
discussions here and the answer to both. And then this question 
that I think has been repeated through the years is the 
question--is the question of accountability. And I think there 
are two issues: One, will money get to the end user? And the 
second question is the issue of outcomes. If we invest in a 
particular strategy, what is the return on investment of any of 
these strategies? And I want to make a case in that the 
direction, that funding in criminal justice and in New Orleans, 
is a rational investment. Somebody, a wise man, once said, 
``Start with what we all agree on.'' What do we all agree on? 
One, that we had an experience here in New Orleans, and we had 
it all through the United States in 1990's, where you had an 
increase in Federal funding and the ``Cops More'' program and 
the murder rates went down. People forget, the murder rate for 
1994 the Len Davis year which was at 88/100,000 the total was 
424. In 1999, it was 162, exactly what it is now except that 
New Orleans had 480,000 population. So, under the Pennington 
Plan, in which Linder created a terrific strategic plan, they 
reduced the murder rate 60 percent. In fact, among all the 
cities, the decreases were highest in New Orleans.
    So, right now, we're embarrassed and all that. In fact, we 
had the steepest decline in the 1990's. If you look at surveys 
done, at that time the people loved the place; they wanted to 
take their wives and their husbands out to dinner; and there 
was a completely different perception of safety than there is 
now. That was about 7 years ago. What we've done research on is 
what happened in the '90's, and the answer is ``We don't 
know.'' We don't know the specifics, but we know one thing: 
That if you have a coherent strategic plan, if the organization 
works together, it becomes a crime-fighting system, not a bunch 
of different agencies doing their own thing. And Jim Letten 
rightfully made that point. In fact, this isn't nuclear 
science. You can reduce down the murder rate. New Orleans did 
it. 40 of the top 80 cities, in fact, produced those kinds of 
results.
    The major issue in New Orleans: Okay, let's be realistic. 
Things right now are horrible. Jim Letten commented that we 
have 60 homicides with only 100 days through April 10 in the 
year. That means a person dies here between every 1.7 days and 
1.8 days. And with 220,000 people, or 240,000 people, that's 
absolutely horrific. It's double Richmond's rate. Richmond is 
about 43/100,000. For the past 9 months, we might hit 90 per 
hundred thousand. New York at 6.5. So there's no wayto explain 
this, there's no way to deny it. There's been a problem.
    Mr. Scott. Can you say those numbers again?
    Mr. Scharf. The issue, I think, that cuts to the heart of 
the testimony, is the main question: We face what's going on 
here? And we have had three theories expressed, and they're 
different. And I think if you build national policy as the 
policy of New Orleans, you have to sort through these different 
theories. One is we have the worst under-class, if you want to 
call it that, violent, drug-infested, low moral values, low 
education, in the history of the earth. And this is a person-
focused theory. The other theory, the second theory is that the 
criminal justice system is broken. And the reason that the 
group that Mr. Raphael discussed, will not want to go in that 
profession, if you want to call it that? One, the system 
doesn't work. And if that's the theory, then you have different 
remedies compared to the first theory. The third thing: We're 
actually doing research on the relationship between migration 
and the rise of crime in New Orleans, and this theory deals 
with destabilization, in fact, from Hurricane Katrina. Consider 
these points: What happened was the drug dealers went to West 
Houston and became closer to the drug supply. They learned some 
nasty habits from much more sophisticated Houston murderers or 
example, drive-bys. They come back without parents and 
grandparents. It's destabilization. And they also find drug 
competitors in a city where they used to have a monopoly in 
dealing drugs. So there's some truth in this in theory. And 
these theories dictate how we proceed, I think, affects what we 
do.
    The other area we did research on, and this was funded by 
the Department of Justice, is the cost of crime. We partnered 
with the National Institute of Justice and Michael Geerkin, who 
worked on this. A murder is worth a million dollars. And what 
they would define as the value if a young person is shot and 
sits in a wheelchair the rest of his life, it's $2 million. If 
you take the 161 murders from last year and you say there five 
to one wounded in action to killed in action, the total cost of 
violence could be half a billion dollars; and that's without 
the exodus of brains, tourists, and business to add to all 
this. You know, you could be talking as an investment loss of 
close to a billion dollars. What do I recommend you think 
about? Okay, one, there's a disproportionate underinvestment in 
this violent crime problem in the sense we went from $4.2 
billion to a $1.2 billion in Federal criminal justice 
expenditures, and one factor is we're under-resourced to deal 
with the depth of the problems we face.
    The second issue what do we do with the money? One thing to 
insist on, and people may be uncomfortable with this for the 
community get this money, you need a coherent business plan to 
effectively use funding of the criminal justice system. And you 
have a coherent plan which builds on evidence also has outcomes 
defined. And you can measure the outcomes. And if we don't have 
that, we're going to continue to remain where we're at.
    The third thing to think about and this is very complex--
addresses the Katrina issue: Crime is mobile. We tend to think 
about city crimes as, for example, New Orleans crime. Well, 
Jefferson Parish is up. We probably have about 10 times 
compared to most cities, and that is the truth of it. And it's 
a complex dynamic that we don't understand, that deals with the 
migration and the destabilization of drug traffic, and many 
deaths in a number of cities, including New Orleans. Fourteen-
year-old murderers come back without parents and get caught up 
by the gun and drug culture.
    The other area is this--I think we have to get better. And 
this was true in the Challenge of Crime in a Free Society book 
in 1968--we need to improve markedly. This is, by the way, the 
root of LEAA. May be this is where we're at. And what LEAA 
really did in that study was they built capacity, criminal 
justice capacity. So, you know, to be honest, to fight the 
murder problem, you have to fight your own organization. We are 
the problem. It's us. It's the organization. And we have to 
improve capacity. This is true, in fact, in any of the top 15 
murder risk cities in the United States. It's true in Newark. 
It's true to Detroit. It's true in many cities. It's due highly 
to increased capacity, so the people are able to deal with this 
terrible threat of murder.
    The way through the wall I think basically what the House 
of Representatives can do is this: I mean, work with us to 
build a plan. Work with us to rebuild New Orleans as living 
place, and certainly, the NO Crime Summit does a great job with 
ideas as how to do this.
    Work to build a metrics to prove we will deliver what we 
say we deliver, and help us develop both community capacity, 
criminal justice capacity.
    And the last issue is the question of should we build 
parks, schools, or perhaps fund more police officers? I think 
you ought to build both capacities. I think if you don't fund 
both community and law enforcement agencies, you risk having a 
bias in one direction. Focus on early intervention, as Judge 
Gray suggested. Focus on police capacity, as Jim Bernazzani 
very articulately suggested. And focus on correctional 
treatment, so when the offenders come out, they don't come back 
again. I'm honored to be here. Thank you very much.
    Mr. Scott. Thank you very much, Professor. Could you just 
repeat the numbers of the murder rates?
    Was it 6 in New York per 100,000?
    Mr. Scharf. New York had 539 murders for 8.1 million 
people, and it comes out to just about 6. For the last 9 
months, we're hovering about 90 murders per 100,000. And we 
take the numbers from here as a statistic--I mean, you know, if 
you kill somebody every other day--somebody's murdered, well, 
more than every 2 days, you're, you know, at 223,000 people 
you're close to 100 for every 100,000 persons.
    And it's right now about this rate--it's a murder every 1.8 
days; so, you realize--these are the best numbers we have, and 
a professor from Tulane puts the murder rate at 96 per 100,000. 
The cautious number is somewhere between 85 and 90 per 100,000 
persons, going back 9 months.
    Mr. Scott. Thank you. Judge Gray, could you say a word 
about what's going on with the issue of the defense problem? Is 
that being solved, or is that still ongoing?
    Judge Gray. There's still a lot of work that needs to be 
done. You know, I assume from the statewide--the Indigent 
Defender's Office statewide, before the storm, they were having 
some serious problems. One of the criminal judges here was 
holding them in contempt, brought them to court around their 
representation after the storm, as is natural. A lot of their 
people didn't return. Their funding was cut; and, so, they're 
struggling with trying to figure out how to fund the system so 
that it can provide the numbers of persons that they need in 
order to function in both the Criminal Court and the Juvenile 
Court. They are working through anticipating some funding 
coming out of the legislative session, I believe, this year, 
which will give them some relief. But it's still a big issue on 
how to adequately fund the indigent defender system in the 
State.
    Mr. Scott. In your court, if a juvenile is being tried as 
an adult, do they come to your court.
    Judge Gray. Yes. In our court every child, whether they're 
being tried as an adult or not, if they're tried--if they're 
charged and brought to court, under our law, they have to have 
a lawyer.
    Mr. Scott. And can you say a word about whether we ought to 
be increasing or decreasing the number of juveniles being tried 
as adults?
    Judge Gray. I believe that we should not be increasing. 
That goes back to my statement about insanity. I am confused 
about why we think we should send young people--all the 
evidence we have about their brain--brain development that came 
out--that has come out recently, why we think we ought to send 
young people to a system that doesn't work for adults. It would 
be one thing if we were able to get adults in the system, get 
them out, and have them not re-offend. That's just not our 
experience. What we know about sending kids to the adult system 
is that, when they are released, they generally re-offend 
earlier, they re-offend at more severe levels. And, so, sending 
them to the adult system does not help the community because it 
doesn't make them safer, and it really doesn't help the 
children either because they become bigger and badder 
criminals.
    [The prepared statement of Mr. Scharf follows:]
                   Prepared Statement of Peter Scharf

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you. Reverend Raphael, you mentioned 
witness testimony that's been mentioned by a number of people, 
that that is a problem. Can you say a word about what we ought 
to be doing in the City to make sure witnesses testify? If you 
don't have a witness, you don't have a case.
    Reverend Raphael. That's been a problem long before 
Katrina, and we've actually done some things going to--going to 
court with witnesses, just a group of men just walk in court 
and sit there with the witnesses. The problems usually referred 
to just as a response to fear of retaliation by the perpetrator 
or the accused. Well, that problem is greater than that. If a 
policy, a community policy, is that it's wrong to say something 
to the police, it's wrong to get involved, then that person not 
only has fear of the possibility of retaliation from the 
accused; but now he's ostracized from the community. He's 
looked down upon by--by his own community; and, so, you have 
that veil of silence. And we've been doing some things to try 
to elevate--again to perceive value of life, to let--that even 
if the cost is not life, it's right for me to step forward.
    I hate to say it, but there's a strange phenomenon that if 
a White police officer is accused of shooting me, I would be 
able to find as many witnesses as I need, or somebody would be 
able to find them. But if the gentleman who lives in the next 
block from me takes my life, my life was nothing. And we have 
to find a way to change that perception in our community, that 
my life is of no value if it's taken by somebody else right 
there in that community.
    And I think it's something that--that--that's why I believe 
that the Police Department, no matter what we do, no matter 
what we do in the courts, no matter what we do with the DA's 
office, if the community does not recognize and accept this 
responsibility, then every aspect falls apart, every aspect.
    Mr. Scott. Mr. Forbes.
    Mr. Forbes. Mr. Chairman.
    And, Reverend Raphael, I'm going to come back to you. I 
want you to just think about--the question I'm going to ask you 
is: Are you currently a pastor in a church?
    Reverend Raphael. Yes, sir.
    Mr. Forbes. The question I'm going to have for you is--I 
don't disagree with anything you said.
    But how can we help you do what you do? Just think about 
that a minute. When I come back to you----
    Judge Gray--thank you all for being here. But I want to ask 
you, Judge, a question. We have a lot of expertise, and I'm 
sure you have a lot of experience in a lot of areas other than 
just the judiciary. But today you're the only shot in the 
judiciary. You know, you're it for us. You're there. The 
question may be repeating what we've done, and not to repeat. I 
understand about prevention and those kinds of thing. But one 
of the questions that I'm grappling with, as I look to New 
Orleans, and I look at the fact that we have 7 percent--this is 
before Katrina. It's worse after Katrina by a little, but 7 
percent of the people who are arrested for violent crimes and 
crimes ultimately are incarcerated. Twelve percent of the 
people who are arrested for murders are incarcerated for the 
murders. If we sent that to the bank, you know, that you do 
that, I know you wouldn't suggest that we release that other 7 
percent or 12 percent, but where's the problem in that 
strength? Is Chief Riley arresting the wrong people? Are we 
letting people off that we shouldn't be letting off? Are we not 
prosecuting? I think everybody agrees that statistic is a bad 
statistic. You know, it is--it is an enormous failure. Where is 
the breakdown?
    Judge Gray. Well, I'm sorry, Congressman, I'm not sure that 
I can give you a definitive answer on where the breakdown is 
because I believe in each individual case one of those things 
that you mentioned that might be a problem would be the 
problem; i.e., on an individual case, it might be that the 
wrong person was arrested. It might be that, in the case where 
there was someone arrested, the evidence wasn't properly taken 
care of.
    But I would back off and say, in this country, we have a 
system that's based on a person gets arrested; they are not 
guilty until they are tried by either a judge or a jury of 
their peers. And just because someone gets arrested does not 
mean they are guilty. That's not our country. That's not what 
we believe in. We believe in a person having a right to go to 
court after being charged, with a lawyer, and present their 
defense. Now, when they bring--present their case to the jury, 
if the jury decides that the prosecution didn't provide enough 
evidence, and they find that the person is not guilty, that is 
the way we say we want our system to work. Not guilty, they go 
home. If the prosecution evaluates what the police bring to 
them, and they decide there is not enough here to present this 
case, I believe that's what we call prosecutorial discretion; 
they have a right to do that.
    Now, I believe that there are some issues based on the fact 
that, in my experience, the persons who are hired for work at 
the DA's office, many of them, at least in juvenile court for 
example, are the newest people in the office. They stay in 
juvenile court 6 months at the longest they would stay. And 
then they would go to adult court, and they would be 
responsible for trying those cases. I believe that the District 
Attorney's office, probably because of low pay, was not able to 
attract people with the kinds of skills that they needed in 
order to be able to put their cases together. That's what I 
think. That's part of the problem.
    Mr. Forbes. And I don't think anybody disagrees that we 
want somebody innocent to be pled guilty. That's not my 
question. It's just--I think it's a very big concern we're 
arresting 93 percent of the wrong people, whatever is 
happening. I think it's a big problem we're arresting 88 
percent of the wrong people for murders. So we have to, at some 
point, say, ``We've got to do a better job of who we arrest.'' 
Or we have to say, ``We've got to do a better job of 
prosecuting the people that we arrest.'' One of the two of 
those things aren't lining up.
    Judge Gray. But I actually think it's a combination of the 
two. I really think it is both. I think the system needs 
reinforcement at all those points: Police with the training and 
the tools that they use--people have already talked about 
that--so they can arrest the right people. And then, once that 
information is provided to the prosecutor's office, that office 
is staffed with people who have the skills and the ability to 
put those cases together and present them to the jurors and the 
judge. So, I think it is both. I think, quite often, what we do 
in criminal justice is we look at one piece of the system and 
say, for example, we will get more police.
    Mr. Forbes. Judge, can I ask you this? I'd love to hear it. 
I'm out of time. Could you give us that just in writing. And I 
know I'd love to hear your speech, but he's going to cut me off 
here. That's okay.
    Judge Gray. Okay.
    Mr. Forbes. I want Reverend Raphael to try to help us with 
how we can help you because I know your church is doing a lot 
of good work? How do we help you instill that respect for life?
    Reverend Raphael. I know this is going to sound strange; 
but I don't think money is my big issue.
    Mr. Forbes. I'm not asking you just money. What else?
    Reverend Raphael. Other than money, I don't know what you 
can do. [Laughter.]
    But the bulk of all the resources, and what we have what's 
called ``The Way Out Program.'' There's a segment, I have 
programs that are tutorial for kids and programs for young 
girls, programs for young boys. But when they leave that 
program, when they go home, they have to go back to that same 
neighborhood and find themselves heavily influenced by the 
heroes, or those who are feared, in that neighborhood.
    If that segment of the community is not addressed, no 
matter how hard we work with these kids all day long, when they 
go back, they're going to either, desire to emulate that person 
or they're going to feel pressured to act like that person 
does, to feel comfortable in that community. If you act like it 
long enough, you're going to become it.
    So, what we do is what I call compassionate confrontation: 
We actually go out to these areas and approach individuals who 
are out there selling--they're standing on the corner, they're 
carrying--and offer them a way out. Again, that could be 
dangerous, but we never had a problem with it, and the response 
is that you'll be surprised that many of those individuals are 
almost waiting for somebody to say something to them or come 
and get them, and we're right in the midst of them. When I 
leave here, I have to go out on the street and this is 30 days 
of happenings in about a 40-square-block area. There has not 
been an incident of violence since we started that particular 
spot a couple of weeks ago.
    And if I could have people on staff, to be able to go to 
that individual who's on the street. If he lets me talk to him, 
and I offer him another alternative, I want to be able to bring 
him in, right from there, bring him in to an office, let 
somebody evaluate him: and ask what is the hang up? Is it 
education? Is it drug treatment? Is it job training? Or is it 
just that you need a job? Sometimes our biggest problem in our 
community is information. We have jobs available in New Orleans 
right now; but there's somebody standing on the corner in New 
Orleans right now who's convinced that there are no jobs.
    Mr. Forbes. Right.
    Reverend Raphael. And, so, my biggest need would be to be 
able to staff, of course, obviously, we need recreation centers 
for the kids out there who are on the streets. I have a little 
piece of property. I put some sand in it, right by the church. 
We're going to make it a peace area for seniors where they can 
go and sit. Well, we got kind of bogged down, and it's just 
sand. I watch the kids in the neighborhood there, and they're 
just building sandcastles. That's all they have, sand. So, we 
need those kind of facilities to be able to provide some kind 
of structured training.
    Mr. Forbes. Well, that might not be anything we can help 
with; but thank you for what you are doing.
    Reverend Raphael. Thank you.
    Mr. Scott. Gohmert.
    Mr. Gohmert. Thank you. I do appreciate all that you've 
done. There were some of the panelists we've had today, you can 
tell there's a bit of friction between some of them. And this, 
obviously, is a panel of people that really want to help and 
try to make a difference. And, Judge, I know it's difficult 
dealing with juveniles, you get the new fresh prosecutors. And 
the truth is, what they see is so heart-breaking, they don't 
want to stay there very long. So, my hats off to you for 
continuing in your diligence.
    But, Reverend Raphael, you mentioned--I thought it was 
pretty profound--that this Hurricane Katrina exposed two things 
about America: Basically, in effect, what's good about America 
and also the problems. But I've got to tell you; in driving 
around East Texas, which is my district, we had tens of 
thousands of evacuees from New Orleans in my district. And 
sometimes, virtually almost 24 hours a day, I was going around 
helping, and there were times I just got choked up because I 
saw the churches where the children of all colors, all ages, 
were playing together. I saw civic centers where the community 
just poured out contributions, and it just choked me up that 
this is what's good with America.
    I had people say, ``If I had known that it was this easy to 
get a job in East Texas, I would have left New Orleans a long 
time ago.'' And it seemed to bring about this idea that there 
is a sense of hopelessness among those that may just want, 
well, there's just no use. I can't find a job. They don't have 
that tunnel vision. And I'm no psychiatrist, but that seems to 
be a problem of people who get depressed. I don't know if 
there's any consolation--when you talked about people feeling 
that they're not worth anything, apparently, the Congress 
appropriated over $150,000 per person of the 450-or-so-thousand 
that were living in New Orleans. Where did all of that money 
go? I don't know. But as you know, a family of six, they were 
worth over a million bucks according to the Congress. And I 
don't know where that money has all gone because it sure 
doesn't appear to have gone to the individuals. I'm sure they 
would have taken 150 grand and walked on.
    I'm an optimist by nature. I walked around along the River 
walk and the park that's been redone. I've walked several miles 
yesterday evening and last night after dark. There's been so 
much done. There's so much graciousness in this town. It has a 
personality all its own. It is such an asset. But there is a 
great need here, I think. I just can hear you say that since 
you are such a man of passion and compassion. To you, what is 
the way, the truth, and the light? What motivates you?
    Reverend Raphael. Well, I was brought up in a time when 
people sacrificed for other people. My father was the first 
Black police officer in New Orleans. My grandfather was a 
pastor. And, if anything, they gave me the opportunity to 
serve.
    Mr. Gohmert. That's a tough combination to grow up under. 
[Laughter.]
    Reverend Raphael. And my mother died when I was--other 
people raised me. But your city drives me because, after all I 
stayed there during the storm. I had some people who didn't 
want to leave; so, I stayed at the church and let them stay 
there. I got about 70 people out after the storm. During the 
time between Lake Charles and Texas, going back and forth, I 
would hear the news reports in Houston and other areas about 
fights between children from New Orleans students and there.
    And I just took it on myself to go to Houston. And I 
started going to every high school I could. I would just go and 
tell them I'm from New Orleans. I thought those children were 
abandoned, but they didn't hear it. We were traumatized as 
adults. I know they had to be.
    Some of the principals let me come right in and talk. 
Others said, ``Well, you have to go to the independent school 
district and talk to them.'' But I looked at the structures in 
the school. Some I drove up to. I thought they were closed 
because there was nobody outside, which you don't find that in 
New Orleans; nobody--and I go there and I see mega structures 
that looked like college campuses. And I'm standing out in the 
hallway, and I'm talking to a principal. I'm talking to the 
principal, and the bell rings. There's 3,500 students there, 
and I'm thinking, ``Shouldn't we run for our lives?'' But 
everything is so organized. I realized how far we were in our 
city and how unfair we were to our children to just settle for 
that, and not to push to take advantage of this opportunity, to 
push them to the best we can have, and not just a Band-Aid on 
the behavior.
    Mr. Gohmert. If I could just follow up with one thing, Mr. 
Chairman.
    Dr. Scharf, you had mentioned it, and I guess all of you 
have, really, there needs to be a combination of things to 
address the problem, that you do have to communicate and 
improve capacity, as well as have the education and the 
opportunities there. But--and it does seem that there are 
numbers that support the fact, when more prisons are 
available--I know in Texas our crime rate through the '90's 
dropped when we had greater capacity. And one of the things Dr. 
Osofsky pointed to with the massive drug problem, it just sure 
seems, when we lock people up, we have got to do a better job 
of addressing the drug and alcohol addiction. Isn't that----
    Mr. Scharf. I totally concur. I think that rehabilitation 
comes first, it's the issue, I think the hardest thing to do--
and Mr. Raphael is doing such a great job--at this is: How do 
you engage the highest risk individuals having the quality of 
engaging the highest-risk students, the highest-risk offenders 
and potential offenders. And how do you get that hands-on 
value-based program touching them? And that's where the not-
for-profit, faith-based organizations, I think, have an 
enormous role. And an issue of witnessing, I think, is 
critical. I think the New Orleans policing entities are living 
down the ghost of Len Davis, a man who killed somebody 14 years 
ago, in a certain way, except there's really this trust issue, 
and how do you overcome those historical issues?
    In terms of correctional rehabilitation--there is a 
reduction use of moral development in corrections. We need to 
look at the newest model, substance abuse, real active 
intervention, anger management, ethics development, the things 
that really can make a difference because, you know, with the 
sentencing laws that are in Texas, Louisiana, or any place 
else, if you re-incarcerate a person, I mean, it's a huge 
economic burden losing a special ed teacher for 20 years, you 
know? And I think that that is such an important area of 
innovation. I think if you look at models--we went to New York 
and I brought Harry Lee, the Sheriff of Jefferson Parish, and 
the Black Ministry to review the New York model. And it was 
really interesting--we went to New York and said, ``What 
happened here?'' And it was a Bratton miracle, or police 
miracle, or correctional miracle, and/or community miracle. The 
evidence is it's actually a correctional miracle. They 
developed a triage system, and they developed an approach 
where--anyone who's not imminently dangerous, they wanted them 
out in 45 days, with their family, earning a living, and so 
forth. And, so it's important that we have to look all through 
the different components of this network, including the kind of 
work that Mr. Raphael does. And really, to get solutions, one 
component won't do it.
    Mr. Gohmert. Thank you. And thank all of you. And by the 
way, Reverend, if I were a witness in a case and you came and 
sat with me, I'd feel safer. [Laughter.]
    Reverend Raphael. God bless you.
    Mr. Scott. Thank you. I've got about four additional 
questions. Let me just ask one and see how we do.
    Judge, you mentioned 98 percent of the people confined or 
in your court are African American?
    Judge Gray. I think I said arrested. But arrested, come to 
court, confined, placed on supervision; carries all the way 
through.
    Mr. Scott. And JJDP that you mentioned--JDP Act, requires a 
study of disproportionate minority confinement.
    Judge Gray. Yes, sir. You're correct. And we haven't done 
very well on that in this State.
    Mr. Scott. And have you done a study of it to ascertain----
    Judge Gray. Locally or statewide?
    Mr. Scott. Either one.
    Judge Gray. We have not, to my knowledge, done either one. 
We are working on the juvenile court in New Orleans is working 
with Casey; and, as a matter of fact, as part of the Casey 
work, we have identified that as an issue that we really do 
need to work on. And I think, what happened, we were able to 
get some statistics about the number of children who were 
arrested or referred. We haven't been able to get the numbers 
on the White kids. And we've got--at the end of the last year, 
we got some numbers that really, really showed that, actually, 
White kids were being arrested, but they were not making it 
into the system. And, after seeing those numbers, people 
thought that we really need to do something, look at this issue 
more closely. And I believe that, as a part of our Casey work, 
we're going to be looking at the minority.
    Mr. Scott. Disproportionate minority----
    Judge Gray [continuing]. Contact.
    Mr. Scott [continuing]. Contact.
    Judge Gray. Thank you very much. Yes.
    Mr. Scott. And do you have sufficient alternatives to 
incarceration?
    Judge Gray. Do we have sufficient alternatives? That would 
be a no. No, sir. That is, again, something that we are working 
on with Casey. We, just like everywhere else, if you had a bed, 
you filled it. And quite often we were filling our beds with 
children who really didn't need to be incarcerated, but we 
didn't have anything else. We didn't have substance abuse. We 
didn't have mental health treatment. And so what the judges 
have done after the storm is they really are going to do things 
differently. And part of what we're going to work with Casey is 
around developing--developing some of those alternatives; 
releasing kids on devices, evening reporting centers, those 
kinds of things so that we can have our children at home and 
not in the detention facility. And the article that I mentioned 
earlier from the Sunday paper does a good job of talking about 
that, and I actually have four copies here.
    Mr. Scott. Thank you. The Mayor mentioned summer jobs is an 
important issue. Will summer jobs make a difference in juvenile 
crime?
    Judge Gray. I believe so. My grandmother always taught me 
that an idle mind is the devil's workshop. And I believe that, 
just like talking about making people feel valued, if one has a 
job to do for which they can get compensation, that makes a 
difference. And for our young people, they want to have--they 
want to have money. And if they don't figure out a way to get 
it legally, they figure out a way to get it illegally.
    And that's what we want to turn around. So the opportunity 
to work, the opportunity to have a role in the economic 
development for our city, I think, is important for our young 
people.
    Mr. Scott. Dr. Osofsky, there's psychological evidence to 
suggest that summer jobs are going to reduce crime?
    Dr. Osofsky. Certainly--I would say that's correct, 
especially now that many of the schools in New Orleans do not 
have facilities that have summer programs. And, I think that's 
an important issue. There's another issue with the kids who 
have been--adolescents/children who've been placed. And coming 
back, some of them, not only have the wonderful experience we 
talked about, for example, in Eastern Texas; but they've been 
in multiple schools. There are some of them in no schools; some 
of them in trailer parks. They are behind even where they were. 
And with remediation programs, it's also important that they 
not feel further depreciated. But there is evidence that summer 
jobs or programs, to facilitate a touch of leadership, that are 
being taught, do have an impact.
    Mr. Scott. Thank you. Questions?
    Mr. Forbes. I just wanted to ask Professor Scharf. You 
mentioned in New York, an experience in New York, it wasn't 
necessarily a policing thing that took place. Let me just say I 
disagree with you on that because I've been there and I've seen 
it, as I know you've been there and seen it. But, if you take 
some of the biggest ministries in New York, Teen Challenge is 
the one I'm thinking about, they work.
    Since I know you're familiar with this situation, been at 
this church, seen what they've done, reaching young people. 
They couldn't do that until they sent the police in from 
basically Time Square all the way down to Central Park. Got the 
prostitutes off the streets, the drug dealers off the streets. 
And now they're able to go out into the streets and get those 
teenagers and bring them. Same things. Not just with the ritzy 
area. Brooklyn Tabernacle Church, same thing. They have 3,000 
people every Tuesday night come in there from all walks of 
life. Walk there. Before, they couldn't.
    And so it takes that combination of things, that you were 
talking about. You've got to go in with a strong amount of 
force--and even if you walk. If you walk at midnight, you know, 
down the streets of New York and the police are there, but 
they're trained not to be intrusive. They're just there. But 
they do create that feeling of stability and safety that gives 
you a lot of other things. So it's the combination approach 
that I----
    Mr. Scharf. Absolutely. And I think the major proactive 
issue is one of the central leadership, and health, education. 
New York's miracle was one irony that people may not know. They 
went from 2274 homicides in 1991 to 539, and 28,000 jail cells 
to 13,000 jail cells. So, part of the miracle, including police 
participation a huge part, is that they reduced incarceration 
and murders, which is, you know, counter initiative, it's a 
counter to ``accepted'' fact, but a very effective strategy.
    Mr. Forbes. Doctor, one of the things that we need to 
remember, as we heard here today, is you've got to stop this 
revolving door----
    Mr. Scharf. Absolutely.
    Mr. Forbes [continuing]. That we're putting these criminals 
back out on the streets because you're never going to get those 
people to testify if they think that guy's going to be back out 
on the street tomorrow. And you're never going to give them 
hope that they can clean up the neighborhoods because they're 
going to be coming right back. They're doing it day after day.
    Mr. Scott. Mr. Scharf, Professor, do you know whether or 
not the calculation of the fewer jail cells, the savings in the 
fewer jail cells, is more or less than the amount of money 
invested to produce that result?
    Mr. Scharf. Oh, my Lord. How we can afford prison. That 
strikes me as an easy calculation. I mean, Marty Horn, he 
shared his data with us. But to reduced costs if you took a 
$30,000 number, it's an astronomic figure. They did it through 
triage, and they did it through treatment. They did it through 
planning. By the way the issue you asked before about over-
representation of African American persons in the criminal 
justice system, Robert Crutchfield in Washington State has done 
the classic research, and they found that 45 percent of 
Washington State defendants were African American. And 
basically it's a 9 percent African-American population.
    And they look at every factor, and that's a classic study, 
you know, probably the best research on that issue.
    Mr. Scott. Let's get the--that data and the New York study 
because I suspect that they spent less than they say they did.
    Dr. Osofsky. Oh, absolutely.
    Mr. Scott. Mr. Gohmert, do you have anything?
    Mr. Gohmert. Mr. Chairman, you had indicated we include 
Bobby Jindal's statement. Heck, I told him he might as well run 
for governor again. A lot of people would vote against her in 
my district, you know, so. [Laughter.]
    Maybe I just put you in the middle. But, anyway, thank you-
all so much.
    Mr. Scott. Thank you. And I want to thank you, Mr. Forbes. 
We thank our witnesses. If there's no objection, the hearing 
record will remain open for 1 week for submission of additional 
materials. And with, that the Subcommittee stands adjourned.
    [Whereupon, the Subcommittee was adjourned.]




















                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
